<html>
<title> - COLUMBIA BASIN 2000 BIOLOGICAL PLAN FOR ANADROMOUS FISH RECOVERY</title>
<body><pre>[Senate Hearing 108-355]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-355

    COLUMBIA BASIN 2000 BIOLOGICAL PLAN FOR ANADROMOUS FISH RECOVERY

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON FISHERIES, 
                          WILDLIFE, AND WATER

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON



  THE IMPLEMENTATION OF THE NATIONAL MARINE SERVICE'S 2000 BIOLOGICAL 
OPINION FOR ANADROMOUS FISH REGARDING THE FEDERAL COLUMBIA RIVER BASIN 
                              POWER SYSTEM


                               __________

                             JUNE 24, 2003


                               __________


  Printed for the use of the Committee on Environment and Public Works


                    U.S. GOVERNMENT PRINTING OFFICE
92-377                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director
                                 ------                                

             Subcommittee on Fisheries, Wildlife, and Water

                   MICHAEL D. CRAPO, Idaho, Chairman
JOHN W. WARNER, Virginia             BOB GRAHAM, Florida
LISA MURKOWSKI, Alaska               MAX BAUCUS, Montana
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 24, 2003
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    43
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     1

                               WITNESSES

Bogert, L. Michael, counsel, on behalf of Governor Dirk 
  Kempthorne, State of Idaho.....................................    20
    Prepared statement...........................................    78
Danielson, Judi, chairperson, Northwest Power Planning Council...    22
    Prepared statement...........................................    61
Huffaker, Steve, on behalf of the Columbia River Fish and 
  Wildlife Authority.............................................    24
    Prepared statement...........................................    84
Johnson, Anthony, chairman, Nez Perce Tribe......................    33
    Prepared statement...........................................    88
Knieriemen, Colonel Dale, Deputy Commander, Northwestern 
  Division, United States Army Corps of Engineers................     6
    Prepared statement...........................................    56
Lohn, Bob, Administrator, National Marine Fisheries Service......     3
    Prepared statement...........................................    43
McDonald, J. William, regional director, Bureau of Reclamation, 
  Pacific Northwest Regional Office..............................     8
    Prepared statement...........................................    60
Murillo, Nancy, chairperson, Shoshone-Bannock Tribes.............    35
    Prepared statement...........................................    90
Wright, Steven J., administrator and CEO, Bonneville Power 
  Administration.................................................     5
    Prepared statement...........................................    52

                         ADDITIONAL STATEMENTS

Statement, Ford, Pat, Save Our Wild Salmon.......................    93

 
    COLUMBIA BASIN 2000 BIOLOGICAL PLAN FOR ANADROMOUS FISH RECOVERY

                              ----------                              


                         TUESDAY, JUNE 24, 2003

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Fisheries, Wildlife, and Water,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:31 a.m. in 
room 406, Dirksen Senate Building, Hon. Michael D. Crapo 
[chairman of the subcommittee] presiding.
    Present: Senator Crapo.

 OPENING STATEMENT OF HON. MICHAEL D. CRAPO, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Crapo. Good morning. This morning the Subcommittee 
on Fisheries, Wildlife and Water will receive testimony on the 
implementation of the December 2000 Federal Columbia River 
Power System Biological Opinion. This hearing will come to 
order. I want to first thank all of the witnesses who have made 
the effort to prepare testimony and to come here yet once again 
to testify about this critical issue.
    In the more than 10 years that I have served in the U.S. 
Congress, recovering Pacific salmon has been one of my top 
priorities. I have held hearings and traveled throughout the 
navigation system on the Snake and Columbia Rivers, looking at 
the hydroelectric projects and fish passage systems. I have 
urged transparency by the Federal agencies in the development 
of the biological opinions and required them to produce 
documents when I did not believe they had proceeded in a 
transparent manner.
    I have enlisted the help of the General Accounting Office 
in trying to understand how much and where salmon funding is 
spent. I have developed a funding plan of my own for 
implementing the December 2000 Biological Opinion. And every 
year, I have worked to secure funding for conserving and 
recovering these incredible fish.
    I am certainly not suggesting that I am the only one, 
especially of those here in this room, who have been working 
hard over the last few years to help try to recover our salmon 
and steelhead. In fact, I know that we are joined here by 
witnesses and there are many others in the audience or who are 
listening in today who have spent as much time, if not more, in 
fact many their entire careers working on this critical issue 
and dedicating themselves to restoring salmon and steelhead.
    My point in saying this is simply that here we are again 
trying to find the best path forward that will restore this 
incredible icon of the Pacific Northwest. Although I am 
disappointed and frustrated, as I am sure many of you are, that 
we have come this far and invested so much money that we must 
address the obstacles that are currently before us and recommit 
to doing the best we can to recover these fish.
    Let me also say that understanding where we are with regard 
to the BiOp implementation is in my opinion almost, if not 
equally, important today as it was prior to the court's ruling 
of just a short time ago. I also realize that there is still a 
potential for an appeal of that decision so we do not know what 
will be the outcome. But if we go ahead, if there is an appeal 
and the decision is overturned, we are still working with the 
biological opinion. If there is not an appeal and there are 
proceedings under the court's current approach, then there is 
going to be a reevaluation of the Biological Opinion and there 
will be actions taken in some context to proceed with 
developing a biological opinion that will pass court muster.
    One way or the other, our evaluation today of where we are 
and where we are headed with regard to implementation of 
procedures to save the salmon and steelhead in the Pacific 
Northwest is critical.
    I want to also point out that from my perspective, one of 
the critical issues which was focused on by the court and which 
I believe we are all going to be focusing on in whatever 
context we move forward is the resources that we will need to 
bring to bear from the various sources of assistance that we 
can find to restore salmon and steelhead. That is one of the 
focuses that you will find that I will pay attention to 
throughout this hearing.
    I would like to thank our witnesses today for taking the 
time to be with us. At this point, I am going to lay out the 
ground rules for the hearing and then we will proceed with the 
hearing. For those of you who have been in hearings with me 
before, you will know that I always try to encourage the 
witnesses to remember that there is a 5-minute clock in front 
of you. I know that you all have much more than 5 minutes worth 
to say, and believe me, we will get into some discussions and 
questions where you will be able to present your further 
thoughts. Your written testimony has been received and will be 
reviewed thoroughly, so don't feel that you have to read word 
for word your written testimony.
    I would like you to pay attention to the clock. When your 5 
minutes is up, try to wrap up wherever you are and summarize 
your statement. Then we will proceed with questions and answers 
from there. If you are like me and you sometimes to see the 
clock, I may tap the gavel up here a little bit to remind you 
to take a look at it.
    With that, let's go ahead with our first panel. The first 
panel is Mr. Bob Lohn, the Administrator of the National Marine 
Fisheries Service; Mr. Steven J. Wright, who is the 
Administrator and CEO of the Bonneville Power Administration. 
We have Colonel Dale Knieriemen, who is the Deputy Commander of 
the Northwestern Division of the United States Army Corps of 
Engineers; and Mr. Williams McDonald, Regional Director of the 
Bureau of Reclamation.
    Gentlemen, we thank you all for being with us. Let's go in 
the order that I said your names rather than the order that you 
are sitting. So Mr. Lohn, we will go with you first. Please 
proceed.

STATEMENT OF BOB LOHN, ADMINISTRATOR, NATIONAL MARINE FISHERIES 
                            SERVICE

    Mr. Lohn. Good morning, Senator, and thank you for 
convening this hearing. I also want to just testify to your 
interest and passion on this subject. I have enjoyed working 
with you and your staff.
    For the record, my name is Bob Lohn, Regional Administrator 
of the Northwest Region of the National Marine Fisheries 
Service, also known as NOAA Fisheries. I appreciate the 
invitation to be here with regional colleagues, tribal, State 
and other Federal colleagues. I am going to try to briefly talk 
about three points, and certainly stand open for further 
questions on any of them. In addition, I have filed written 
testimony and I would appreciate if that could be entered in 
the record.
    Senator Crapo. Let me just interrupt and say that the 
written testimony of all witnesses will be accepted into the 
record without objection. Thank you, sir.
    Mr. Lohn. Three subjects I would like to touch very quickly 
on are the status of the litigation involving the FCRPS 
biological opinion, the status of implementation, and finally 
briefly the status of the listed ESUs, sort of where we stand 
on three fronts.
    As you know, over the last 14 years, NOAA Fisheries has 
listed 26 separate populations of salmon and steelhead as 
threatened or endangered under the Endangered Species Act in 
Idaho, Washington, Oregon and California. Of these listing, 
eight occur in the Federal Columbia River Power System, or 
FCRPS, including four in the Snake River.
    When we list a species or a sub-species or a distinct 
population segment, which these are, we are required to conduct 
a Section 7 consultation with Federal agencies who are 
proposing to take any action that would be likely to jeopardize 
the continued existence of the species or adversely affect 
critical habitat. Out of that requirement, we conducted a 
consultation, and in the year 2000 issued what is at least the 
third in a series of biological opinions. The 2000 FCRPS 
Biological Opinion determined that jeopardy would flow from the 
action as proposed and called for 199 reasonable and prudent 
alternatives. So there are other actions if taken that 
cumulatively would avoid jeopardy.
    Soon after its issuance, it was challenged in court by 
various interest groups. On May 7 of this year, Judge Redden 
ruled that the Biological Opinion was not adequate. I read the 
ruling and others may read it in different ways, as basically a 
technical opinion. I am not diminishing Judge Redden's 
expertise. I think he wrote it very carefully and very 
deliberately the way he did it, but a technical opinion in 
which in particular Judge Redden said the mitigation as 
described does not clearly fit into two categories established 
under a 1985 rule adopted to implement the Endangered Species 
Act. That rule requires that in looking at future actions, an 
agency such as ours look only at, first, Federal actions that 
have been subject to Section 7 consultation; and second, non-
Federal actions that are, quote, ``reasonably certain to 
occur.'' If things don't fit in those categories under that 
rule, Judge Redden would say we would not be allowed to take 
the into account.
    In effect, this opinion says the judge is not certain how 
we categorized the various actions we were relying on. He is 
not certain whether they fit these categories, and in effect 
his direction to us at a minimum is to go back, review these 
actions, and determine whether (A), the actions fit in these 
categories; and (B), whether those that do fit are adequate to 
avoid jeopardy.
    So on June 2, Judge Redden remanded the Biological Opinion 
to us for further action. The court has agreed to give us up to 
1 year to revise the Biological Opinion in accordance with its 
rulings. Status reports are to be filed every 90 days followed 
1 week later with a conference of counsel to determine whether 
further actions need to be taken.
    Currently, as you noted, the court is considering a motion 
by the plaintiffs to vacate the Biological Opinion while it is 
undergoing revision. Briefing on that motion to vacate was 
completed last week. The court may rule at any time. A decision 
by the court to vacate the Biological Opinion could leave us 
without clear guidance in the interim as to what should be done 
and how the system should be operated. So certainly we would 
see that alternative as leading to chaos. I think the judge is 
well informed on that and we expect a decision shortly from 
him. I am certainly hopeful that it leaves the framework in 
place while we are revising the Opinion.
    We are currently undertaking a very extensive review of the 
Biological Opinion. We are not just looking at patching up a 
few flaws, but we are going back and reviewing the models used, 
certainly updating the assumptions and the science used in it. 
It is too early to say what the outcome will be, but at a 
minimum I expect it to reflect the best available science, 
including science that has come available in the last couple of 
years.
    The status of the current Biological Opinion is still 
relevant because whatever the constructs, Senator, I think the 
next opinion also will be a mixture of actions within the 
mainstem and a series of actions taken offsite, that is, in the 
tributaries of the Columbia and Snake. Given those actions, the 
pattern will be the same and it will be interested in 
implementing. The implementation status is reported in the 
material I have provided for you. I will simply leave it at 
that. I would say we are making good progress in most areas. 
Sub-basin planning will be critical. In that area, I want to 
give credit to the Power Planning Council and others for 
getting it underway. It has gotten off to a slower start 
through the fault of no one and certainly not the Council, but 
I would rate that as making good progress.
    The second key element, monitoring and evaluation, the 
Administration has supported funding for it and did not receive 
it last year. Additional funding to the tune of $15 million is 
in this year's budget. That will be important to measuring the 
effect.
    Finally, Senator, there was a question about the status of 
stocks. I have provided a brief summary in the form of graphs 
that cover the status of the stocks since 1980. They show a 
sharp upward tick recently. I do not consider that success. I 
do consider it a sign that for the moment, the stocks are 
showing improvement, largely a function of ocean conditions, 
also reflecting changes we have made. Is it convincing that the 
problem is solved? Certainly not. Until we now what the 
underlying problem is and really have identified at a specific 
level, we will not know if we have fixed it. It is too early to 
declare success.
    Thank you, sir.
    Senator Crapo. Thank you very much, Mr. Lohn.
    Mr. Wright?

     STATEMENT OF STEVEN J. WRIGHT, ADMINISTRATOR AND CEO, 
                BONNEVILLE POWER ADMINISTRATION

    Mr. Wright. Thank you, Mr. Chairman.
    I am here today to discuss the implementation of the 2000 
BiOp, and I would like to start by saying I think we have some 
good news to report. Despite the droughts of the last couple of 
years, the West Coast energy crisis, the bad economy that we 
suffered in the Northwest, and higher rates, NOAA Fisheries has 
recently concluded that the action agencies, the Corps, the 
Bonneville Power Agency, are implementing 95 percent of the 
Biological Opinion requirements of the reasonable improvement 
alternatives.
    Juvenile fish survival in the river today is now at the 
same rate as in the 1960's before the implementation of many of 
the dams in the river. We have had excellent returns recently, 
including this year. This is the first class of 2001 to return 
and of course this is a great relief to me personally because 
2001 was the year of the drought and the year in which we 
implemented many of the power system emergencies, reducing some 
of the BiOp implementation measures because of the West Coast 
energy crisis. We are making the BiOp work under extremely 
difficult circumstances.
    The BiOp represents a fundamental change in thinking, I 
believe. It focuses on performance-based standards and allows 
cost effectiveness tests to be part of the equation as we go 
forward. This is important because we know that the people of 
the region want fish and wildlife in the rivers. We also know 
that they want the programs to be cost efficient. EPA costs 
currently exceed $600 million annually for fish and wildlife 
mitigation efforts. It is not a small part of our budget. It is 
a significant portion of our cost structure. These costs 
reflect hydrosystem operations, support for the integrated 
program, and debt service on measures that we have implemented 
over the course of the last 20 years.
    Two years ago, Bonneville implemented a 46 percent rate 
increase, and this year we are looking at another substantial 
rate increase in a region that has the highest unemployment in 
the Nation. We have sought cost efficiencies from every part of 
our budget, including fish and wildlife. Earlier this year, we 
worked with the Northwest Power Planning Council to manage the 
2003 budget for fish and wildlife efforts. This was 
successfully completed and I am appreciative of the difficult 
work accomplished by the Council in getting us to where we 
needed to get to. Because we are looking at potential further 
rate increases to cover costs, I do not expect our efforts to 
manage costs to abate over the course of the next few years.
    As a result of the funding issues, many in the region have 
sought greater predictability in funding from Bonneville. We 
have expressed a willingness to engage in discussions about a 
new funding agreement, although spending levels must reflect 
both meeting our obligations and the state of the regional 
economy.
    In this regard, I was pleased by the four Governors' recent 
statement and commitment to support defining objectives and a 
cost effective approach to meeting both our Endangered Species 
Act and Northwest Power Act objectives. We also agree with our 
Federal partners, the four Governors, and the Northwest Power 
Planning Council that sub-basin planning and research 
monitoring and evaluation are key components to moving forward. 
As Mr. Lohn indicated, that was a critical finding in the 
findings letter from NOAA Fisheries that came back to us.
    Mr. Chairman, efforts to recover salmon and steelhead in 
the Northwest is one of the Nation's largest and most ambitious 
environmental recovery programs. We believe that we are seeing 
results as a result of the efforts that have been made over the 
course of the last 20 years and the increased funding that has 
been provided. In the face of some extremely challenging 
financial circumstances, we remain fully committed to meeting 
our obligations. We are focused on results and a cost effective 
approach for getting there.
    Finally, Mr. Chairman, if I could make one comment with 
respect to your comments that you made earlier, I do want to 
say to you that it is certainly my expectation that no matter 
what the court rules with respect to vacating the Biological 
Opinion, it is our intent to continue to implement the existing 
Biological Opinion until at least we can come up with a new 
Biological Opinion and address the concerns of the court.
    Thank you very much for the opportunity to appear here 
today.
    Senator Crapo. Thank you very much, Mr. Wright.
    Colonel Knieriemen?

    STATEMENT OF COLONEL DALE KNIERIEMEN, DEPUTY COMMANDER, 
  NORTHWESTERN DIVISION, UNITED STATES ARMY CORPS OF ENGINEERS

    Colonel Knieriemen. Mr. Chairman, committee members and 
distinguished guests, I am Colonel Dale Knieriemen, the Deputy 
Commander of the Northwestern Division, U.S. Army Corps of 
Engineers. I am pleased to be here today to discuss the efforts 
to restore the Columbia River Basin's stocks of salmon and 
steelhead.
    First, I would like to take this opportunity to thank the 
Congress and the Northwest delegation for your overall support 
of the salmon recovery efforts in the Columbia Basin. These 
efforts are well underway, and overall there is good news to 
report. We have made numerous improvements to dams and fish 
passage facilities throughout the system. One of our best 
success stories worth mentioning is the removable spillway weir 
or RSW at Lower Granite Dam. The RSW prototype allows juvenile 
salmon to pass the dam nearer the water surface under lower 
velocities and lower pressures.
    The RSW has the potential to provide not only fish 
benefits, but also power savings to the region. We have tested 
for mechanical and biological effectiveness and gotten good 
results. The RSW, in conjunction with the surface collector and 
four-bay guidance structure at Lower Granite shows a seven-to-
one effectiveness ratio based on the first-year data. About 70 
percent of the fish pass the spillway with only about 10 
percent of the river flow.
    Besides these new technologies, we continue to make 
improvements to existing fish bypass systems. NOAA Fisheries' 
research on Snake River spring-summer chinook indicates that 
between 50 and 60 percent of juvenile fish that migrate in-
river now successfully pass the eight Corps dams. This survival 
is similar to when there were only four dams and is up from 
about the 10 to 40 percent in the 1960's and 1970's.
    We continue to provide flows, spill, and other operational 
measures for fish during migration seasons. We are laying the 
groundwork for potential further operational adjustments. We 
barge the majority of the Snake River juveniles in accordance 
with the Biological Opinion. While this transportation system 
is not everybody's favorite, studies indicate that transport 
can increase fish survival as measured by smolt-to-adult return 
rates. This is especially true for wild fish. Returns for 
transported wild steelhead are about 85 percent greater than 
in-river migrants, and for wild chinook about 30 percent 
greater.
    At Libby Dam, the Corps began implementing the variable 
discharge alternative flood control plan operation, also known 
as VARQ, on an interim basis in January of 2003. It is a key 
action to protect the Kootenai River white sturgeon and salmon 
through improved ability to provide spring and summer flows. We 
expect to continue this interim operation until the 
environmental impact statement on the potential long-term 
implementation is completed in 2005.
    We are also making progress in habitat restoration. We 
appreciate the boost to estuary habitat restoration efforts in 
the 2003 appropriations. We continue to work with regional 
partners such as the Lower Columbia River Estuary Partnership 
and others on the planning efforts for several promising 
habitat projects in the Columbia River estuary. The Brownsmead 
project east of Astoria will restore tidal flows to about 9.2 
miles of sloughs. We have initiated the Southwest Washington 
Stream Study to replace nine culverts that are restricting 
access to small tributary streams to the Columbia River. A 
project at Crims Island would acquire and restore approximately 
425 acres of tidal emergent marsh, swamp, slough and riparian 
forest habitat in the Upper Columbia River estuary.
    As we are collectively implementing regional efforts, we 
are witnessing some of the best adult fish returns we have seen 
in a while. While much of the credit may be due to ocean 
conditions, we can take some credit for getting more and more 
juveniles safely through the migration corridor. The 2003 
returns of the spring chinook salmon were the fourth largest 
since we started counting at Bonneville Dam and the fourth year 
running of good numbers. This is in spite of the drought 
conditions the juveniles faced during the 2001 out-migration.
    Challenges remain. There is still a long way to go. We are 
in the third year of a 10-year effort and must keep the 
momentum going. One Biological Opinion goal is to restore 
10,000 acres of estuary habitat. This will be quite a push. 
Operation of Libby Dam will be a challenge to balance the needs 
of fish and those of the public living downstream. Research 
monitoring and evaluation measures in the BiOp are progressing, 
but remain a complex task. We are pursuing potential 
opportunities for linking to State, tribal, local and other 
efforts of a similar nature as we set up these systems.
    Overall, we believe the agencies are making very good 
progress. However, there is much work ahead of us. We are 
hoping for even better support from Congress as we progress 
toward the 2005 mid-point evaluation of our efforts. The 
President's budget for the Corps for Columbia River salmon 
activities is sufficient to keep us on track and we 
respectfully request your full support for that budget.
    Mr. Chairman, this concludes my testimony.
    Senator Crapo. Thank you very much, Colonel Knieriemen.
    Mr. McDonald?

STATEMENT OF J. WILLIAM MC DONALD, REGIONAL DIRECTOR, BUREAU OF 
         RECLAMATION, PACIFIC NORTHWEST REGIONAL OFFICE

    Mr. McDonald. Thank you, Mr. Chairman.
    For the record, my name is Bill McDonald. I am the Regional 
Director of the Bureau of Reclamation's Pacific Northwest 
Region. As the operator of two of the features of the Federal 
Columbia River Power System, Reclamation bears or shares 
responsibility for about one-third of the actions in the 
Biological Opinion's reasonable and prudent alternative. For my 
oral comments, I would like to focus on those responsibilities 
which we have for making habitat restoration improvements under 
Action 149 of the RPA. This action calls for a program to 
assist non-Federal water projects with passage so that there is 
proper migration paths at their diversion dams and also 
screening on these non-Federal structures.
    While Reclamation has the authority to plan and design fish 
screens and passage facilities for non-Federal projects, we 
lack the authority to actually fund construction. In that 
regard, the Administration last October proposed legislation to 
Congress which, if enacted, would give Reclamation the 
requisite authority to provide financial assistance. I am 
pleased to report that Senator Smith just this past Friday 
introduced S. 1307 which largely reflects the Administration's 
proposal. We are certainly appreciative of the Senator's 
support for that proposed legislation.
    I am frequently asked if the court's recent ruling to which 
you have referred, Mr. Chairman, still leaves us in a position 
to need that proposed legislation. What I would like to 
emphasize is that it very much does leave us needing that 
legislation. Among the things that the court found was that 
certain actions in the BiOp, in the reasonable and prudent 
alternative, were not reasonably certain to occur. The proposed 
legislation as now introduced by the Senator would allow us to 
provide financial assistance and is very important in that it 
would remove some of the uncertainty about which the court was 
concerned. So, we very much look forward to working with the 
Northwest delegation and Congress in moving forward a suitable 
bill because it is quite important to us still.
    Finally, I would note relative to appropriations that 
Reclamation has received substantial increases. Our 
appropriation in fiscal year 2001 was about $5.6 million. In 
the President's proposed budget for fiscal year 2004 it is 
about $19 million. Most of that increase is to fund the offsite 
habitat mitigation for passage and screening, about which I 
have just spoken. That funding is quite important to allow us 
to go forward. We are certainly appreciative of the 
congressional support for the program in that regard.
    In conclusion, I would note that we are quite mindful of 
the importance and the magnitude of the task which lies before 
us, and my written statement reflects a number of details in 
that regard.
    Thank you very much, Senator.
    Senator Crapo. Thank you very much, Mr. McDonald.
    Mr. Lohn, I am going to start with you. As we have already 
discussed today, a Federal judge has recently declared the 2000 
Biological Opinion invalid on the Columbia River hydrosystem, 
and basically gave your agency a year to rewrite the Biological 
Opinion. The court's decision specifically found that primarily 
the actions to improve the nonmigratory habitats laid out in 
the plan were too vague and were not reasonably certain to 
occur.
    This, to me, would seemingly suggest at least two 
alternatives during this rewrite period, and that is either we 
need to ensure that these actions are reasonable and certain to 
occur or we need to craft a plan with stronger measures 
addressed to these habitats that are affecting the hydrosystem, 
or some combination of these two alternatives. Can you just 
give me your plan right now for where you are headed with 
regard to the new world we are approaching under the court's 
order?
    Mr. Lohn. I think you have captured the two alternatives 
correctly. Actually, we are looking at both. As to where we are 
headed, as you know, these biological opinions have substantial 
technical underpinnings. We are taking the modeling and the 
technical tools we used last time, updating them with the most 
current information we have and looking at the results that 
will flow from that. We expect that to take approximately 3 
months and it is well underway at the moment.
    Following that, we will step back and see what that 
information is telling us as to whether or not we are still 
convinced that the measures we are doing as we are seeing them 
evaluated in practice are really the ones that are leading us 
to best success. The second thing, Senator, that we are doing 
is developing a model to give us greater precision in how we 
measure the effects of offsite mitigation, habitat improvements 
and the like. That is something where I think we need to do a 
better job and we are moving forward on that.
    Along with that and parallel, the lawyers and others are 
working carefully to determine how each of the existing RPAs, 
the 199 specific measures, do or do not meet Judge Redden's 
standards for certainty and clarity, and what would be needed 
to in some instances re-phrase or properly categorize those. So 
in effect, we are going through the 1999 and determining which 
ones would fit these standards.
    We expect a major decision point to be, again, three to 4 
months from now when we have this information in front of us 
and look at what counts, what value we have, and what we are 
able to measure, and what the new science is showing us. At 
that time, I think we will have a decision as to whether the 
current Biological Opinion needs substantial amendment or 
whether in fact we need to write one with a different 
foundation.
    Senator Crapo. Thank you very much.
    I personally believe that our objective in the Pacific 
Northwest should be to restore the fish not just to the 
standards that the Endangered Species Act requires to avoid 
extinction, but to abundant, self-sustaining, harvestable 
levels. With that goal in mind, what I am going to refer to 
right now occurred before your tenure at NMFS, and so I can say 
this without taking a personal shot at you, but I have had some 
problems with NMFS over the last few years. As the 2000 
Biological Opinion was being developed, we held some hearings 
here in Washington to get into that because frankly at the time 
I felt that NMFS and the Federal Caucus were not working 
collaboratively at all with the States and the tribes. Frankly, 
there were decisions being made without the kind of 
collaboration and input that needed to be happening in the 
Pacific Northwest. I was very concerned about the 2000 
Biological Opinion and what it was going to contain.
    When it came out, it was a done deal. Frankly, I was not 
too critical of it because I felt that at least we had 
something to work with at the time and we needed to get going 
in trying to implement it. I did feel that it created some 
political potential for problems down the road in the way that 
it set up these mile-markers and that it essentially set up a 
situation in which if we did not adequately fund and implement 
its contents, that we could be facing serious questions that 
the Biological Opinion avoided at the time.
    The reason I go through that background with you is because 
we are now at a time where perhaps we are going to be rewriting 
that opinion. I want to be sure that NMFS does not follow the 
same path that it followed before, to be honest with you, and 
that is to leave the States and the tribes out of the process 
and to fail to conduct itself in a collaborative manner. Could 
you comment on that please?
    Mr. Lohn. Certainly. First of all, success, whether you are 
focusing only on endangered runs, and I agree that is the wrong 
focus. Legally, of course, the Act takes us to part of that, 
but we do not have to stop there. Whether you are focused on 
abundant runs, and I accept that as something we should be 
looking at, in order to get to success we have to rely not only 
on the efforts and knowledge, but the support of people far 
away from the Federal family. This is a regional effort, if we 
succeed. I will not be a Federal effort. We have to provide the 
underpinnings, the funding, an outline, but we need to draw on 
others.
    In terms of how we get there from here, I think there are 
probably two elements. One, we do feel like we need to do a 
relatively thoroughly technical analysis just to hone in on 
what seems to be the problem. That we will do. The second 
question is, so as we look at the activities to be undertaken 
or as we review our own technical analysis, how much do we 
involve others? That is something that I am very interesting in 
reaching out to others. As I look at it in a practical sense, I 
have to weigh that against the time allowed by the court and 
the desire to get an opinion completed. But I will be very 
sensitive to that as we develop it, and I will look for 
mechanisms to seek not only just regional review, but greater 
regional collaboration. I will be mindful of that.
    Senator Crapo. Thank you very much, Mr. Lohn. I appreciate 
your commitment on that. I realize that you do not know exactly 
the kind of timeframes and dynamics you will be working within, 
but I encourage you very strongly to remember the States and 
the tribes in the process here this time around.
    Let me go to one other aspect of this. It is my 
understanding that the use of both independent and Federal, 
State and tribal scientific analysis was very useful in the 
mid-to the late-1990's. At that point, I think we called it 
PATH or other scientific efforts were underway. I do not know 
that an exact reconvening of PATH is what I am talking about, 
but maybe. But I am wondering how and when you intend to 
include the State and tribal fisheries biologists in this 
process, as well as stakeholders.
    Mr. Lohn. Senator, I would agree that PATH had a value in 
developing an understanding of the models used. I am afraid I 
do not share your same enthusiasm for some of the outcomes 
there. For example, the model that was developed by the larger 
group of participants in PATH by the coalition of States and 
tribes probably would have predicted that the runs we are now 
seeing were impossible. That is not to fault the process. It is 
simply to say there was both a process to understand and 
various agreements on modeling tools.
    We did not get to complete agreement on modeling tools, and 
I am not suggesting our model was more perfect than the others. 
But I think in making decisions, it is difficult to get the 
scientific community united on a single model. I am willing to 
try to be open and transparent about what we are using and 
allow advice about the adequacy or criticisms of that to come 
in. I am not sure that what was attempted there was almost a 
model developed by committee, and it ultimately led to a 
division of models, rather than an integration of models.
    Senator Crapo. Thank you. I appreciate your response on 
that. I think my main objective here is to see that the States 
and tribal fisheries, biologists and their information is 
incorporated. This gets back to my other point about the fact 
that I felt last time around that we had a closed-door process.
    The BiOp looks at whether downriver smolt migration is 
helped or hurt by summer spill. Do you know what the status is 
of the research on that, and are there any preliminary 
findings?
    Mr. Lohn. Senator, that has been the subject of active 
discussion. Certainly, our planning council has suggested that 
we re-look at that. I agree we need to. The problem with summer 
spill is that in summer you have primarily fall chinook 
migrating. They are fish that are not necessarily on a fast 
track to the ocean, but will sort of spiral there, taking time 
to rear, choosing later to migrate. So the value of spill to 
those fish is probably less than it is to spring migrants who 
are looking for fast passage.
    What we have determined is that in many instances late 
summer spill in particular is known to be relatively costly and 
the biological benefits are relatively low. That is, the number 
of fish aided by it are a small percentage of the run. The 
question is, is there a better way to achieve those biological 
benefits? That is really the heart of the discussion we need to 
have. I know there is interest in looking at it this year, and 
we are looking at what better alternatives we might have to 
help those fish. So I agree it is an important question.
    Senator Crapo. Thank you very much.
    I just want to go into one more thing with you, and I will 
probably go into this issue with each of the witnesses so you 
can play close attention here and start formulating your own 
answers. By way of prelude, one of the contentions that I have 
had over the years is that although we have a significant 
commitment of resources from the rate-payers in the region to 
salmon and steelhead recovery, and I think that is appropriate 
and I will be talking with Mr. Wright about that in a minute, I 
also believe that it is entirely appropriate and in fact 
necessary for the Federal Government to weigh in much more 
heavily in other contexts with support from the Federal budget.
    The reason I say that is the actions that we are 
undertaking here are being undertaken under the United States 
Endangered Species Act, which is a policy that the U.S. 
Government has decided to implement in the entire country, and 
in this case in the region. Because we are accomplishing an 
objective that is not only important to us in the Northwest, 
but as a part of Federal policy it is proper that these 
mandates from the Federal Government be funded. It gets back 
into the unfunded mandates aspect of the debates we have been 
having here for a long time.
    As you may know, I am sure you do, I have proposed a level 
of Federal support for funding of salmon and steelhead recovery 
that is far higher and above what the current level is, 
although I have to applaud the Administration for its 
significant increases in support over the last couple of years. 
I am going to continue working to lay the foundation to make 
the case to our Congress and to our President that we need, 
even in these difficult budget times, to step up to the bar and 
make certain that we provide the level of support for salmon 
and steelhead recovery that is necessary.
    So my question is, in the first place, do you agree that 
there is a role for strong Federal support for these resources 
to be put into effect?
    Mr. Lohn. Senator, I very much agree. Of course, I realize 
there are difficult budget decisions to be made within the 
Administration. At the end of the day, I need to support them. 
But without the very substantial support of yourself and other 
Members of Congress, we would not have made anywhere near the 
progress that we have made. It is critical.
    Senator Crapo. I appreciate that. My next question is one 
which may be encouraging you to climb out on a limb, and I 
would understand if you feel that you cannot answer this 
question, but I know that in the court's order, the court 
stated that one of the concerns the court had was that it was 
not clear at all that the funding for all of the Biological 
Opinion was going to be available, whether it be Federal 
funding or whether it be support from States and tribes and 
others that were expected in the Opinion. Do you believe that 
the level of Federal funding support is adequate?
    Mr. Lohn. Senator, for the very short term, which I must 
admit is where I am focused at the moment, realizing that I am 
more interested in what we need to do to get through the next 
year while we are revising the Opinion, and then I think we 
will have a much better idea of what is required. For the short 
term, if we can get the RM&E funding, I think we are at an 
adequate level. For the long term, it is difficult to say. What 
would make the picture clearer are two things. One, when we 
finish the further analysis, we will have a better idea of what 
matters and what doesn't. Two, I cannot overemphasize the 
importance of sub-basin planning. In effect, at a watershed 
level, that is identifying the problems that need fixing. At 
that point, as they become specifically identified, we have a 
much better picture of costs.
    Having said that, I have no doubt that long term, the cost 
of addressing those problems will be significant and require 
expenditures that are perhaps higher than the ones we are 
making.
    Senator Crapo. Thank you very much, Mr. Lohn. I appreciate 
your forthright responses to my questions. I am confident that 
the level we are going to need to provide is much higher than 
what we are providing. I look forward to working with you in 
trying to obtain those levels of support.
    Mr. Wright, let me turn to you and let's talk about the 
Bonneville Power Administration's role in all of this. First of 
all, could you go over with me, one of the issues that I know 
you are aware has been out there is the fact that with the 
difficult economic pressures that have been facing the 
Bonneville Power Administration in the energy arena and others 
has caused, I will put it in my words, a justifiable effort to 
look at how you can control costs within your own budget and 
then, as you know or as you have testified, propose a rate 
increase and manage the budget that you are dealing with. In 
this context, it is my understanding that the resources 
available for salmon recovery have actually gone down. Could 
you give me your perspective on that?
    Mr. Wright. I suppose I do have a different view of that. 
My perspective is that if you look at the accrual amounts, 
there has been an increase in funding going back to, recall, 
Senator, I think you were involved in the memorandum of 
agreement of 1996 that established the funding levels that 
Bonneville would provide for its overall fish and wildlife 
efforts. There was a steady increase there, with an average 
amount that was across the 1996-2001 period for the direct 
program of a little less than $100 million a year. The direct 
program, which is the offsite habitat hatcheries and those 
sorts of efforts, we are currently funded at above $135 million 
for 2002 and are headed, with the agreement that we have worked 
out with the Council toward a similar sort of level for this 
coming year for 2003. So I see an increase in funding there.
    What we are seeking to do is manage the budget that we 
assure that we do not exceed the levels that we had 
anticipated. That is particularly important to us because we 
are struggling with our finances and trying to maintain 
liquidity. Things look a lot better now than they did a few 
months ago in terms of that. But we are also trying to keep the 
size of our rate increase as low as possible. We believe that 
level of funding does meet our objectives consistent with 
statute.
    Senator Crapo. The level, if I understand it, is, and I 
want you to make sure I get it correct here, but the level that 
has been reached is $139 million, but as I understand it, it is 
not expected that there would be any fluctuation above that.
    Mr. Wright. That is what we are trying to, is manage the 
budget. Where we were headed earlier this year, in a letter 
that I sent to the Power Planning Council about a year and a 
half ago, it indicated we would provide $150 million in expense 
money, which turns out to be $139 million in accruals. For the 
$139 million level, it appeared earlier this year that we were 
headed toward spending closer to $180 million this year.
    Our concern was it was unclear whether that was a spike or 
a plateau. If it was going to be a plateau, then we were going 
to greatly exceed the average of $139 million through the 
period. So that is when we went to the Council and said we need 
to do something with respect to the spending for this year and 
try and make sure that we are not going to exceed the $139 
million average across the period. We did also ask the Council 
as to whether it would be possible to find efficiencies in the 
program and spend less than $139 million a year.
    Senator Crapo. It seems to me that you are facing, I 
understand, very difficult financial pressures because of the 
market and how things have developed. Obviously, you are 
getting pressure from every quarter, in your cost control 
efforts, not to control the costs in their quarter. But it 
seems to me that salmon and steelhead recovery is one of those 
areas where it is going to be very difficult to justify either 
putting a cap on the necessary requirements that the Biological 
Opinion may impose, or reducing them. That is just my personal 
opinion.
    The question I have is, have you given consideration to 
some other source of accounting for the salmon and steelhead 
recovery portion of your budget? What I am getting at here is, 
have you considered something like setting up a restoration 
fund that is managed differently so that it is protected from 
the vagaries of other market pressures and the like?
    Mr. Wright. That proposal has come to us in the past. It is 
difficult to figure how to do that because the Bonneville fund 
is a separate fund at the United States Treasury. We manage 
that fund as a whole fund and are expected to manage it in that 
way. Having said that, I think that the issue that fish and 
wildlife interests have raised, and it is a legitimate issue, 
is the predictability of funding from Bonneville; that there 
was a certain amount of predictability that came with the 
memorandum of agreement from 1996 to 2001, and there has been 
less predictability, I candidly admit, with respect to where we 
are today, particularly given the financial difficulties that 
we have encountered.
    Where we have expressed a willingness to discuss with folks 
is, can we move forward with something. It may not be the same 
as the old MOA, which was a document that probably had 50 to 
100 pages in it, but can we provide more predictability with 
respect to funding on a going forward basis. That is a 
discussion that we are interested in having. It was called for 
by the four Governors and their recommendations. We are 
supportive of that recommendation and want to figure out how to 
do that.
    I will say that there are probably two parts to that. The 
first is how we move through the remainder of this rate period, 
through 2006, and then longer term, where we go post-2006. In 
that regard, the Governors made another set of recommendations 
that I thought was extremely important, and that is defining 
clear objectives for us, not just for our Endangered Species 
Act goals, but also Northwest Power Act objectives. I think if 
we can create clarity with respect to ratepayers that here are 
our objectives and we are steadily moving toward accomplishing 
those objectives, it will create greater support, more broad 
support, let's say, across the Northwest for this program, 
which I think would be a good thing.
    Senator Crapo. I tend to agree with you, that if we can get 
that kind of certainty. A part of this I think gets back right 
into the court case, because as part of the court case is the 
concern about reasonable certainty or reasonable likelihood of 
the activities of the Biological Opinion to occur relates to 
whether there is funding for them. And if we have a static 
system which is not responsive necessarily to the needs of the 
Biological Opinion, I think it raises a legitimate question as 
to whether we can give certainty to the Biological Opinion.
    On the other hand, I realized, and that is what I was 
talking to Mr. Lohn about, that in my opinion there should be 
much more to this than just the ratepayer aspect of the 
resources that are coming into the system. We have to get both 
figured out and we have to get both on a track where we as the 
public and those of us in policy positions and those in 
implementation positions are aware of what is expected, so that 
we can plug it in, and then start building the public support 
and confidence for it.
    In that context, if I understood what you said, you are 
willing to work with the States, the tribes and the other 
members of the Federal family to put together some kind of an 
approach where we can get a handle on it, or another MOU if 
necessary, on how we will approach salmon and steelhead funding 
in the BPA portion of the budget.
    Mr. Wright. Yes, I am. Let me say that that is an important 
thing for us. I think we do need to accomplish that and I would 
like to get it done. I do need to say, as I said in my oral 
testimony, that there are some expectations out there with 
respect to level of funding from Bonneville which I think is 
beyond our ability to provide. So a critical part here is the 
balance between meeting our objectives, Northwest Power Act, 
ESA, tribal trust responsibilities, along with balancing the 
needs of the regional economy.
    Senator Crapo. I think that is correct. In fact, the 
General Accounting Office's testimony at the recent Senate 
Indian Affairs Committee hearing, and I believe you were at 
that hearing or testified at that hearing, their report 
highlighted what they called the inherent conflict between 
BPA's role as a supplier of economic electricity and as a 
protector or restorer of fish and wildlife. I think that is 
what we have been talking about here, is when you get budget 
pressures and financial pressures like we are seeing in today's 
market, that inherent conflict that you have to manage becomes 
very difficult. It seems to me that that conflict is likely to 
grow in coming years as power demands bump up against increased 
salmon and steelhead protection needs.
    That is why I have proposed that you evaluate something 
like a separate fund or some kind of a specific structure that 
will enable you and all of us to identify over a multi-year 
period, and I am talking about working with the States and the 
tribes and the Council and others to put this together, but it 
will help us all to build that partnership going forward and it 
will give us the certainty that we can then have to work toward 
building the rest of the pieces to this so that we have the 
resources committed to the salmon and steelhead that we need 
committed. So I appreciate your approach to that.
    Mr. Wright. If I could just add one thing, Senator.
    Senator Crapo. Yes?
    Mr. Wright. First of all, I hope what you heard from me is 
I do not quite know a way to do a separate fund, but I do think 
there is a way to do an MOA which I think will meet the 
objectives that you are talking about. If I could just say, 
though, with respect to the inherent conflict, there is an 
inherent conflict. There are a number of conflicts. We share 
the conflicts with our partners here. It is not just power and 
fish. It is navigation, irrigation, flood control and all of 
the things that we have to do in the system. I do not believe 
that because there is inherent conflict means that it can't be 
done. These are a set of objectives that the Congress has laid 
out for us. It is possible to satisfy these different 
objectives. That is our goal and to figure out a way to meet 
them all.
    Senator Crapo. I certainly agree with you. I don't know how 
many times I have gone through the list of the various things 
that the Columbia and Snake River systems provide for the 
people in the Pacific Northwest, but it is everything from 
power to wildlife and fish and environment, to flood control, 
to recreation, to economic development, to irrigation, and the 
list just goes on and on. It is management of all of these 
critical aspects of our life in the Pacific Northwest that 
makes this such a difficult and yet such an important issue.
    I certainly take my hat off to all of you and those in the 
room and throughout the country who have been putting so much 
of your life into this effort. I just want to continue to work 
with you on that, in the hope that we can build it so that it 
works out in a way that we can get the resources to the fish. I 
suppose one of the things that I am angling at here with regard 
to all aspects of this problem is that we have an Endangered 
Species Act that sets a Federal policy that the salmon and 
steelhead need to be protected and recovered and the court 
order is putting an exclamation point on this. We have got make 
sure we have the resources to do it and the plan that will make 
it happen. That is the primary purpose of this hearing, which 
is to again focus on that.
    Let me ask you, do you think it would be helpful in this 
process as we approach the issue if your decisionmaking, and 
Mr. Lohn I might come back to you for an answer to this same 
question, if you had a clearer economic analysis than we have 
today that illustrated the economic benefits that the salmon 
and steelhead provide to the economy and to the region, as well 
as, you know, we always talk about them in terms of our 
environmental heritage. I know there have been a lot of studies 
and a lot of talk about having studies with regard to what they 
mean economically, but do you believe that having a thorough 
study of the economic meaning of restoring our salmon and 
steelhead would be of benefit as we put together this plan and 
this approach?
    Mr. Wright. I have to admit that that is a question that I 
have not given a lot of thought to. So I am not sure that I 
have real clear thoughts on it. I do know that there was a lot 
of work that went into the Corps EIS on removal of the Snake 
River dams that got to economic benefits of recreation, 
including fisheries. That has been useful to us, at least as we 
have thought about these issues. I think at least the starting 
point would be, what did we have there and is there something 
that we would use to buildupon that.
    Senator Crapo. Thank you.
    Mr. Lohn, what would your thoughts be on that?
    Mr. Lohn. Senator, I would be very enthusiastic in support 
of that, because I share your belief, setting aside the ESA 
issues, that an investment in a more abundant fishery, 
something that provides a real basis for the local 
infrastructure and those who would go out to enjoy the fish and 
to harvest them, my suspicion is that that would provide 
benefits that far exceed the costs. Having a study that begins 
to demonstrate that would be valuable.
    Senator Crapo. Thank you very much.
    Mr. Wright, I just have one last question and it is coming 
back to the question of summer spill. The question is, what is 
the lost revenue value of summer spill? Do you know?
    Mr. Wright. It is substantial. In an average water year, it 
is probably in the $65 million to $80 million range. If market 
prices were to stay where they are today, this year it could be 
in excess of $100 million.
    Senator Crapo. All right. Thank you.
    Mr. Knieriemen, you mentioned that one of the key aspects 
of what you do is made possible by the budget that the Congress 
and the President provide to you. I think in your testimony you 
encouraged our support of that budget, and I want to strongly 
tell you that at least I personally strongly support the 
budget, and I am going to be doing what I can to increase and 
strengthen not only that budget, but the other budgets of the 
Federal agencies.
    I want to come back to that question I said I was going to 
get to with all the panel, and that is, do you agree, and I 
suppose that your testimony already indicates agreement, but do 
you agree that there is a strong needed role for Federal 
dollars to be coming into our salmon and steelhead recovery 
process?
    Mr. Knieriemen. Yes, sir, I do. I think it is absolutely 
imperative that we have a Federal contribution, that the 
Federal family take the lead in trying to do what is necessary 
to not only recover, but to, as you so aptly put it, make 
abundant the fish species that are endangered right now.
    Senator Crapo. Again, I will ask you that question that you 
are welcome to take a pass on if you don't feel you are in a 
position to be able to answer, but that is, do you feel that 
the current level of commitment is adequate?
    Mr. Knieriemen. To be truthful with you, if we are basing 
our numbers on the 2000 Biological Opinion, we believe our 
numbers are adequate to do what is necessary to bring the 
species back from the brink of extinction. But the question 
that really begs to be asked is how will the Biological Opinion 
change a year from now, and what are the actions that are going 
to be required to implement that, and that may be more 
expensive, we don't know. That is reading a crystal ball that I 
don't have a very good ability to do, sir.
    Senator Crapo. I can appreciate that. I thank you for 
taking a stab at that tough question. It is always tough to put 
someone in your position on the spot with regard to whether we 
have done enough from our side of the podium here to do it.
    Just another quick question. As I am sure you are aware, 
several months ago the salmon advocacy folks published their 
annual report card that indicated that they felt that the 
Biological Opinion was not proceeding very well. Can you 
explain the significant discrepancy between what the action 
agencies are saying in their testimony here today, and I am 
talking about mostly the written materials that we have 
received, and the salmon report card that came out?
    Mr. Knieriemen. Sir, I believe maybe Mr. Lohn could answer 
that a little better than I could. If he would be so willing to 
help me with this.
    Senator Crapo. Bob, do you want to help out here?
    Mr. Lohn. Senator, I thought the Colonel was doing just 
fine.
    [Laughter.]
    Mr. Lohn. Sir, a couple of comments about that. First of 
all, much of that report was keying off of some cost estimates 
that were sort of back-of-the-envelope cost estimates developed 
very early on regarding the 2000 Biological Opinion. Those were 
rough estimates without really knowing what needed to take 
place in specific areas. They were just guesses of we might 
need to do so many examples of this thing, and this thing might 
cost a certain amount. In effect, one of the conclusions drawn 
by that report card was that not enough is being done because 
this level of money is not being spent. I suppose I would be 
more cautious than that because my desire is to see what really 
needs to be done, to measure it and identify it, and then 
attach a cost to it. I would say it is way too early to 
determine that.
    The second observation is that that report card judged the 
BiOp I think in ways that were premature, perhaps unfair. It 
first of all looked at, the BiOp called for a series of things 
to take place over 10 years. The report card judged it as if 
all of those things should be done now, and so found fault in a 
number of areas that were not completed. In fact, of the as I 
recall 127 examples of things that the BiOp required to be done 
by a specific deadline and that deadline has passed, our review 
showed that all but seven of them were essentially on track. So 
we reached different conclusions than that.
    Finally, Senator, an important difference was that in some 
instances the report used things that were set up in the 
Biological Opinion not as requirements, but goals, and 
determined even though those goals were acknowledged when they 
were set as things that you could not meet every year, the 
report basically declared a failure if, for example, all of the 
resources of the FCRPS had been used to deliver all of the 
available water to reduce temperatures in the Snake River, and 
at the end of it, having done all that could be done, the 
temperatures were not low, that report basically said that is a 
failure. We would say, no, holding the temperatures low was a 
target, but the Biological Opinion was specific that you could 
only use the water that existed, and beyond that failure to 
sort of refrigerate the water of the Snake River was not a 
practical failure of the BiOp.
    So for a series of reasons, I think we would reach a 
different conclusion. Nonetheless, I take it as a prod to say 
folks are watching. They are concerned about whether we are 
making progress and we have an obligation to report accurately 
and honestly to the public as to whether we are making that 
progress. So I take that side constructively.
    Senator Crapo. Thank you very much, Mr. Lohn.
    Mr. McDonald, let me come to you now and ask you the 
question that I have been asking everybody else, and that is, 
do you agree with my contention that there is a strong role for 
Federal resources to be put into the system for salmon and 
steelhead recovery?
    Mr. McDonald. I certainly do, Senator. As I indicated in my 
testimony, both oral and written, the Administration has been 
very supportive of expanding our program in the last 3 years to 
undertake new activities required of us under the RPA.
    Senator Crapo. Do you feel that the current level of budget 
support that you are getting from the Federal budget is 
adequate?
    Mr. McDonald. Very much so.
    Senator Crapo. Let me ask you also, you had mentioned in 
your testimony Senator Smith's legislation. Can you explain 
that to me in a little more detail?
    Mr. McDonald. Yes. The key feature of the legislation 
introduced by Senator Smith is that it would provide 
Reclamation with the authority to itself construct, or to 
provide financial assistance to private parties to construct, 
fish passage and fish screening on their non-Federal water 
diversion structures when Reclamation determines that it is an 
activity we need to undertake to avoid jeopardizing a species 
under a biological opinion, either for the FCRPS Opinion that 
is in place, or for opinions on any other reclamation projects 
located in Oregon or Washington. We have other consultations 
underway and it is conceivable that the concept of offsite 
mitigation might apply in those other consultations.
    Senator Crapo. And does this apply only to Oregon and 
Washington?
    Mr. McDonald. That is the way the bill was introduced, yes. 
The Reclamation projects located in the Snake River basin in 
Idaho, and in Eastern Oregon for that matter, are not covered 
by this legislation.
    Senator Crapo. Are you aware of whether any opposition to 
this legislation has been raised? I am thinking particularly, I 
don't recall the specifics, but something is going on in the 
back of my mind that some of the water users had some concerns 
about this issue.
    Mr. McDonald. The water users had two or three reactions to 
the bill proposed by the Administration. One was that the water 
users under reclamation projects in Idaho did not want to be 
covered by the bill. That has been addressed by the form of the 
bill introduced by Senator Smith. Probably the second principal 
issue has been about the cost-sharing formula. The 
Administration's proposal would have requires 35 percent non-
Federal cost sharing. The bill introduced by Senator Smith 
makes it a 100 percent Reclamation cost. Those were the two 
major comments that I think the Senator received from water 
user constituencies.
    Senator Crapo. All right. Thank you. I do have a lot more 
questions, but this day is rapidly getting away from us and we 
need to get on to the other witnesses. I want to again thank 
all of you, not only for your preparation for and attendance 
here at the hearing today, but also for your efforts. I look 
forward to working with you on these issues.
    Thank you.
    We will call up our second panel. While they are coming up, 
I will announce who they are. The first member of the panel is 
Mr. Michael Bogert, who is counsel to the Governor of the State 
of Idaho, Governor Dirk Kempthorne. Our second witness is Ms. 
Judi Danielson, who is the Chairperson of the Northwest Power 
Planning Council; and third, Mr. Steve Huffaker, on behalf of 
the Columbia River Fish and Wildlife Authority. Again, three 
more folks who have been giving significant parts of their life 
to this effort. I appreciate not only that, but your effort to 
be here and prepared to present testimony today.
    Mr. Bogert, if you are ready, you may proceed.

STATEMENT OF L. MICHAEL BOGERT, COUNSEL, ON BEHALF OF GOVERNOR 
                DIRK KEMPTHORNE, STATE OF IDAHO

    Mr. Bogert. Mr. Chairman, thank you. I would be remiss if I 
did not begin by saying how much we have appreciated in Idaho 
working with Sharla Moffett Beall, who is going back to her 
home State of Oregon. She has been a great resource and an 
asset for us, Mr. Chairman. I know this is her second to the 
last hearing for you, and she is moving back to beloved Oregon 
and we will miss her dearly.
    Senator Crapo. Thank you. Before we start your time, I will 
say I appreciated her too. I just don't appreciate her going 
back to Oregon.
    [Laughter.]
    Mr. Bogert. Mr. Chairman, I would like to take the 
committee through a PowerPoint presentation on the Four 
Governors Recommendations that has been referred to by the 
prior panel. I apologize in advance if the pace of this slide 
presentation begins to look like the Indy 500, but I am 
sensitive to the time.
    Senator Crapo. Go for it.
    Mr. Bogert. Mr. Chairman, I am going to provide you with a 
brief overview, a brief discussion of the recommendations that 
were directed toward fish and wildlife recovery as well as 
Bonneville Power Administration. And then I want to take you 
through the Commitment of the Governors portion of the 
agreement.
    Briefly, Mr. Chairman, the context of the recent June 5 
meeting was an effort by Governor Kempthorne to reach out to 
two new Governors who were not parties to the July 2000 
agreement. We were pleased to host Governor Kulongoski and 
Governor Martz over in Boise on the fifth of June.
    The meeting occurred less than a month after Judge Redden 
made his decision in the National Wildlife Federation case. The 
process had been underway far before then and the Governors 
decided that this was an appropriate time to not necessarily 
revise the old document, but perhaps take a new look at some 
other aspects to the first Four Governors' Agreement.
    The themes, Mr. Chairman, are first, a very strong 
commitment to the All-H approach with a very strong statement 
on avoiding dam breaching at all costs. Second, Mr. Chairman, 
the Governors discussed Biological Opinion coverage, which is 
very much at issue in light of the litigation. Third, fish and 
wildlife restoration--the document before was very much focused 
on anadromous fish, but this was particularly due to Governor 
Martz's leadership on the fish and wildlife piece. And finally, 
what we have already discussed today--concern over BPA's 
financial condition.
    There are four separate pieces on the fish and wildlife 
restoration: fish and wildlife recovery, Federal agency 
funding, a statement by the Governors as it pertains to fish 
and wildlife programs, and results, not more process.
    Dealing with the fish and wildlife recovery, the Governors 
renewed their commitment to the All-H approach, which included 
a very strong renewal and path forward on sub-basin planning 
which is already underway. Addressing recovery planning, the 
Governors made a very strong statement that they are hopeful 
that the Federal recovery planning process in the sub-basin 
plans be consistent.
    Addressing recovery goals, the Governors asked that there 
be significant coordination between the technical recovery 
teams that are already in place, Mr. Chairman, and the sub-
basin planning that is going on among the States. As you know, 
ESA assurances are very important to our folks in Idaho. The 
Governors spent some specific time addressing this and made a 
very strong statement about incentives to participate in ESA 
processes.
    With respect to monitoring and accountability, the 
Governors indicated that they are hopeful that there will be an 
integrated and complementary monitoring system that includes 
research priorities.
    On the Federal agency funding, the Governors were very 
strong on continuing support for Federal action agency projects 
that have All-H components in them. And something that you 
would be interested in, Mr. Chairman, the Governors strongly 
supported additional congressional funding as a region, for all 
the States.
    Specifically, on the fish and wildlife programs, the 
Governors strongly endorsed the Council's fish and wildlife 
program, including the recent mainstem amendments, and our 
Chair will be speaking to that shortly. This was something that 
came up as well, Mr. Chairman, that the Governors called for a 
new funding agreement, and there was some prior discussion in 
an effort to make sure that we all in the States know that we 
have some certainty with respect to our project funding.
    The Governors are grumpy about the process. They, too, Mr. 
Chairman, share your concern about results on the ground. They 
have asked that the Power Council prepare a report to the 
Governors on the status of the action items that the Governors 
have called for in the 2000 Recommendations. This was actually 
an innovative recommendation. They have asked the Federal 
consulting agencies for a State-by-State report on BiOp 
implementation by the States.
    This was already touched on earlier, Mr. Chairman, but the 
Recommendations very much have a theme that the Governors are 
strongly supportive of maintaining the integrity and the 
benefits of Bonneville to the region, this is our asset, this 
is our regional asset and we strongly want to solve our own 
problems. The pieces to that, Mr. Chairman, are protection of 
the regional and national economy, and a clarification of BPA's 
future in transmissions.
    Addressing the regional and national economy, the Governors 
have asked that the parties continue to stay at the table with 
Bonneville, the publics and privates that are currently in 
discussion over the allocation of BPA's benefits. They asked 
that BPA, in consultation with the Council, report to the 
Governors on the status of what the Administrator was just 
talking about with respect to his internal management review.
    Addressing BPA's future, the Governors asked for a 
continued regional dialog that be re-initiated between the 
Council and BPA on long-term sustainability, and that that 
agenda, Mr. Chairman, include among others long-term contracts 
and what you raised earlier in terms of meeting fish and 
wildlife responsibilities.
    Finally, the Bonneville piece ends with the commitment by 
the Governors that if there is any restructuring of 
transmission by FERC or those on Capitol Hill, that it must be 
compatible with the infrastructure already in place at 
Bonneville and that those benefits be maintained in the region.
    Finally, Mr. Chairman, the document concludes with a 
commitment by the Governors for a balanced approach, that no 
one is an advocate of power over salmon recovery or fish or 
vice versa. There is a strong statement again to reinforce that 
all the avenues need to be exhausted before dam breaching even 
becomes an option. The Governors were very strong in terms of 
outside folks taking a look into the affairs of BPA, and 
finally, a renewed commitment to protect the benefits of BPA 
within the region.
    Mr. Chairman, that is my testimony.
    Senator Crapo. Thank you very much. I did not see any way 
you were going to make it through all of that in 5 minutes. I 
appreciate your being able to do it.
    Ms. Danielson?

   STATEMENT OF JUDI DANIELSON, CHAIRPERSON, NORTHWEST POWER 
                        PLANNING COUNCIL

    Ms. Danielson. Thank you very much for the invitation, Mr. 
Chairman.
    Mindful of the time that we have here, the issues that 
Michael Bogert brought up concerning some of the Council's 
activities in the mainstem are covered more in depth in our 
written testimony.
    Senator Crapo. And that is very good testimony and will be 
very helpful and it is reviewed. So thank you.
    Ms. Danielson. Good morning again, Senator Crapo, and thank 
you for the opportunity to testify here today on implementation 
of the NOAA Fisheries 2000 Biological Opinion on hydropower 
operations for Endangered Species Act-listed salmon and 
steelhead in the Columbia River Basin. I am Judi Danielson and 
I chair the Northwest Power Planning Council. The Council is an 
agency of the four Northwest States of Idaho, Montana, Oregon 
and Washington. The Council was created by the State 
legislatures in 1981 under the authority of the Pacific 
Northwest Electric Power Planning and Conservation Act which 
the Congress approved in December 1980.
    The Power Act directs the Council to prepare a program to 
protect, mitigate and enhance fish and wildlife of the Columbia 
River Basin that have been affected by hydropower dams, while 
also assuring the Pacific Northwest an adequate, efficient, 
economical and reliable electric power supply. The Council 
implements the Power Act through two broad integrated planning 
processes. One process is for a Northwest Conservation and 
Electric Power Plan and the other is for a Columbia River Basin 
Fish and Wildlife Program.
    Today, I will focus specifically on how the program 
incorporates elements of the 2000 Biological Opinion issued by 
NOAA Fisheries for four Columbia and Snake River salmon and 
steelhead and the U.S. Fish and Wildlife Service for Kootenai 
River white sturgeon and bull trout. The Council committed in 
its 2000 revision of its fish and wildlife program to pursue 
opportunities to integrate program strategies with other 
Federal, State, tribal, Canadian and volunteer fish and 
wildlife restoration programs.
    The Council also committed to use sub-basin planning to 
identify coordination needs and opportunities that arise from 
the Endangered Species Act and Clean Water Act, and also water 
and land management objectives affecting fish and wildlife. In 
this way, our program funding can be used to coordinate 
activities that address various legal requirements and provide 
the maximum benefit to fish and wildlife.
    It is important to point out that even though the Power Act 
is a Federal law, the Council is not a Federal agency. Our fish 
and wildlife program is not a recovery plan for purposes of the 
Endangered Species Act. The Council develops the program and 
recommends projects to implement. Consistent with a specific 
directive of the Power Act, these projects are funded by the 
Bonneville Power Administration from the revenues it collects 
from electricity customers. Implementation of the Council's 
fish and wildlife program does not depend on consultations 
among Federal agencies or appropriations by Congress or Federal 
agencies.
    The caveat to this is while Bonneville pays for most of the 
salmon recovery and mitigation efforts in the Columbia River 
Basin, some actions required by the BiOp address problems that 
were not caused by the hydrosystem. Therefore, electricity 
ratepayers should not be fiscally responsible for them. These 
actions include, for example, research needed to address some 
of the key scientific uncertainties identified in the BiOp. 
Last year, Congress denied a request for $10 million for these 
Federal mandates. We urge Congress to provide funding for them 
through the NOAA Fisheries budget, which I think Director Lohn 
indicated was $15 million this year. The Council's program is 
the only other source of funding and it should be reserved for 
actions that respond to hydrosystem impacts to avoid 
unintentional consequences of that system.
    I have four main points to make today, and I am not going 
to get them all out, either.
    [Laughter.]
    First of all, I am optimistic about the partnership between 
the local, State, Federal and tribal governments that has 
developed to implement the Council's fish and wildlife program 
and elements of the Biological Opinion.
    Second, the Northwest Act authorizes Bonneville through the 
Council's fish and wildlife program to utilize offsite 
mitigation to accomplish the purposes of protecting, mitigating 
and enhancing fish and wildlife affected by hydropower systems.
    Third, we are moving ahead with the sub-basin plans as a 
means of identifying specific fish and wildlife needs in each 
of the 62 sub-basins in the Columbia River Basin.
    And fourth, the Council consistently has complied with the 
budgets established by Bonneville for implementing our fish and 
wildlife program, including significant funding reductions for 
2003.
    Mr. Chairman, we will continue to implement and move ahead 
with protection mitigation and enhancement of all fish and 
wildlife in the region affected by the hydroelectric system.
    Thank you very much for allowing me this time.
    Senator Crapo. Thank you. And your written testimony, even 
though you did not get to cover it all, is here, it has been 
reviewed, and we will be going over it. So I appreciate your 
watching the clock.
    Mr. Huffaker?

 STATEMENT OF STEVE HUFFAKER, ON BEHALF OF THE COLUMBIA RIVER 
                  FISH AND WILDLIFE AUTHORITY

    Mr. Huffaker. Mr. Chairman, thank you, and thank you for 
your ongoing interest in this very important project.
    Senator Crapo. Thank you.
    Mr. Huffaker. I am here to represent the Columbia Basin 
Fish and Wildlife Authority. The Authority is composed of 14 
Indian Nations, four States and two Federal agencies, and we 
work by consensus. I think you know how difficult it is to 
reach consensus with that many groups working together. So what 
I will say here reflects that consensus.
    The Columbia and Snake Rivers used to produce 10 million to 
16 million anadromous fish and other resident fish and wildlife 
benefits. After hydro development and the development of the 
Columbia River, we currently stand at about one million fish 
and a lot of other social benefits in the form of cheap 
electricity, navigation, flood control and other things that go 
with development. But in passing the Northwest Power Planning 
Act of 1980, the Federal Government made a promise to the fish 
and wildlife resources of the region to mitigate the losses 
that occurred due to the hydro development; all the losses, not 
just the ones that were attributable to the listing of 
endangered species.
    There are a lot of management plans in the region 
currently. Obviously, NOAA Fisheries has a recovery plan for 
listed salmon. The Fish and Wildlife Service has recovery plans 
for bull trout and sturgeon. We have the Northwest Power 
Planning Council program, the Fish and Wildlife plans. Sub-
basin planning is a very important process. We have tribal 
plans and State wildlife agency plans. All those need to come 
together.
    I think the Four Governors document gives a very good 
template for the broad over-arching needs for what to do. But 
all those plans in order to be effective have to have three 
things. They have to be coordinated and the implementers of 
those plans need to have accountability for what they said they 
were going to do. There needs to be monitoring and evaluation. 
That is how we keep score. And we have to have adequate funding 
and a commitment to that funding to get the job done.
    In retrospect, it may have been naive in 1980 to think that 
Bonneville Power Administration could mitigate all the losses 
for the development that has gone on in the Columbia and Snake 
Rivers. Maybe the listing of so many species in the Northwest 
puts an exclamation point on that and correctly guides you to 
the conclusion that the Federal agency budgets need to deal 
with the ESA. Maybe that would free up Bonneville to deal with 
the broader mitigation responsibilities that are under the 
supervision and direction of the Power Planning Council.
    I note that some of the Federal agencies have not been very 
well represented in the Northwest salmon arena, although they 
do a lot of work for salmon. Particularly the Department of 
Agriculture agencies have not been significant players, and 
perhaps it is time for them to step up and maybe to expand the 
GAO audit to look at what everybody does in the Northwest for 
salmon. NRCS, the Forest Service, BLM, they all spend a lot of 
money on salmon and maybe identifying and clarifying those 
roles and responsibilities across all the agencies would be 
insightful.
    The agencies and tribes have developed and the four 
Governors and the Power Council have endorsed a monitoring and 
evaluation plan for how to keep track of benefits to fish and 
wildlife. We just need to get on with that and get it 
adequately funded and put it in place.
    I can't completely let Bonneville off the hook. They may 
need some help, but I think they need to also look inwardly, 
Senator, and I will note that U.S. Fish and Wildlife Service 
administers a $150 million Federal aid program to 50 States and 
as far out into the Pacific as Guam, with an overhead of $3 
million a year. So maybe somewhere between where Bonneville 
currently funds their overhead costs of the fish and wildlife 
program and where the Fish and Wildlife Services does it, there 
could be some room for improvements there.
    Defined and measurable results committed through a repeat 
of the 1996 to 2001 MOA among Federal agencies, and perhaps 
expand it to additional agencies would I think help clarify for 
Congress and for ratepayers and for the citizens of the 
Northwest what all is going on for salmon. The Columbia Basin 
Fish and Wildlife Authority, the agencies and tribes, would be 
happy to help in any way we can help to bring that about.
    Senator I will save you a couple of minutes.
    Senator Crapo. All right. Thank you very much. You get 
extra credit for saving a little time there.
    I should announce to everybody that we expecting to have a 
vote on the floor at 11 o'clock a.m., which is going to come 
before I am done questioning this panel. So when that happens, 
what I will do is recess. I think it is only one vote so it 
should not take long. We will take a short break right then, 
and then we will come back and then continue.
    Let me start out with you, Mr. Bogert. Let me first of all 
just go over some of the questions I have been going over with 
the members of the other panel. That is, do you agree that 
there is a strong role for Federal support? I think I saw it in 
your PowerPoint presentation, but I want to have you say it 
again.
    Mr. Bogert. Mr. Chairman, of course, because for us to 
assess the habitat improvement activities specifically that we 
have undertaken through the sub-basin planning process and that 
we have had funded through the Council's recommendations, we 
view that as essential in continuing the course for the 
projects and for the needs.
    Let me answer it this way, Mr. Chairman. Judge Redden ruled 
that all of those activities were not reasonably certain to 
occur. As I briefed him on the decision, and he is fiercely 
proud of the fact that he is not a lawyer, he said, ``Let me 
get this straight. All of those projects that we have been 
doing for the last two and a half years, this judge held were 
not reasonably certain to occur?'' In his mind, and this is a 
very strong theme of the four Governors, we said are staying 
the course; we want Biological Opinion coverage for the 
agencies; we are going to stay the course; and we will work 
with our friends on the Hill to make sure that we can maintain 
the continuity of our projects.
    Senator Crapo. Thank you. In that context, I noted in the 
presentation you made, that the Governors are recommending that 
there would be not only support for Federal agency budgets that 
include the All H projects, but also support for funding to the 
States. Are you talking about something that does not exist 
right now? In other words, like us creating a Northwest fund 
that the States would administer?
    Mr. Bogert. Mr. Chairman, I think that we have seen the 
authorization legislation come out of the House for the Pacific 
Coast salmon recovery money.
    Senator Crapo. Right.
    Mr. Bogert. That is an effort that we have long looked at. 
I know the Governor has spoken with you extensively about this. 
As we move through that process, that should be included. 
Indeed, that was one of the themes of the region, making sure 
that there is strong support among the States to be included in 
the Pacific Coast salmon funding process. That is something 
that we would be looking at immediately, and there seems to be 
some effort to authorize the State of Idaho to be a part of 
that.
    Senator Crapo. As you know, we have tried that for several 
years now. We are going to keep trying and hopefully we will 
have success here in the Senate one of these days.
    I have toyed around in my own mind and in discussion with 
other senators of creating an additional fund. Part of the 
problem we have with that fund is that in difficult budget 
times, as we all face in terms of budget pressures, the States 
who are already participating in that fund do not want to see 
their shares reduced by adding another State in. We don't have 
an easy way to find another piece of revenue to stick in there 
so that nobody gets hurt in terms of the fund.
    I know we are working in creative ways to solve that, but I 
have also toyed around with the idea of creating another fund 
so that States do not have to think they are getting short 
shrift of anything that is currently existing, and then trying 
to simply begin the process of finding the resources for that 
fund. I assume the Governors would be supportive of something 
like that as well.
    Mr. Bogert. Mr. Chairman, yes. I think this touches upon 
something Mr. McDonald mentioned in the last panel. I think 
some of the issues that our Idahoans have had with the proposed 
legislation is that we paused to consider Federalizing ESA 
implementation in the State of Idaho, to the extent that one of 
Judge Redden's concern was funding for this, a commitment to 
move forward for improvement, but not necessarily bringing in 
every action agency under Section 7 to get everything done 
where we want to incentivize this to private parties. We think 
that the funding source and the availability of dollars to get 
those things done on the ground would certainly improve the 
State of Idaho's position vis-a-vis the rest of the region.
    Senator Crapo. Thank you very much.
    Now, shifting to the Bonneville side of this, the 
ratepayers form of the funding that comes, I also noted that 
there was a strong concern raised by the Governors with regard 
to the circumstances at Bonneville. I guess I would just like 
you to elaborate on that a little bit. What would the Governors 
like to see happen with regard to the fish and wildlife budget 
that comes out of Bonneville or the overall financial picture 
relating to Bonneville?
    Mr. Bogert. First, the Governors want to keep our problems 
within the region so that we can work through them, No. 1. So 
we are fiercely protective of our asset. Second, I think the 
Governors, and one of the themes that comes out of the 
document, are expecting, if the administrators are saying we 
are staying the course on the Biological Opinion, at least 
implementation for the short term, I think the Governors agree 
with that. The subset of that, Mr. Chairman, is making sure 
that the commitments that we have made to our Idahoans that we 
are going to get some work done for them can continue 
throughout the years.
    If we have multi-or off-year budgeting commitments, I think 
the Governors strongly expressed some support for some 
certainty to that for fish and wildlife as well, Mr. Chairman, 
for that full commitment. I think that they are expecting to 
hear shortly about the interplay between that fish and wildlife 
commitment piece, the internal cost review that the 
Administrator just talked about, and then the path forward for 
full implementation and staying the course of the Biological 
Opinion.
    Senator Crapo. You heard Mr. Wright testify about the 
potential of another memorandum of understanding or the like 
that could help us get some handle on this entire issue. Do you 
support that? And also maybe you could give me your thoughts 
about the proposal of creating a separate fund at Bonneville 
that handles these issues.
    Mr. Bogert. Mr. Chairman, to address your first question 
first, I think the Governors spoke to a need to reconfigure the 
memorandum of understanding for that piece of certainty that we 
have been speaking about all morning. The separate fund, Mr. 
Chairman, it is a piece that at least for us in Idaho has not 
necessarily entered into the discussion, as far as I know. I 
know it did not specifically attract the attention of the 
Governors when we were addressing some of the recommendations 
to Bonneville, but I think it is a proposition that is worthy 
of consideration in the region.
    The concept, it seems to me, would lend to that commitment 
toward certainty that the Governors strongly believed and 
became a part of the document a couple of weeks ago.
    Senator Crapo. Thank you very much.
    I also noted in the presentation that the Governors are 
proposing that we have a State-by-State BiOp implementation 
report from the agencies, rather than a regional report. Could 
you flesh that out a little bit?
    Mr. Bogert. Mr. Chairman, I think the idea was that while 
regionalization and a commitment is fundamentally a good idea 
and that the Governors are committed to that approach, for us 
in Idaho, for example, it would be extremely useful for us to 
be working with the consulting agencies to see how our piece of 
the 199 separate action items called for, which belonged to 
Idaho, and how are we doing.
    I think it is part of an overall effort for the Governors 
to prioritize those things that are important to be 
implemented, and are we being held accountable. I think the 
other context, Mr. Chairman, is that all the work we are doing 
on the sub-basin planning must be consistent with some of the 
recovery planning that is already being undertaken, and that 
the sum of the parts all add up to what we are all striving 
for, which is restoration and recovery of the species.
    Senator Crapo. Thank you.
    Just one last area of inquiry, and that is, in my questions 
of Mr. Lohn, I indicated that over the last few years, 
primarily leading up to the Biological Opinion in 2000, that I 
had some significant concerns. If I remember at the time, the 
Governors testified that they had the same concerns about 
having adequate input into the process. Do you feel, of course 
this is just now starting again, potentially, with the court's 
order, but I guess speaking for the Governors, do the Governors 
feel that they had adequate input the last time around, and are 
they looking for some assurances that they will have a role in 
the development of the path forward under the court's order?
    Mr. Bogert. Generally for the Governors, I think there was 
some concern about continuing to be involved in the process at 
the highest possible altitude. But Mr. Chairman, I can say that 
since the December 2000 Biological Opinion was released, and 
given the Council's commitment to sub-basin planning, I can say 
that the Idaho case study on this is one that has proven very 
worthwhile and very valuable for us to develop a relationship 
with our fisheries folks, Mr. Huffaker's crew at the Idaho 
Department of Fish and Game, our tribes that have a treaty 
interest in the recovery issue, and all of the private 
stakeholders.
    The sub-basin planning process has proven to be a way to 
begin a meaningful dialog of input, and that was clearly 
lacking, I think Mr. Chairman, prior to the release of the 2000 
Biological Opinion. The short answer is, things have gotten 
better and we are greatly encouraged by the present 
Administration and their approach.
    Senator Crapo. Good. I appreciate that.
    You just heard the bells go off. I am informed that we have 
two votes. So what I am going to do, these are 15 votes 
theoretically, and so I am going to wait about 10 or 12 minutes 
before I leave, and then I will try to go vote at the tail end 
of one vote and then catch the next vote. So hopefully I won't 
have to stay away and keep us shut down for the total period of 
two votes.
    Mr. Danielson, let me turn to you. Let me ask you that last 
question while we are on the same thing. Do you feel that your 
role, the Power Council's opportunity to have input into the 
decisionmaking is improved over what it has been in the last 
five or 6 years?
    Ms. Danielson. Well, Mr. Chairman, having not been on the 
Council from that vantage point, I would have to probably agree 
that it has improved. Do we need more improvement? More than 
likely we do in light of the BiOp that is in front of us. 
Regardless, yes, I do think that there can never been too much 
communication and collaboration.
    Senator Crapo. I want to talk to you about the same line of 
questioning that I have been going through with everybody. 
Partly, I am just lining things up here for efforts here to get 
these budgets strengthened, but I also want to make sure that 
we have everybody on record with regard to this. So the 
question I want to get into is the same one, namely, do you 
feel that there is a proper and strong role for Federal budget 
support for salmon and steelhead recovery?
    Ms. Danielson. Mr. Chairman, absolutely. That has been a 
real confusing thing for the Council at best, in light of there 
being so many obligations regarding fish and wildlife, both for 
listed and non-listed species. We could see other stocks listed 
if we don't take care of those that are not currently listed, 
too. And there are so many mandates. Take, for instance, the 
BiOp mandates. If the Federal Government through appropriations 
does not fund those, then it falls to either not being done or 
it falls to the ratepayers, through Bonneville, to pay for 
those. Then it is a ripple effect. We have unintended 
consequences that will occur. And then, of course, there is 
always a push and pull in the region.
    So not only does NOAA, I would say, need the extra funding, 
but if you go back to some of the things that you mentioned 
like summer spill, the Corps would definitely need some extra 
funding for that, too. I mean, if they could just have stable 
funding, too, it would make a big difference to the region.
    Senator Crapo. You mentioned the interplay between the 
Federal support and then the ratepayers through the Bonneville 
budgets. I note that you have expressed in a letter recently to 
Senator Campbell concern about the picture that we are facing 
with regard to the fish budgets at Bonneville. Could you 
elaborate? What kind of concerns does the Council have with 
regard to the ratepayer side of the funding that is being 
provided out of Bonneville?
    Ms. Danielson. Mr. Chairman, it is an interesting balance 
that we have to strike under the Northwest Power Act. There is 
a certain element of protection for those ratepayers and that 
resource in the region. On the other hand, it is the Council's 
belief, too, that if we don't fulfill our obligations for fish 
and wildlife, we do put those ratepayers at risk. Of course, no 
one wants to see Bonneville's financial stability more than the 
Council and the States.
    But we are concerned that, and I think it goes back to the 
fish and wildlife funding agreement discussion with Bonneville, 
that we need to have some stability and certainty as far as 
budgets so you can go through the planning process. Our concern 
was that we may have been seen as reducing those budgets 
regardless of what the needs were, and that is not accurate. 
Quite frankly, I don't know if there will ever be enough money 
for all that needs to be done, but we can come very close.
    Senator Crapo. Thank you.
    I have a question now. In fact, Mr. Wright, would you 
answer another question for me? You should have left the room, 
shouldn't you.
    [Laughter.]
    Senator Crapo. No, this is a process question. Please feel 
free to take a chair. The question is, how does the budget for 
fish get established at Bonneville? In other words, is there a 
mandate? Are there certain things that have to be done, and 
whatever those costs, Bonneville has to do them? This is kind 
of a strange question to be asking, but I am not sure how 
Bonneville establishes what its commitment to salmon and 
steelhead recovery is.
    Mr. Wright. The way the current budget has been developed 
was, going back to the 1996 through 2001 period, we developed a 
process for figuring out how much money we were going to 
include in our rates. In that process, we developed a range for 
what is called the direct program that went from $100 million 
to $179 million. That was what was included in our rates.
    In 2001, I sent a letter to the Council indicating that we 
wanted to manage to the mid-point of that budget, the $139 
million in accruals. It was our view, based on a look at what 
was required by the BiOp and what was going on with the 
recommendations of the Power Planning Council that $139 million 
would meet our objectives. It still might be possible to do 
that.
    Senator Crapo. OK, let me interrupt then. So there are 
certain mandates that you have under the BiOp that you have to 
do. And there are certain recommendations or other proposals 
that come from the Council that you would like to do, but they 
are not necessarily legally mandated?
    Mr. Wright. There are recommendations from the Biological 
Opinion as well, although we have interpreted those as 
requirements. There are recommendations from the Power Planning 
Council that we take quite seriously a well, and try to figure 
out how we can implement. We believe that we have implemented 
many, if not most, of the recommendations of the Power Planning 
Council. If we get to a point where there is conflict in terms 
of not enough money, the $139 million doesn't fund everything, 
then we go back and try to figure out how important were all 
the requirements in the BiOp and we work with Bob Lohn, and 
whether all of the things that are there are absolutely 
necessary to get done in the timeframe that is in the BiOp, and 
work with the Power Planning Council with respect to their 
recommendations, as we did this year for 2003 about what we can 
get done within the level of budget that we have.
    Senator Crapo. And then this process that you are talking 
about, where you do what you said, ultimately if you can you 
reach an memorandum of agreement among the relevant parties 
that you have it figured out right and then that is the 
memorandum of agreement under which you operate.
    Mr. Wright. That would be on a going-forward basis. We do 
not have a memorandum of agreement today, but yes, that 
certainly is available to us as a tool. Again, I believe it 
would be an effective way of creating predictability for the 
program.
    Senator Crapo. All right, thanks. You can slip away again 
if you would like.
    [Laughter.]
    Mr. Wright. I should slip away further this time.
    Senator Crapo. I promise I won't come back again.
    Let me go on to you, Mr. Huffaker. You raised a point that 
I find very intriguing, and that is, you felt, this, to me 
seems to be very intuitive, that it would be very helpful to 
identify the responsibilities across all the agencies and then, 
having identified those responsibilities, monitor whether they 
are being adequately funded and implemented. The reason that is 
intriguing to me is because when I tried to put together a 
proposal here for Congress for how much we needed to put into 
salmon and steelhead recovery, that is exactly what I had to 
do.
    I had to go and look at every agency, what their role was, 
what the Biological Opinion required, and what recommendations 
were made from the Power Council. It was kind of a confusing 
thing because there were so many agencies, so many 
recommendations, so many proposals. We could the BiOp as a 
guide, but it wasn't necessarily the only thing to be working 
with, especially when the objective, as I have stated earlier, 
is not just compliance with the Endangered Species Act, but to 
achieve recovery to abundant and fishable and harvestable 
levels of steelhead and salmon.
    I found that at one point I thought, well, somebody has to 
have already done this. I started looking around, and you know 
what? Nobody has done it, at least to my knowledge. So I find 
it very refreshing that somebody is recommending that it be 
done. Because it seems to me that one thing that we ought to be 
doing in terms of salmon and steelhead recovery is identifying 
who the players are, what the actions are that need to be 
undertaken, and creating the grid, if you will, and then seeing 
where we are in terms of implementing that grid.
    I am sure a lot of people who are listening to this are 
probably saying, well, that's already been done. A lot of 
people have created a grid. The Biological Opinion has a grid 
or something where you can go through what it talks about 
there. But my point is that we are not all working off the same 
piece of paper. There are a lot of people who have different 
approaches and different ideas to this.
    So I agree with your proposal and perhaps, Mr. Lohn if you 
are listening, this is something that we could have done as we 
approach revisiting the question of what we are going to do 
under the Biological Opinion. It would seem to me that if we 
can get us all working off of the same page, that we can then 
look at whether we have adequate resources coming out of the 
Bonneville Power Administration and the adequate resources 
coming out of the Federal Government. We can also then better 
monitor.
    So I just wanted to tell you, I love your idea. I think 
that it will be very helpful.
    I have just a couple of minutes left. If I just ask you a 
couple of quick questions, we might be able to wrap this panel 
up and then start the next panel when I get back.
    The same question, do you feel that it is proper for a 
strong commitment of Federal funding in this whole process?
    Mr. Huffaker. Absolutely. I think it is essential to get 
the whole job done. The Power Council and Bonneville need to 
focus on the broad mission of restoring fish and wildlife to 
the entire Columbia Basin, the unlisted stocks and the wildlife 
and the resident fish, as well as the listed anadromous fish. 
Other Federal agency budgets will be required to do that.
    Senator Crapo. And how would you recommend that State fish 
agencies and tribes be involved in the development of any new 
Federal salmon plan?
    Mr. Huffaker. I think in the past, because of other Federal 
laws and rules and procedures, and FACA being at the head of 
the list I think, States to a lesser extent, but also tribes, 
were considered as part of the public. They were welcome to 
have input, but that input was considered along with all other 
public comments on the proposal, and the Federal family went 
into the Federal box and made the decisions.
    I think in the case of fish and wildlife, the agencies and 
tribes have a lot of expertise, spend a lot of time on the 
ground, and have in many cases a lot more and richer data than 
the Federal agencies do. There needs to be some mechanism I 
think through Section 6 of the Act, of the ESA, to allow the 
States and the tribes more access to the Federal process of 
decisionmaking.
    Senator Crapo. I appreciate that answer and strongly agree 
with you. At this point, we are not likely to be able to 
statutorily do that because we haven't got the time or the 
votes to do much at all in terms of changing the Endangered 
Species Act at this point. But Mr. Lohn has indicated his 
understanding of this and I am hopeful that we will see some 
administrative approach to this that will help us be sure that 
the States and tribes are adequately involved.
    I have less than a minute left before I have to vote over 
on the floor, so I am going to recess this committee at this 
point. I am going to excuse this panel because although I do 
have a lot more questions, we are as usual getting interrupted 
with other things that are going on during the day. When I get 
back, which will be as soon as I possibly can after the two 
votes that we take, we will convene our third and final panel, 
and then proceed with the hearing.
    We are now at recess, and thank you for your testimony and 
your time today.
    [Recess.]
    Senator Crapo. The hearing will reconvene. As you may have 
noted if you are following C-Span, they called off our second 
vote, so I was able to get back here just a little bit faster. 
I appreciate everybody holding on and letting us have the 
interruption for our votes.
    We will now proceed to our third panel, which includes Mr. 
Anthony Johnson who is the Chairman of the Nez Perce Tribe, and 
Ms. Nancy Murillo, who is the Chairwoman of the Shoshone-
Bannock Tribes. We welcome you both here with us, and we 
appreciate your willingness to come and provide your testimony 
and share your insights with us.
    We will begin with you, Mr. Johnson. Please proceed.

    STATEMENT OF ANTHONY JOHNSON, CHAIRMAN, NEZ PERCE TRIBE

    Mr. Johnson. Good morning, Mr. Chairman. My name is Anthony 
Johnson. I am the Chairman of the Nez Perce Tribe. I would like 
to thank you for holding these hearings, first off. In my 
testimony, you will hear reference to two things, one being the 
package you have been provided on unfunded projects, the other 
item is the salmon plan report card as issued by the Save Our 
Wild Salmon.
    Mr. Chairman, the importance of the Nez Perce Tribe salmon 
is more than as an icon of the Pacific Northwest. They are 
crucial to our culture, our way of life, our spiritual beliefs 
and our economy. In short, salmon encompasses our human rights, 
as the first peoples of America. The impacts of the Federal 
hydropower system on the salmon and our people have been 
devastating. Today, in large part due to the Federal hydropower 
system, every run of Snake River salmon that returns to the Nez 
Perce Tribe's usual and accustomed fishing places is either 
extinct or listed as threatened or endangered under the 
Endangered Species Act. These include Snake River coho, Snake 
River sockeye, Snake River spring, summer and fall chinook, and 
Snake River steelhead.
    When the Nez Perce Tribe was placed on its reservation via 
treaty and cessations of lands, we were at that time placed on 
the best fishing lands in the Northwest. That is documented in 
our treaty minutes.
    Today, you have invited me to speak on the implementation 
of the NMFS 2000 Biological Opinion regarding the operation of 
the Federal Columbia River power system. The Federal District 
Court's recent ruling that NMFS's Biological Opinion for the 
FCRPS is illegal should come as no surprise. In 1994, Judge 
Malcolm Marsh declared that the hydropower system was literally 
crying out for a major overhaul in one of the initial legal 
challenges to the FCRPS operation under the Endangered Species 
Act, Idaho Department of Fish and Games v. NMFS.
    Senator Crapo, we know that you have carefully followed 
impacts of the FCRPS on salmon over the years. You, like us, 
watched as NMFS deferred the decision on a major overhaul for 5 
years. You, like us, watched as NMFS discarded the closest 
thing to true collaborative approach in the Columbia Basin: the 
PATH process, which involved biologists from the States and the 
tribes, Federal Government and independent scientists. Senator 
Crapo, you will recall that the Idaho Department of Fish and 
Game testified before you concerning NMFS's departure from the 
conclusions reached by PATH. NMFS's departure from the PATH 
conclusion and its peer reviewed recommendations appeared to be 
motivated by the fact that the PATH had concluded that 
breaching the four lower Snake dams was the best means for 
restoring Snake River salmon.
    NMFS's non-breach Biological Opinion appeared to the Nez 
Perce Tribe and other salmon managers in the Columbia Basin to 
be biologically flawed. While NMFS's Biological Opinion was 
billed as an aggressive non-breach approach, upon closer 
examination it was clear it was mostly hope and good 
intentions. The Nez Perce Tribe, along with the State of 
Oregon, has actively participated in this litigation to point 
out the flaws of the 2000 BiOp. One point the Nez Perce Tribe 
made is that no matter which side of the litigation the States 
and tribes ended up on in this litigation, the formal comments 
they submitted in the record all detailed the biological flaws 
with NMFS's approach.
    The Federal court's ruling regarding the illegality of 
NMFS's BiOp under the ESA cries out for leadership, the kind 
that you, Senator Crapo, are showing by calling this hearing. 
Unfortunately, others in the region appear to be placing their 
heads in the sand. This lack of leadership will place the issue 
into the Nation's hands and increase the pressure for breaching 
the four lower Snake dams.
    After the Federal court declared NMFS's Biological Opinion 
for the FCRPS illegal, the region's four Governors in a 
testament to the lowest common political denominator, pledged 
to ensure that breaching the four lower Snake River dams is not 
on the table because, in their words, the issue is polarizing 
and divisive. While paying lip service to supporting the 
Federal agencies budgets and additional appropriations 
necessary to meet the non-breach support, the Governors refused 
to do so if it means adjusting power rates sufficiently to meet 
the legal obligations under the Endangered Species Act or the 
Northwest Power Act's equitable treatment mandate.
    BPA is frustrating salmon recovery. After the Federal court 
declared NMFS's Biological Opinion for the FCRPS illegal, Steve 
Wright, the Administrator of Bonneville Power Administration, 
testified before the Senate Committee on Indian Affairs 
regarding fish and wildlife obligations to the Northwest 
tribes. Amazingly, he completely failed to mention to the 
Senate that NMFS's Biological Opinion has been declared 
illegal.
    At a time when the Federal court and salmon are crying out 
for more fish and wildlife recovery, not less, BPA has 
announced reductions in its fish and wildlife investments. 
BPA's indifference to salmon restoration makes it nearly 
impossible for an aggressive non-breach approach to occur. 
Simply put, the status quo is not good enough to satisfy the 
Endangered Species Act, to say nothing of the United States 
treaty trust obligation. The Save Our Wild Salmon Coalition in 
its detailed report card on the implementation of the BiOp 
found that Federal agencies received half the funding required 
for the non-breach plan and accomplished less than 30 percent 
of the work.
    We are disappointed that they are not here today, as we 
believe they are partially responsible for this hearing 
occurring. To that end, we would request that you pay special 
attention to the Save Our Wild Salmon testimony which we 
understand has been submitted as part of the record. e request 
your leadership in three ways. First, monitor the development 
of the new FCRPS BiOp as in a way it rewrites its biological 
opinion. We urge you to monitor this process closely. Neither 
we nor the salmon can afford to waste more time. We urge you to 
urge NMFS and action agencies to ensure that they embark on 
salmon recovery strategies that are economically feasible, 
scientifically credible, and realistically achievable. We urge 
you and the subcommittee members to monitor this process 
carefully.
    Second, scrutinize BPA's commitment to salmon recovery. We 
urge your continued oversight of the actions of the Bonneville 
Power Administration with respect to its fish and wildlife 
funding obligations. The Nez Perce Tribe has shown its on-the-
ground leadership in implementing salmon recovery projects 
funded by Bonneville, including award-winning habitat 
restoration actions and the cutting edge Nez Perce tribal 
hatchery. Bonneville's reluctance to fund fish and wildlife 
recovery projects undermines its commitment to a non-breach 
alternative. We urge you to urge the General Accounting Office 
to continue its ongoing investigation into Bonneville's 
financial status and its fish and wildlife obligations.
    Third, continue to support the Pacific Coastal Salmon 
Recovery Program. Your support for the Pacific coastal salmon 
recovery has begun to show results with the projects 
implemented by the Nez Perce Tribe. We urge you to continue to 
ensure that this program is implemented, including actions 
being implemented by the Nez Perce Tribe.
    In concluding my remarks, I would like to place before you 
and this subcommittee that we, the Nez Perce people, are 
committed to salmon recovery. As I stated, it is part of our 
human rights as indigenous people. As co-managers of the 
resource through court orders, we have committed to the 
survival of the salmon from the moment I was a boy in the early 
1980's when we first started this process. I urge you to do all 
you can to save this precious resource.
    Thank you very much for your time, sir.
    Senator Crapo. Thank you, Mr. Johnson.
    Ms. Murillo?

   STATEMENT OF NANCY MURILLO, CHAIRPERSON, SHOSHONE-BANNOCK 
                             TRIBES

    Ms. Murillo. Good morning.
    Senator Crapo. Good morning.
    Ms. Murillo. I am Nancy S. Murillo, the Chairman of the 
Fort Hall Business Council of the Shoshone-Bannock Tribes in 
Fort Hall, Idaho.
    I first want to start out by asking you a question. We are 
a treaty tribe. We are a peace tribe. I would like to make note 
that Article 1, ``From this day forward, peace between the 
parties to this treaty shall forever continue. The Government 
of the United States desires peace and its honor is hereby 
pledged to keep it. The Indians, the Shoshone-Bannocks, desire 
peace and they hereby pledge their honor to maintain it.'' 
Article 4 deals with our hunting and fishing rights.
    I am here to provide the perspective of tribes regarding 
the impacts on tribal fish and wildlife management in the 
Pacific Northwest, the BiOp, the BPA Administration funding, 
FERC relicensing, and the need for additional funding to fully 
analyze and participate in the numerous Federal and private 
forums surrounding the operation of the Columbia River power 
system, and its impact on the anadromous fish, and to implement 
the actions necessary to protect and restore the fish and 
wildlife resources of the Columbia River Basin.
    We Shoshone-Bannock peoples were located in the 
headquarters of four major river systems in the Western United 
States. We lived long, utilized and traveled the rivers and 
tributaries of the Salmon and the Snake which feed the Columbia 
River system. But we also spent time on the rivers and 
tributaries leading to the Great Basin and into the Missouri as 
well as the Colorado Rivers. The vast majority of our peoples 
live on the Fort Hall Indian Reservation.
    We hold entitlements to these river systems which were 
bequeathed to us not only by our ancestral historic patterns, 
but by treaties and other legal binding documents such as the 
Fort Bridger Treaty of 1868. Our tribes have been involved for 
many years in the numerous policy, production and management 
processes tied to the Columbia and Snake Rivers. We realize the 
importance of prioritization of the most important processes 
due to our limited staff and resources. This includes active 
involvement in prioritizing the absolutely critical threshold 
projects needed to implement a balance between a reliable and 
inexpensive energy supply with the fish and wildlife needs that 
are impacted by the Columbia River system.
    One of the realities of the fisheries management is the 
fact that the Shoshone-Bannock Tribes cannot do any management 
without being completely absorbed by the Endangered Species 
Act. We spend so much time on the processes that exist, that 
little time or staffing is left to actually do production and 
management efforts to promote recovery of the salmon. NMFS and 
the U.S. Fish and Wildlife Service issue a Biological Opinion 
in December 2000 for the operation and maintenance of the 
Federal Columbia River power systems. We are concerned with the 
continuing modification of past plans before they are 
implemented. We have been involved with decades of planning 
that have not yet been implemented. Once again, the 2002 
implementation plans for the 2000 BiOp have remained 
unsatisfactory to the needs of the endangered species, as well 
as the Shoshone-Bannock Tribes. Less than 30 percent of the 
measures which were required to be completed by 2002 have been 
accomplished. Yet water temperatures continue to increase and 
water flows continue to decrease. Funding allocation remain 
inadequate to correct these major deficiencies.
    For example, I am going to discuss hydro, habitat 
restoration, hatchery reform and harvest. The Shoshone-Bannock 
Tribes have long advocated breaching the four lower Snake River 
Dams, Ice Harbor, Lower Monumental, Little Goose, and Lower 
Granite Dams.
    Habit restoration. The Shoshone-Bannock Tribes continuously 
attempt to put and keep clean cold water into the streams 
without migration barriers associated with irrigation 
diversions, de-watering and toxicity from mine effluent.
    Hatchery reform. The tribes have been leaders in using low 
technology and inexpensive artificial propagation techniques. 
However, the ambiguous genetic theories of modern science 
continuously impede these efforts, even after several of the 
Pacific Northwest tribes have shown major success stories of 
these hatchery reform techniques.
    Harvest. The mixed stock interception fisheries are 
inadequate to the salmon resources and to our tribes. The 
Shoshone-Bannock Tribes harvest wish in these areas and at 
levels the populations of salmon can support, and we encourage 
all other entities to do the same.
    Simply put, we are trying to put water into the creeks, and 
fish into the water. We are attempting to carry out the 
purposes of our tribal policies and treaty commitments made in 
the 1868 Fort Bridger Treaty by being actively involved in 
these forums to implement the ESA. It is our position that ESA 
must be implemented in accordance with our treaty.
    We, along with other tribes in the region, must constantly 
analyze the Federal actions to make sure tribal goals and 
priorities have been incorporated in the action agency's plans. 
We are constantly involved with the scientific, technical and 
policy forums to protect our tribal treaty commitments. Both 
the process and the modern science results in a huge financial 
burden placed on the tribes and huge staffing needs to protect 
our concerns.
    The Shoshone-Bannock Tribes received a $100,000 add-on to 
the base fish and wildlife project management and development 
fund in 1992. The Bureau has not increased this at all, not 
even a cost of living increase. We have requested annually 
$550,000 to try to maintain and keep up and have our needs met 
to our treaty obligations.
    The Shoshone-Bannock Tribes' policy is to treat the Snake 
and Columbia Rivers as one river system that emphasizes the 
natural riverine ecosystem, rather than up-river versus down-
river conflicts. FERC is considering new regulations that 
propose to establish a new consultation policy that sets forth 
how FERC will complete government-to-government consultation 
with Indian tribal governments. This is a step in the right 
direction since the present policy as FERC dictates does not 
allow any meaningful involvement by tribal governments and 
there is no mandate for consultation with any tribe. We urge 
you, Senator Crapo and your committee, to oversee this process 
and conduct hearings on this tribal involvement.
    In summary, the Shoshone-Bannock Tribes emphasize the 
Columbia-Snake River systems as one river. The tribes promote 
the natural riverine ecosystem as a high significance to the 
Shoshone-Bannock people and the culture. We thank you for this 
opportunity. The Shoshone-Bannock Tribes are situated high at 
the headwaters of the longest-traveled anadromous fish species 
in the world and provide unique and proactive advice and 
techniques for the recovery and protection of these animals.
    We invite the Senate committee, Mr. Crapo, your staff, to 
the Fort Hall Indian Reservation to see what we have been 
doing, as well as to our off-reservation areas to look at the 
management about our subsistence practices in the managements 
of our production and habitat and harvest.
    I thank you for your time.
    Senator Crapo. Thank you.
    I thank both of you for your time and preparation of this 
testimony.
    Mr. Johnson, I will start with you with my questions. 
First, I will get into the basic question I have been asking 
everybody. Do you also agree that there is a need for strong 
Federal support in terms of the funding provided to implement 
necessary actions to restore salmon and steelhead?
    Mr. Johnson. Yes, sir. The Nez Perce Tribe and I am sure 
the tribes in the Columbia Basin all support whatever it takes 
to restore salmon to our usual and accustomed areas, benefiting 
the Indian people as well as non-Indian people.
    Senator Crapo. From looking at the materials you have 
provided here, I am assuming that your answer to the next 
question would be no, but do you believe that the current level 
of Federal support for this is inadequate?
    Mr. Johnson. No.
    Senator Crapo. In looking at the materials you have 
provided here with regard to unfunded fish and wildlife 
projects, can you clarify for me what projects does this 
include. Are these projects required under the Biological 
Opinion, or does it include projects beyond those that are 
required under the Biological Opinion?
    Mr. Johnson. Actually, my belief at this time is that it 
includes the holistic approach of salmon recovery. In looking 
at this document that is provided, the Nez Perce Tribe through 
the Columbia River Inter-Tribal Fish Commission, our joint 
efforts of the four Columbia Basin treaty tribes, has put this 
together for us so we could present it to you as a means of 
showing what is needed for recovery and what is lacking as far 
as the commitment to restore salmon holistically. If I could 
advocate one more thing, it would be to ask you to also accept 
the testimony of the Columbia River Inter-Tribal Fish 
Commission into this hearing as at least part of the record, 
because salmon recovery knows no State boundaries as at this 
point.
    Senator Crapo. Without objection, that testimony would be 
welcome.
    We were talking earlier with Mr. Huffaker who was 
testifying about the need to approach or develop a 
comprehensive identification of what needed to be undertaken. 
At the time, I told him I suspected there were people in the 
audience or elsewhere who had already developed such grids, and 
this appears to be a very thorough approach at just that.
    It seems to me that this kind of thing, you have even got 
it down to the financial cost of the projects that need to be 
undertaken. This kind of thing is exactly the kind of thing 
that we need to be looking it. So I appreciate your providing 
this information to us.
    You have indicated strong concern in the three requests 
that you made at the conclusion of your testimony, a strong 
concern about the Pacific Coastal Salmon Recovery Fund and 
making certain that we get Idaho included into that fund and 
strengthen the fund in terms of the resources provided. I will 
just tell you I strongly agree with you on that, and in fact 
just had a conversation with Senator Craig on the floor of the 
Senate when we had the recess, about the status of those 
efforts. I will continue to advocate very aggressively that 
Idaho be included in that fund and that the fund's resources be 
expanded so that the activities of other States not only are 
not harmed, but that everyone can get additional resources for 
salmon and steelhead recovery.
    In that context, I would simply encourage you to use your 
resources through the tribes and their advocacy efforts to 
encourage our Appropriations Committee to support that effort 
this year in the Senate, because this is the year I am hopeful 
that we will be able to succeed.
    Mr. Johnson. Thank you, sir. The Nez Perce Tribe will 
definitely help in that endeavor. And also, like our neighbors 
to the south, we would invite you to our homeland to come look 
at what we have actually done with that fund. You will see a 
lot of good work done in habitat road obliterations, streambed 
stabilization, and coho reintroduction. It is something you 
would definitely enjoy if you come out to our country to see 
it, sir.
    Senator Crapo. I definitely would. As a matter of fact, on 
the occasions when I am able to visit both of your 
reservations, I have been impressed by the level of commitment 
and the level of understanding of what needs to be done. I look 
forward to further and future opportunities to visit there.
    Let me ask you, do you believe, and in fact this question I 
think I will ask both of you to respond to, so I don't just 
have to go through it twice. But do you believe that your 
interests and expertise has been fully ascertained and 
incorporated with respect to the past biological opinions and 
hydro-management decisions? Basically, I am talking about the 
development of the Biological Opinion in 2000 and other 
occasions of the kind.
    Mr. Johnson. Sir, I think at this point to work into what I 
want to say, I want to go back to the beginning when we had the 
Bolt decision. The tribes were challenged at that time to 
develop the expertise needed to be seen as co-managers of the 
fisheries resource. Twenty-five years later, through the 
efforts of the Columbia River Inter-Tribal Fish Commission, the 
Nez Perce Tribe, we have jointly gotten to a point where we are 
standing on the cutting edge of science. We have our own salmon 
recovery program or plan, Wy-Kan-Ush-Mi Was-Kish-Wit [Spirit of 
the Salmon]--that was developed by the tribes and in a 
cooperative spirit. There is a lot of good work in there that 
was developed and took a holistic approach. You have heard 
terms like ``ridge top to ridge top.'' We have always declared 
that we were willing to share our expertise. If you look at 
where that comes from, it is a simple concept. It is the same 
traditional mother nature concept that the Earth has enjoyed 
since time immemorial. What we have done, and I use the example 
of our Nez Perce tribal hatchery, is to try to mimic nature. 
Our hatchery was developed to mimic Mother Earth.
    So I would look at asking the Federal Government to not 
just look at one way of accomplishing the same mission, but 
let's take a step back and look at what Mother Earth had done 
for herself. In that manner, I would say we have a lot of 
expertise that has come to the table. I guess one of the 
weaknesses is at the level of participation. If we were, say, 
sitting at the table with the Power Planning Council to provide 
input as they deliberate or to answer concerns versus 
responding. It just seems to me that a higher level of 
coordinated decisionmaking by the tribes, States, and Federal 
agencies is needed to save the salmon. That is what I would 
advocate for, sir.
    Senator Crapo. Thank you. I have visited that fish hatchery 
you talk about and it is very impressive. The potential for 
increasing the survivability of the smolt seems to me to be 
significant, and I am hopeful that the reality will show that 
that is the case.
    Ms. Murillo, would you like me to re-state the question?
    Ms. Murillo. The need for a strong Federal support?
    Senator Crapo. Yes. The question here is, do you believe 
that you and your tribe's expertise and understanding has been 
adequately understood and incorporated into the decisionmaking 
process that we have gone through in the development of the 
salmon recovery plans?
    Ms. Murillo. I think it has been an arduous task for our 
people to be involved. As I mentioned, we have a lack of 
adequate staff; a lack of adequate funding to get our people 
from Southeast Idaho up to Portland whenever these meetings 
are. It takes a tremendous amount of time and effort and money. 
So there has been some support there, but not as much as I 
believe we should have had.
    Senator Crapo. You raise an interesting point in your 
testimony, and you just raised it again, that the endangered 
species process that we are engaged in is absorbing most if not 
all of your time and resources, just to be involved in the 
process, as opposed to on the ground recovery efforts. So I 
assume one of the recommendations that you would make, and that 
is my next question to both of you, what recommendations would 
you make in terms of how we would best improve the ability of 
the tribes to participate more effectively in our 
decisionmaking processes? I assume one of your answers to that 
would be to respond to you budget request to increase the 
support that we provide so that you can better participate.
    Ms. Murillo. That is correct. Increase the funding for the 
Shoshone-Bannock Tribes; in addition, to have the Federal 
agencies work and consult with the Shoshone-Bannock Tribes, and 
also to ensure that these plans are being transmitted 
accurately so there can be adequate responses to these; and to 
ensure that the tribes, as we are a treaty tribe, that we need 
that consultation. We need to preserve the habitat for our 
future and for the seven generations beyond that point. There 
needs to be more coordination. There needs to be some sound 
decisions and planning. Apparently, our staff is indicating 
these plans have been changed and modified, and it is a 
continuous thing to stay on top of this. I think that is an 
essential to have better planning.
    Senator Crapo. I agree with you.
    Mr. Johnson, did you want to add anything about what can be 
done to better incorporate the tribes into the decisionmaking?
    Mr. Johnson. Yes, sir. At this point, one of the weaknesses 
I see is in the consultation process with the Federal 
Government, and that being involved in not just ``after the 
fact'' consultation when a decision has been made, but actively 
involved in coming to a decision or evaluating options and 
having our input taken into those options. I think that would 
go a long way to address a lot of the weaknesses at all levels.
    Senator Crapo. Thank you.
    Ms. Murillo, yes, go ahead.
    Ms. Murillo. I wanted to expand on my response to that on 
consultation. We have some consultation policies with some 
Federal agencies that we are pursuing, for example, BPA. We 
would like to see a technical consultation process and then a 
policy consultation process where the leadership would make the 
decisions on the policies. If there are technical 
communications, then we can have our technical biologists and 
those folks meet with the BPA.
    We at times have BPA or any Federal agency for that matter, 
indicating that they have had discussions with the tribe, but 
they are at the technical level or the clerical level, as 
opposed to the policy decisionmaking level. So that needs to be 
stressed and implemented.
    Senator Crapo. That is an important point. So most of the 
interaction, then, at this point has been at the clerical or 
technical level, as opposed to the policy level.
    All right. Let's get to the question on funding. You are 
the last ones I have not asked that of, and that is, do you 
believe that there is a proper role for strong Federal funding 
for salmon and steelhead recovery?
    Ms. Murillo. Senator Crapo, insofar as the Shoshone-Bannock 
Tribes, American Indian tribes, under our treaty, there is that 
trust responsibility and obligation of the Federal agencies, 
Congress, to ensure that our treaties are complied with; that 
there is that promise; there is that obligation. We are a peace 
treaty, Shoshone-Bannock Tribes, so there needs to be that type 
of consultation and support that we will be able to fulfill the 
needs.
    As you know, we were put on reservations and we were a 
nomadic tribe and traveled vast areas. Reservations have kept 
us from our economics, and we are still trying to play on a 
catch-up basis.
    Senator Crapo. In terms of the need for Federal support, I 
think you have raised an interesting aspect of this; that is, 
Federal support to the tribes so that they can fulfill their 
treaty, their portion of the treaty responsibilities, and their 
role in salmon and steelhead recovery in terms of participating 
in the process. How about the resources that we need to 
actually implement salmon and steelhead recovery on the ground? 
Do you feel that the Federal support at that level has been 
adequate?
    Ms. Murillo. I do not believe it has, Senator Crapo, the 
Shoshone-Bannock Tribes. I believe we need to, and as the 
Chairman from Nez Perce has indicated, that they have a budget. 
We have some budgets tucked away, but we need to bring those 
out and give you some foundation of what is necessary for us to 
continue the work for the salmon recovery, and we will do that.
    Senator Crapo. I appreciate that. I will work with you to 
try to make certain that we provide the adequate resources. As 
I indicated, one of the endeavors that I have been involved in 
and many of us here in Washington have been involved in, is 
trying to get a handle on just what the level of commitment 
needs to be at the Federal level to help us achieve the 
objectives of salmon and steelhead recovery. That obviously 
does not involve the equally important question of what should 
be those undertakings. Mr. Johnson has provided a list of the 
holistic approach to the issue that needs to be undertaken with 
regard to unfunded projects and activities that need to be 
undertaken.
    There are a lot of other ideas out there as well, but the 
bottom line is that whatever the ultimate plan is, which the 
NMFS will guide as the lead agency on this, whatever that is, 
we need to make sure that we adequately implement it so that we 
know that we have made the commitment in the region to at least 
implement the BiOp and make certain that we are prepared to be 
confident in that level so the report cards that come out on 
implementation show adequate results, as well as our efforts to 
make certain that we have adequate procedural participation by 
all of the participants, by all of the stakeholders.
    I have concluded the questioning that I have on this issue. 
Before I wrap up the hearing, since you are the last two 
panelists, I will give each of you an opportunity if you care, 
if there is anything that you feel like you have not had an 
opportunity to say that you would like to or would like to 
emphasize, I will give each of you an opportunity to conclude.
    Mr. Johnson, is there anything further that you would like 
to add?
    Mr. Johnson. Sir, all I would like to say is thank you for 
your leadership on this issue. The Nez Perce Tribe stands ready 
to assist, as well as the organizations that we are part of, 
the Columbia River Inter-Tribal Fish Commission. We have a 
whole wealth of knowledge ready to assist in restoring these 
populations to a sustainable, harvestable levels.
    In closing, thank you, sir.
    Senator Crapo. Thank you.
    Ms. Murillo?
    Ms. Murillo. Yes, on what other means can the Federal 
Government do, I think it is coordinating and emphasizing that 
Federal agencies have that trust responsibility to Indian 
tribes. Likewise on the easements for habitat restoration and 
preservation, that needs to be looked at for us, for the salmon 
recovery. The Federal agencies, there seems to be a barrier in 
working with Indian tribes. At least with the Shoshone-Bannock 
Tribes' experience, there is a lack of education on the 
treaties and what the responsibilities of the Federal 
Government are. I think there needs to be a whole 101 on it, or 
maybe a senior level for folks to realize that we Indian people 
are here and we are going to be here, just as the salmon will 
be here.
    Thank you. I appreciate your time.
    Senator Crapo. Thank you. That is very well-stated. I 
believe that it is important for us to recognize that we not 
only operate under the Endangered Species Act, but that we have 
treaty responsibilities that must be implemented and met here. 
That is one of the reasons I wanted to have a separate panel 
with the sovereign tribes to represent their interests in this 
matter as we proceed.
    As we conclude this hearing, I want to thank all of the 
witnesses again today for the time and effort that they have 
put into this. I note that most, if not all, of the witnesses 
from the previous panel have stayed and listened. I deeply 
appreciate that. I know that we have a lot of diversity of 
opinion on how to proceed, and we face the difficult issues 
that we have gone over thoroughly here in the hearing today 
about how to finance proceeding on the plans that we have.
    Ultimately, I hope that we can all agree on the objective, 
that we restore our salmon and steelhead to abundant, fishable, 
harvestable levels, and that that can be a significant economic 
benefit to our region, not just in terms of the important 
environmental heritage that we face the potential of losing if 
we do not take the appropriate actions quickly and effectively, 
but also that we learn the importance that it means to us 
economically.
    I believe that sometimes those aspects of a decision are 
overlooked. I appreciate the support of everybody here today 
that has been expressed for the need for our Federal Government 
to become involved at even increased levels to make certain 
that we meet this commitment.
    With that, this hearing will be concluded.
    Thank you.
    [Whereupon, at 12:13 p.m. the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements for the record follow:]

  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana

    Thank you Mr. Chairman for calling this important hearing today. I 
commend you for your leadership on this issue. I would just like to 
include this brief statement in the record because although Montana 
does not have salmon and steelhead, we are impacted by operations at 
Libby and Hungry Horse dams that are intended to benefit those species.
    Mr. Chairman, Montana has often felt a bit left out of the debate 
over the operations of the Columbia River System. Montanans understand 
our obligations as part of the Columbia River Basin and the Northwest 
to do our part to help recover these magnificent fish. But Hungry Horse 
and Libby dams are extremely important to the economy of western 
Montana, for recreation, resident fish and wildlife, irrigation, and 
flood control. Operations of these dams pursuant to the requirements of 
the 2000 Biological Opinion for the aid and recovery of Columbia River 
salmon impact all of these Montana priorities.
    I just want to make sure that Montana's needs and concerns are 
considered seriously by the Federal Agencies involved in implementing 
the Biological Opinion, and in adhering to their other duties under the 
Endangered Species Act and the Northwest Power Act. In particular, 
Montana has concerns about its own endangered, threatened and sensitive 
species of fish and how the operations of Libby and Hungry Horse dams 
impact those species. Montana also does not want to wait at the end of 
the line when it comes to sharing the benefits of the Columbia River 
System.
    Again, I would like to thank the Chairman for holding this hearing, 
and I look forward to submitting questions for the record to the 
witnesses, particularly the Northwest Power Planning Council and the 
Bonneville Power Administration. I thank all of the witnesses for 
taking the time to be here today.
    Thank you, Mr. Chairman.

                               __________
Statement of D. Robert Lohn, Regional Administrator, Northwest Region, 
  National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

    Good morning, Mr. Chairman, and honorable members of the Committee. 
For the record, my name is Bob Lohn, Regional Administrator of the 
Northwest Region of the National Marine Fisheries Service (NOAA 
Fisheries). I appreciate the invitation to be here today with fellow 
regional Federal colleagues, tribal, and State interests to discuss the 
important subject of Pacific salmon, and specifically, the status of 
the Federal Government's progress in implementing the 2000 Federal 
Columbia River Power System (FCRPS) Biological Opinion.
    In my comments today, I would like to briefly touch upon three 
issues relevant to our progress in carrying out the 2000 Biological 
Opinion on the operations of the FCRPS, including the four lower Snake 
River dams. Those three issues are: (1) the implementation status of 
the 199 action items contained in that Opinion; (2) a brief update on 
the status of Columbia River and Snake River salmon, and (3) the status 
of funding for the Biological Opinion and salmon recovery.
    Let me provide some context for today's discussion by first 
describing a few key events leading up to the issuance of the 2000 
Biological Opinion and significant events that have occurred in the 
first 2 years since it was issued.

                  BACKGROUND OF THE BIOLOGICAL OPINION

    As you know, over the last 14 years, NOAA Fisheries listed 26 
separate populations of salmon and steelhead, termed Evolutionary 
Significant Units (ESUs), as threatened or endangered under the 
Endangered Species Act in Idaho, Washington, Oregon, and California. Of 
these listings, 12 ESUs occur in the Columbia River basin including 4 
in the Snake River. Snake River sockeye were listed as endangered in 
1991, Snake River spring and fall Chinook were listed as threatened in 
early 1992, and Snake River steelhead were listed in 1997.
    Section 7 of the ESA requires Federal agencies that propose to take 
actions that may affect listed salmon and steelhead to consult with 
NOAA Fisheries to ensure the proposed action is not likely to 
jeopardize the continued existence of the fish or adversely modify 
designated critical habitat. The section 7 consultation process results 
in NOAA Fisheries issuing a Biological Opinion detailing how the 
proposed actions would affect the species, and what prescriptions the 
agency recommends to address any concerns.
    NOAA Fisheries issued its first Biological Opinion for the Federal 
power system on the Columbia and Snake Rivers in 1992. The 1992 
Biological Opinion, and another Opinion in 1993 called for measures to 
improve salmon survival and increased research and analysis of certain 
proposed improvements. The 1993 Biological Opinion was challenged in 
Federal court. By the time the case was heard, NOAA had issued a 1994-
98 Opinion following the same general approach, and the court rejected 
the agency's plan. NOAA Fisheries responded by preparing an interim 
Biological Opinion and committing to develop a new Biological Opinion 
and long-term recovery plan by 1999. This new 1995 Opinion was also 
challenged, but the court ultimately decided the case in favor of the 
Federal plan. Consultation was reinitiated in 1999 and this led to the 
current Biological Opinion, issued in December 2000.
    Soon after its issuance, the 2000 Biological Opinion was challenged 
by various interest groups in Federal district court. On May 7 of this 
year, Judge Redden ruled that the Biological Opinion did not take into 
account the proper ``action area'' and the Opinion did not adequately 
consider whether the various conservation measures discussed in the 
Opinion (reasonable and prudent alternatives (RPAs)) met certain 
standards that they developed. The Court found that NOAA Fisheries 
should not evaluate the future effects of actions in developing a 
reasonable and prudent alternative unless the results from either 
future Federal actions that have already undergone consultation under 
section 7 of the ESA or future non-Federal actions must be determined 
to be ``reasonably certain to occur.''
    On June 2, 2003, Judge Redden remanded the Biological Opinion to 
NOAA Fisheries for further action. The court is considering a motion by 
the plaintiffs to vacate the Biological Opinion while it is undergoing 
revision. According to the briefing schedule, full briefing of this 
issue was to be completed June 20. The court has agreed to allow NOAA 
Fisheries up to 1 year to revise the Biological Opinion in accordance 
with the court's ruling, with status reports to be filed with the court 
every 90 days. In the meantime, the current Opinion continues to be 
implemented.
    However, the court is now considering a motion by the plaintiffs to 
vacate the Biological Opinion while it is undergoing revision. Briefing 
on the motion was completed June 20 and the court may rule at any time. 
A decision by the court to vacate the Biological Opinion could have 
severe consequences on NOAA Fisheries, on the Federal Action Agencies 
and on the entire Federal Columbia River Power System. It would remove 
the incidental take protection that currently shields Federal employees 
from legal liability under the Endangered Species Act. It would also 
threaten the continuation of many Federal programs designed to help 
recover imperiled salmon runs such as the demonstrably successful 
juvenile transportation effort. Vacatur would destroy the current 
operational certainty for the highly complex power system, and replace 
it with institutionalized uncertainty. This uncertainty would arise 
from the continuing threat of judicial intervention to change current 
operations to meet the demands of the plaintiffs in the litigation 
regardless of the impacts of those changes on the power system or even 
on the imperiled fish. The reliability and economic efficiency of the 
power system would be damaged, with no clear benefit for fish.
    It is premature to comment on the extent to which the current 
Biological Opinion may be revised over the next year. Nonetheless, 
today's discussion about the implementation status of the 2000 
Biological Opinion may be relevant to the revised Opinion upon which we 
are now working.

               STATUS OF BIOLOGICAL OPINION ACTION ITEMS

    The 2000 Biological Opinion for the Columbia and Snake River hydro 
system concluded that jeopardy of listed salmon and steelhead could be 
avoided if certain conservation measures contained in a reasonable and 
prudent alternative were implemented by the Bonneville Power 
Administration, U.S. Army Corps of Engineers, and U.S. Bureau of 
Reclamation (known as the Action Agencies) over a 10-year period to 
2010. In total, the Opinion's RPA contains 199 actions.
    The RPA defined a rolling annual and 5-year planning, 
implementation and review process. The FCRPS Action Agencies produce 
annual and 5-year implementation plans (IP) that describe progress to 
date, lay out details of the short-and long-term plans for achieving 
performance standards, propose adjustments to the RPA Actions, and 
describe the rationale for those adjustments. NOAA Fisheries is 
required to review each year's annual Implementation Plan through the 
issuance of a ``findings letter'' to the Action Agencies.
    In May 2002, the Action Agencies released a report detailing their 
progress in 2001 for implementing the 199 measures. As you know, 2001 
water levels in the Columbia and Snake River systems were some of the 
lowest ever, and created great challenges for the Action Agencies to 
help meet water needs for listed fish as well as for Northwest power, 
irrigation, and recreational needs.
    In light of these challenges, I commend the Action Agencies for 
their extensive efforts to coordinate with other Federal agencies, 
States, tribes, utilities and others during a difficult year. As a 
result of their hard work in 2001, NOAA Fisheries advised the Action 
Agencies in a July 2002 letter that necessary hydro improvements and 
offsite mitigation measures in the Biological Opinion were progressing 
sufficiently in 2001 through their ``One Year Plan,'' such that the 
Biological Opinion was largely on track. That letter also emphasized 
certain areas where future efforts should be focused.
    On May 14 of this year, NOAA Fisheries issued its second 
``findings'' letter, reviewing the implementation status of each of the 
199 RPA actions and whether the Action Agencies appear on track to meet 
the important 2003 ``check-in'' requirements set forth in the 
Biological Opinion (http://www.salmonrecovery.gov/). I am pleased to 
report to you that of the 124 actions that require definition, 
implementation, or completion by or before 2003, 117 are being 
implemented either as expected or with only minor modifications.
    This leaves only seven out of 124 RPA actions (5 percent)--with 
implementation schedules that have been modified in ways that represent 
any concern. Finally, of the 75 Actions for which the Opinion provides 
no specific implementation schedule, 68 are currently underway or 
proposed for initiation in 2003.
    This represents great progress, and I'd like to praise the Federal 
Action Agencies, the States, tribes, local organizations, and citizens 
of the region for their rapid mobilization and good work. I am 
convinced that salmon recovery in this region depends on this kind of 
widespread collaboration.
    Some of the seven RPA actions that are behind schedule are of 
lesser consequence. There are, however, two areas of particular 
concern: development of subbasin assessments and plans for priority 
subbasins (Action 154) and effectiveness monitoring for offsite 
mitigation actions (Action 183 and Research, Monitoring, and Evaluation 
data base development identified in Action 198). Both of these areas 
are behind the anticipated schedule, and both play an important role in 
the overall success of the

Biological Opinion
    Subbasin planning is the means by which the major limiting factors 
for listed salmon and steelhead are defined, locally supported plans to 
address those factors are established, and the foundation for 
comprehensive recovery plans laid. That ambitious process got off to a 
slow start, but is now rapidly coming up to speed. The Bonneville Power 
Administration has provided substantial funding for subbasin planning, 
and the Northwest Power Planning Council is devoting its energy and 
expertise to completing this effort.
    Research, monitoring, and evaluation (RM&E) is the means by which 
NOAA Fisheries and the Action Agencies evaluate the biological effects 
of our efforts under the Biological Opinion, determine whether we are 
achieving the expected results, and modify our efforts to achieve the 
greatest beneficial effect. While a significant amount of RM&E is 
taking place, we do not yet have the analytical infrastructure and 
tools needed to support this enormous recovery effort.
    NOAA Fisheries is committed to working with the Action Agencies to 
develop and implement the research, monitoring, and evaluation program 
under the Biological Opinion. In the President's 2003 Budget request, 
$12 million was proposed to fund the RM&E needed under this opinion. 
Unfortunately, no money was appropriated for this purpose in fiscal 
year 2003. The President's fiscal year 2004 budget includes $ 15.1 
million for this purpose, and we hope that Congress will honor this 
important request. In the meantime, NOAA Fisheries' Northwest Regional 
Office and Northwest Fisheries Science Center are working with the 
Columbia Basin Fish and Wildlife Authority and other regional interests 
to develop the best RM&E program possible using existing tools and 
programs, and low-cost innovation.
    Despite the challenges to meet the Biological Opinion's 
requirements, I am very encouraged by new technological developments 
and other research efforts by the Action Agencies to pursue exciting 
initiatives to aid the passage of juvenile salmon through hydroelectric 
dams on the river system, such as the U.S. Army Corps' removable 
spillway weir at Lower Granite Dam. Early study results indicate this 
technology could allow more fish to pass faster through the dam while 
less water is being spilled.
    Recently, NOAA Fisheries announced the creation of a new Salmon 
Recovery Division within our Northwest Region to focus on 
implementation of salmon recovery initiatives within this region and to 
provide coordinated support to the myriad of existing State, local and 
tribal salmon recovery activities throughout the Northwest. For 
example, in 2002, over 260 Federal caucus-sponsored habitat restoration 
projects were implemented in 25 subbasins, with high priority given to 
improved water quality and fish passage. In addition, over 2,000 salmon 
habitat restoration projects and activities in Washington, Oregon, 
California and Alaska have been funded since 2000 through the Pacific 
Coastal Salmon Recovery Fund and other State funds. This new office 
will work with the region to identify the unique limiting factors of 
salmon in specific watersheds and subbasins, pool existing and future 
resources, and prioritize recovery activities to address the greatest 
needs for salmon. I am confident that the new division will not only 
increase the effectiveness of our recovery effort, but will also allow 
the region to address its ESA responsibilities in more efficient and 
collaborative manner.

      CURRENT STATUS OF COLUMBIA RIVER BASIN SALMON AND STEELHEAD

    I'm pleased to report good news about the status of Pacific salmon 
in the Northwest, including listed species in the Snake River. Most 
Columbia River stocks are enjoying a substantial upswing. For example, 
the fall chinook harvest group known as Upper Columbia Brights--a group 
that includes both Hanford Reach and Lower Snake River fall chinook, is 
forecast to enter the Columbia River this year with 280,000 adults. If 
the forecast is realized, this year's return will be similar to last 
year's return, which was the largest return since 1988, and would be 
the fourth largest since 1964.
    The ESA-listed runs in Idaho are also showing considerable 
improvement over the last few years. For example, in 2001, the most 
recent year for which we have complete results, 17,000 Snake River 
steelhead returned, versus a 5-year average of 9,400 at the time they 
were listed in August 1997. We also saw about 17,000 spring/summer-run 
chinook, compared to a 10-year average of 9,674 at the time of their 
listing in April 1992. And, 2652 fall-run chinook returned, compared to 
a 5-year average of 661 at the time of their listing in April, 1992. 
While the trends in Snake River sockeye are not as meaningful, since 
they are mainly a function of the number of hatchery-reared fish that 
are released, the 2002 return of 22 fish compares favorably with the 5-
year average of only 3 at the time of listing. More importantly, the 
fact that we are getting any sockeye back at all is a hopeful indicator 
that the experimental captive brood program may be capable of 
eventually re-establishing this population.
    While we will need to have the convincing assurance that these 
trends will continue before we are ready to declare any of these stocks 
to be recovered, the recent trends are encouraging. Undoubtedly, 
improved ocean conditions are the single greatest contributor to these 
increases. But I am firmly convinced that the additional protection and 
mitigation measures being implemented under this Biological Opinion and 
the myriad of local, State, and tribal conservation efforts--
particularly those benefiting juvenile salmon--are playing a vital 
role.

                 FUNDING OF BIOLOGICAL OPINION ACTIONS

    In Fiscal Year 2003, the President's Budget requested a 19 percent 
increase over Fiscal Year 2002 appropriations for salmon-related 
Federal activities in the Columbia River Basin. The President's Fiscal 
Year 2004 discretionary appropriations budget continues the increased 
support provided in the Fiscal Year 2003 Budget for salmon-related 
actions in the Columbia River Basin. Our findings letter reports that 
all of the major action items called for in the Biological Opinion have 
been funded except for the research, monitoring, and evaluation RPA 
discussed above. This includes more than $100 million in funding to the 
U.S. Army Corps of Engineers for its entire Columbia River Salmon 
Program over the last 2 years. This also includes substantial funding 
to the Bureau of Reclamation to assist in fish screening projects and 
to purchase water from willing sellers to increase in-stream flows. As 
Colonel Knieriemen's testimony notes, although past funding has been 
available, the Corps has a Fiscal Year 2003 shortfall in its funding 
for its Columbia River Fish Mitigation capital improvement items. There 
are two additional areas of concern, in addition to the RM&E funding.
    First, the Biological Opinion contemplates that substantial 
mitigation activity will be undertaken by Federal land management 
agencies such as the Forest Service and the Bureau of Land Management. 
Although these agencies are not action agencies under this Biological 
Opinion, their continued protection and improvement of salmon habitat 
on Federal lands is an essential contribution to the range of habitat 
restoration actions needed to recover listed salmon and steelhead 
stocks in the Columbia River Basin. Some benefits for listed salmon 
species will be achieved through Bureau of Land Management and Forest 
Service actions through the National Fire Plan and Healthy Forests 
Initiative. Evaluation of those benefits and implementation of targeted 
salmon habitat restoration projects remain critical to the success of 
the Biological Opinion.
    Second, the subbasin planning process is intended to identify the 
major limiting factors in each of the subbasins, and to propose locally 
supported solutions to those limiting factors. Subbasin plans are a key 
step in recovery planning. Just as it is unrealistic to estimate the 
cost of a new building until the blueprints are in hand, so, too, it is 
premature to forecast the costs associated with implementing the 
solutions developed in subbasin planning. Furthermore, the Bonneville 
Power Administration is faced with extremely difficult financial 
circumstances. Although Bonneville's costs in implementing this 
Biological Opinion have fallen within the range expected when the 
current power rates were set 3 years ago, we recognize that other 
factors, including heavy losses due to the power crisis of 2001, and 
the current lower-than-expected power revenues and snowpacks have 
placed them at risk financially. We are working closely with them to 
assure that this Biological Opinion is implemented in a manner that is 
both biologically effective and financially sustainable.
    I am encouraged, however, by the generous environmental improvement 
programs in last year's Farm Security and Rural Investment Act of 2002 
that offer an unexpected source of additional funding to protect and 
improve riparian habitat in agricultural lands. Since this is some of 
the most important habitat for salmon and steelhead, we see great 
potential in working with the Natural Resource Conservation Service to 
realize these on-the-ground benefits. We are just beginning to develop 
the kind of partnerships necessary to achieve these benefits, but the 
initial indications are encouraging.
    Each year, the Federal agencies active in the Columbia Basin work 
together through the Office of Management and Budget and the Council on 
Environmental Quality on their combined salmon recovery budgets, in 
order to ensure that we have a coordinated budget. We will continue to 
compare the future mitigation needs for ESA-listed salmon and steelhead 
as soon as those additional needs are identified in the subbasin 
planning process or by other means--with the funding then available. 
Only then will we know the true level of funding needed to fulfill the 
expectations of this Biological Opinion.
    In recent months, a number of parties have asserted that Federal 
agencies lack the financial resources to recover salmon and steelhead 
in the Columbia Basin, citing needs in the range of $800-900 million 
per year. We believe the Federal dollars identified in the President's 
Budget submittals for Fiscal Year 2003 and Fiscal Year 2004 are 
adequate to do the job.
    The hundreds of millions of dollars Federal taxpayers and regional 
ratepayers spend each year for salmon recovery make this one of the 
largest restoration programs in the Nation. It is our intention to use 
this funding effectively and efficiently to fulfill this Biological 
Opinion. The President's budget matches the tasks and assignments at 
hand, but there are still some areas where Congress has not approved 
proposed salmon budget items. We urge your support to fill these gaps.
    Some additional comments may be appropriate here about the so-
called ``Salmon Report Card'' issued by certain interests groups a few 
months ago. I am well aware that the positive outlook in our findings 
letter and in today's testimony may differ dramatically from the dire 
assessment presented in the report card released by certain interest 
groups.
    The ``Salmon Report Card'' issued by these interest groups uses as 
its yardstick the Biological Opinion as they would like it to be--not 
as it actually is written. They confuse goal statements with 
requirements, when the Biological Opinion is quite clear that certain 
goals such as flow targets cannot be achieved under many conditions. 
Second, the authors of the Report Card did not seem to recognize that 
we are only a little more than 2 years into a 10-year Biological 
Opinion. Not all of the Opinion's measures will be fully implemented in 
its initial years nor does the Biological Opinion expect them to be. 
And finally, the Report Card simply includes incorrect information on 
what is actually being accomplished. The findings letter we issued in 
May tells a very different story.
    Before I close, Mr. Chairman, because I know there is considerable 
interest in the status of hatchery fish, I would also like to briefly 
advise of the status of NOAA Fisheries' review of the 26 salmon and 
steelhead listings and hatchery listing policy.

           NOAA'S HATCHERY LISTING POLICY AND STATUS REVIEWS

    U.S. District Court Judge Hogan's decision in the 2001 case of 
Alsea Valley Alliance v. Evans led NOAA Fisheries to reevaluate how it 
treats hatchery fish in its ESA listing determinations. The Alsea 
decision rejected NOAA Fisheries' prior policy of excluding hatchery 
populations from listing decisions even though they were determined to 
be part of the same ESU as listed naturally spawned populations.
    NOAA Fisheries is currently developing a new hatchery listing 
policy that we hope will more clearly articulate how the agency 
considers hatchery salmon in evaluating the risk of extinction for 
salmon and steelhead ESUs, in current and future listing determinations 
under the ESA. Initially, the revised hatchery listing policy was 
expected to be completed in late 2002. However, the agency has been 
carefully reviewing comments from State and tribal co-managers to 
ensure the policy is based on the best and most accurate scientific 
information available. We hope to have a draft policy completed in the 
very near future and available for public comment and review within a 
few months. We believe that artificial production facilities can make 
an important contribution to salmon recovery in the Northwest.
    In addition, in 2002, NOAA Fisheries published notices that it 
would initiate status review updates for 27 ESUs of Pacific salmon and 
steelhead, including 26 listed ESUs and 1 candidate ESU. The status 
reviews were initiated in response to the Alsea Valley Alliance v. 
Evans decision, as well as separate listing and de-listing petitions 
for 14 ESUs. On December 31, 2002 we expanded the status reviews to 
also reconsider the relationship between steelhead and genetically 
indistinguishable resident trout, since our past practice of listing 
only anadromous fish in our 10 listed steelhead ESUs that also contain 
such resident trout is susceptible to legal challenge on grounds 
similar to Alsea. The comprehensive status review updates are 
anticipated to be completed as soon as possible following the adoption 
of the hatchery listing policy to provide guidance on the proper 
consideration of hatchery populations in ESA status reviews and listing 
determinations. The review is being conducted in two parts.
    In part one, an expert team of Federal scientists, the Biological 
Review Team, is reviewing the status of the naturally spawning portion 
of each ESU. Another group of agency scientists is advising how closely 
related the hatchery stocks in each ESU are to the naturally spawning 
portion of the ESU. In part two, NOAA Fisheries will review overall 
extinction risks to the entire ESU, including hatchery spawned fish. As 
required by the Endangered Species Act, the final determination of 
whether an ESU should be listed will be based on the combined results 
of parts 1 and 2.
    Recently, the science panel completed its preliminary report for 
part 1 and has shared it with State, tribal and Federal co-managers to 
ensure that the findings are technically accurate. These preliminary 
findings show the status of the naturally spawning portion of each ESU 
and report on the relatedness of associated hatchery populations. The 
preliminary findings do not take into account the future effects of 
ongoing salmon conservation and recovery efforts. My staff will use 
this information as part of our determination of which ESUs required 
continued protection as threatened or endangered species.
    After the part 1 and part 2 reviews have been completed, NOAA 
Fisheries intends to publish its proposed findings on each ESU and the 
basis for the findings, and will seek public comment on those proposed 
findings. NOAA Fisheries anticipates completing its review of all 26 
salmon and steelhead ESUs, publishing those findings in the Federal 
Register, and seeking public comment before the end of 2003.
    Again, thank you, Mr. Chairman, for inviting me here today, and 
also for your demonstrated commitment and leadership on Pacific salmon 
recovery and other environmental issues of concern to Idaho and the 
Pacific Northwest. I look forward to working with you to ensure that 
salmon recovery is successful, cost-effective and yields benefits for 
generations to come. Thank you for the chance to appear before you 
today. I would be pleased to respond to any questions, either at this 
hearing or in subsequent submissions for the record.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Statement of Stephen J. Wright, Administrator, Bonneville Power 
                             Administration

    Mr. Chairman, and Members of the Committee. My name is Steve 
Wright. I am the Administrator of the Bonneville Power Administration 
(BPA). It is a pleasure to appear before you today to discuss the 
progress we have made in salmon recovery over the last 3 years, since 
the December 2000 release of Endangered Species Act (ESA) Biological 
Opinions (BiOps) for listed salmon, steelhead, sturgeon, and bull 
trout.
    Overall, I have good news to report. Despite drought conditions in 
2001, dry conditions at the start of this year, and BPA's poor 
financial circumstances, the Northwest region of the National Oceanic 
and Atmospheric Administration (``NOAA Fisheries'') recently verified 
that the Federal Columbia River Power System (FCRPS) Action Agencies 
(i.e. BPA, the Bureau of Reclamation and the U.S. Army Corps of 
Engineers) are fully implementing over 95 percent of the measures 
called for in the NOAA Fisheries BiOp. These ESA actions are also 
helping to fulfill our responsibilities under the Northwest Power Act 
to protect and enhance fish and wildlife affected by the FCRPS. As you 
know, the Federal District Court has remanded the NOAA Fisheries BiOp 
for revision, and NOAA has approximately 1 year to revise it in 
accordance with the court's ruling. While the BiOp is being revised, 
BPA will continue to meet its 2003 and 2004 commitments under the 
Northwest Power Act and the Endangered Species Act.
    The court, however, is now considering a motion by the plaintiffs 
to vacate the Biological Opinion while it is undergoing revision. 
Briefing on the motion was completed June 20 and the court may rule at 
any time. A decision by the court to vacate the Biological Opinion 
could have severe consequences on NOAA Fisheries, on the Federal Action 
Agencies and on the entire FCRPS.

Improved Fish Survival
    As NOAA Fisheries will testify, the steps the FCRPS Action Agencies 
have taken over the last decade have significantly improved juvenile 
fish survival through the Federal hydro system. Today, young fish 
survive their passage downriver at roughly the same rates as in the 
1960's, when fewer dams were in place.
    In addition to improved survival rates through the dams and 
reservoirs, we are seeing rebounds in the numbers of returning adult 
fish throughout the Columbia River Basin. For example, in 2001, the 
upriver Spring Chinook return of 405,500 fish counted by the Washington 
Department of Fish and Wildlife (WDFW) at the Bonneville Dam was the 
largest return on record (since 1938), and resulted in 172,000 fish 
counted by WDFW, over Lower Granite. This year (2003), we had the 
third-highest return on record 195,770 despite the severe drought and 
emergency power operations in 2001, when many of these returning adults 
were migrating to the ocean. For the first time in many years, there 
are enough surplus fish to allow full-scale commercial fisheries on 
this stock. Returns for other stocks have seen similar results. For 
example, upriver steelhead saw record returns of nearly 640,000 fish. 
Generally good to excellent returns and spawning have continued for 
most stocks in 2002 and so far in 2003.
    Some of this recent good news is attributable to favorable ocean 
conditions, which are cyclical. However, we believe it also reflects 
the combined benefits of FCRPS Action Agencies' efforts to improve 
juvenile fish survival, habitat, hatchery management, and harvest 
control. We see these strong returns as indicators that we are on the 
right long-term path with our salmon recovery program.
    Today, I will review our progress to date under the Northwest Power 
and Conservation Council's (Council) Fish and Wildlife Program and 
Endangered Species Act mitigation. Jointly, these actions are 
coordinated and carried out through the Council's Fish & Wildlife 
Program and are referred to as the Integrated Program. I will talk 
about the accountability that we have built into our fish and wildlife 
efforts, including our focus on monitoring and evaluation and other 
work that is laying the foundation for achieving biological benefits 
for the least cost. Finally, I will address BPA's financial situation 
and how it has affected our fish and wildlife efforts. We have 
continued to meet our fish and wildlife obligations despite our 
financial difficulties. But the unpredictability of water conditions 
and electricity prices will continue to cause BPA's revenues to 
fluctuate considerably from year to year. In the face of this continued 
volatility, we are taking steps to provide greater budget stability and 
predictability for our fish and wildlife efforts.

A Performance-Based Approach to Salmon Recovery
    Before highlighting some of BPA's specific fish and wildlife 
accomplishments, I would like to summarize the approach we've been 
taking since the release of the 2000 BiOps. Earlier efforts, rather 
than targeting and measuring biological performance, merely specified 
actions habitat improvement, hatchery operations, and the like. 
Starting with the 2000 BiOp, we began using a performance-based, least-
cost approach.
    The transition to performance standards as the measure of fish 
enhancement has been difficult at times. BPA has taken a leadership 
role in showing that it is not how much money we spend that is the 
gauge of our success it is the results we have to show for the money 
spent. In the words of the Northwest Power Act, the Council's Fish and 
Wildlife Program seeks to ``utilize, where equally effective 
alternatives means of achieving the same sound biological objectives 
exist, the alternative with the minimum economic cost . . . .'' Under 
this approach, we are using a biological yardstick, while still keeping 
our eye on costs.
    Consider spill for example. Under the BiOp, we are measuring the 
biological effectiveness of spill at individual dams. We have learned 
that spill is not a ``one size fits all'' formula. Spill amounts and 
patterns vary in their effectiveness in supporting fish survival. BPA, 
together with the U.S. Army Corps of Engineers (Corps) and the Bureau 
of Reclamation (Bureau), has analyzed river operations looking for 
opportunities to achieve the BiOp performance standards while reducing 
costs. Research studies at John Day and Ice Harbor Dams have suggested 
that lower spill levels (from those called for in the BiOp) may enhance 
juvenile passage survival during spring and/or summer migration. This 
year, we are conducting tests of reduced spill levels at these 
projects, consistent with the BiOp implementation planning process, to 
determine optimum levels of spill for improved survival. In addition, 
we are working with the Council and others to carry out the summer 
spill test recommendations in the 2003 Mainstem Amendment to the 
Council's Columbia River Basin Fish and Wildlife Program.
    In a related area, we have seen some promising results at Lower 
Granite Dam from the use of removable spillway weirs (RSWs), which may 
allow greater fish passage with less water spilled and less dissolved 
gas. As the Corps notes in its testimony, we are accelerating 
investigation of RSWs at key dams, with the endorsement of the Council.
BPA's Recent Accomplishments Under the Biological Opinion
    I am proud of what BPA and its partners have accomplished for 
salmon recovery. Here are some of our notable actions in 2002:
            In the hydrosystem:
    1. With the Corps and Bureau, we completed ten major configuration 
projects at the Federal dams. With the completion of these measures, we 
have improved adult fish passage at Bonneville, Ice Harbor, and Lower 
Granite, assisted adult fish migration in the Lower Snake River, and 
improved juvenile fish passage at Lower Monumental and Lower Granite 
Dams.
    2. Water management and fishery operations generally followed the 
expectations in the BiOp. Over 21 million juvenile salmonids were 
collected, and approximately 14 million of those were transported by 
truck or barge and released below Bonneville Dam. The remaining seven 
million went through a bypass system to the tailrace.
    We managed flow and spill on the river to improve juvenile fish 
migration through the spring and summer seasons, using the storage in 
the upriver reservoirs to supplement natural stream flows.
            To improve habitat:
    3. BPA funded implementation of hundreds of new and continuing 
projects to protect and enhance habitats important to fish. Over 260 
habitat projects were implemented in 25 subbasins.
    Through the Council's Fish and Wildlife Program, BPA acquired at 
least 164 cubic feet per second (cfs) of instream tributary flow 
enhancements. We also removed or improved more than 70 fish passage 
barriers to open nearly 700 miles of habitat.
    Also through the Council's program, we protected or enhanced over 
198 river miles and 19,600 acres of riparian buffers and habitat.
            For hatcheries:
    <bullet>  The new Nez Perce Tribal Hatchery was completed and began 
operation.
    <bullet>  BPA funded the operation and maintenance of over 30 major 
anadromous fish hatcheries.
    <bullet>  BPA funded four captive broodstock programs to protect 
the basin's most endangered populations.
    <bullet>  The Kootenai River White Sturgeon aquaculture program 
produced and released juvenile resident fish.
    <bullet>  BPA funded development of hatchery genetic management 
plans for the Grande Ronde and Tucannon spring/summer chinook safety 
net programs. The safety-net program is intended to provide artificial 
propagation contingency plans that, if implemented, would prevent 
further decline in the status of the most at-risk ESA-listed species, 
to buy time for other recovery measures to take effect.
    <bullet>  BPA funded the marking of key populations of hatchery 
fish, protecting listed fish by allowing more selective fisheries.
            For harvest:
    <bullet>  BPA tested alternative fishing gears and provided 
improved gillnets to tribal commercial fishers.
    <bullet>  BPA funded the location and removal of eight submerged 
fishing nets that could have continued to take ESA-listed fish in the 
Columbia River.
            In addition:
    <bullet>  Research, Monitoring and Evaluation (RM&E): We have 
developed a comprehensive RM&E program framework that will provide 
information to assess needs of fish and the effect of mitigation 
efforts and continued to fund monitoring and research programs for 
dams, habitat, and hatcheries.
    <bullet>   Subbasin Planning: Working with the Council, States, and 
Tribes, BPA has funded a regional process of subbasin planning for 62 
watersheds, with plans that are locally developed under a common 
template, subject to independent science review, and coordinated with 
NOAA Fisheries and the United States Fish and Wildlife Service (USFWS) 
to ensure ESA consistency. This process is expected to be completed in 
2004. Completed subbasin plans will further the protection of fish by 
identifying particular improvements and projects to undertake.
    These efforts came at a substantial cost to the ratepayers of the 
Northwest. At an annual estimated cost exceeding $600 million, BPA 
believes its efforts to preserve salmon and other fish and wildlife 
species is among the largest and most notable environment mitigation 
programs in the Nation. Fish enhancement has become one of our three 
largest responsibilities, along with power supply and transmission 
service.

Funding for Fish and Wildlife
    BPA is currently managing through a difficult financial situation. 
Since the West Coast electricity crisis in 2000, we have had to raise 
rates by 46 percent. We have recently proposed another rate increase. 
Through cost cuts and deferrals in the remainder of the wholesale power 
rate period, as well as the turn in water and market conditions, we 
have managed to reduce the size of this rate increase to under 5 
percent. We will continue to work with our cost partners to reduce this 
further.
    Throughout our efforts to manage costs, we have sought efficiencies 
from all parts of our budget, including fish and wildlife. Key among 
these was that BPA faced a potential liquidity problem and needed to 
manage to the budgeted accrual level for the Integrated Program, which 
was $139 million. The $139 million is an increase of almost 40 percent 
over our direct program spending for fish and wildlife in the previous 
rate period. BPA also funds capital projects for fish and wildlife, 
including physical improvements at the dams to improve fish passage and 
similar capital projects. The Integrated Program level of available 
capital is $36 million a 33 percent increase over the previous rate 
period.
    In the fall of 2002, internal estimates indicated that forecasted 
expenditures for the Integrated Program in 2003 could be as high as 
$180 million. The forecasted overage (amounts above $139 million level) 
was the result of a number of complex factors. It was not the result of 
poor planning by the Council.
    In December 2002, BPA asked that the Council in consultation with 
the region's fish and wildlife managers take the lead to ensure that 
spending for the Integrated Program did not exceed $139 million in 
fiscal year 2003. In addition, we asked the Council to re-order 
priorities to create the opportunity to spend less than $139 million 
annually for the remainder of the rate period, through 2006.
    BPA emphasized that the Council's prioritization must assure that 
BPA meet its obligations to fish and wildlife. Core to these 
obligations, we said, were projects needed to meet the requirements of 
the various biological opinions that apply to BPA, in particular for 
the 2003 and 2005 check-ins for the 2000 FCRPS BiOp. We have made every 
effort in this process with the Council to ensure that our BiOp-related 
projects remain priorities.
    I am pleased to report that the Council has responded affirmatively 
to our request. We are proceeding to work with the Council on 
implementing this approach, consistent with our statutory 
responsibilities, for fiscal year 2003 and the remainder of the rate 
period.
    At the same time, the Council is understandably concerned about 
recent events. The States and other parties have asked BPA to consider 
development of a long-term agreement to govern spending for the 
Integrated Program in the post-2006 period. Regional tribes and the 
four Northwest Governors have also asked BPA to clarify the process for 
planning and management of the program for the remainder of the rate 
period. We agree this is an important matter to discuss. Our goal is to 
work toward creating greater funding predictability, while also 
assuring we can manage to budgets.
    With the establishment of performance standards and related tools, 
we have made tremendous progress defining benchmarks for evaluating 
progress toward meeting the biological needs of ESA-listed species. To 
develop a successful long-term agreement for the fish and wildlife 
program, we must establish similar standards and tools to gauge 
progress under the Northwest Power Act. Such a discussion would make 
sense in parallel with the regional dialog discussions that we are 
having regarding BPA power service post-2006. I would hope it could 
clarify our joint objectives, priorities and a least-cost planning 
approach for the Integrated Program. It could also look at management 
options for navigating through financially difficult times, or during 
poor water years when the capability of the FCRPS is stretched.

Regional Cooperation and Coordination
    With BPA's difficult financial situation and the demand on the 
capabilities of the FCRPS, BPA believes it is more important than ever 
that all of us work collaboratively to benefit the region's fish and 
wildlife in the most cost effective way possible. The recent 
recommendations from the four Northwest Governors underscore this same 
point.
    A very positive foundation is our clear agreement with the States 
that successful BiOp implementation is critical to the region. BPA is 
working closely with NOAA Fisheries and others to ensure a coordinated 
position on what constitutes successful implementation. BPA is 
particularly focused on carrying out a legally and scientifically sound 
program, achieving successful check-ins mandated by the BiOp for 2003, 
2005, and 2008. Not only is this essential to verify that the 
Integrated Program is achieving the desired biological results, it is 
also critical to ensuring that those results are achieved at the lowest 
cost.
    We are in agreement with the four Northwest Governors that 
successful implementation of research, monitoring, and evaluation is 
key to assessing our progress toward accomplishing biological 
objectives and meeting and refining performance standards. We will work 
closely with our State, Federal, and tribal partners to take advantage 
of ongoing efforts in RM&E, and integrate them with the new ones that 
are needed.
    Subbasin planning is also a key focus for BPA. With its watershed-
by-watershed approach, subbasin planning maximizes local participation, 
knowledge and consensus, involving States, tribes, and local entities. 
Consistent with the four Governors' recommendations, BPA has provided 
substantial funding for development of subbasin plans throughout the 
region. We expect that subbasin plans will provide an important 
foundation for recovery planning throughout the Columbia River Basin, 
and that they will guide habitat, hatchery and harvest actions in the 
years to come.
    In addition, it is important to keep in mind that BPA expenditures 
for salmon recovery are mitigation for the power effects of the dams 
not for the impacts caused by other users of the river basin. Every 
contributor to the salmon problem has a share of the responsibility for 
achieving improved recovery.
    Finally, we support the NOAA Fisheries and Corps budget requests in 
the President's budget for fiscal year 2003 and fiscal year 2004 and 
the activities they are targeted to fund. We join those agencies in 
asking Congress to provide support for those requests. We also support 
the Bureau's request for authority to conduct fish restoration 
activities in the tributaries in the Columbia River Basin.
    The other agencies in the Federal Caucus, including the U.S. Fish 
and Wildlife Service (USFWS), the Environmental Protection Agency 
(EPA), the Bureau of Indian Affairs (BIA), the U.S. Forest Service 
(USFS), and the Bureau of Land Management (BLM), as well as the Federal 
Energy Regulatory Commission (FERC), have worked successfully together 
over the years to implement habitat, water quality, fisheries 
management, and the multitude of other actions that contribute to an 
``All-H'' (hydro, habitat, hatchery and harvest improvements) approach 
to salmon recovery.

Conclusion
    The effort to recover salmon in the Pacific Northwest is one of the 
nation's largest and most notable environmental recovery programs. We 
are collaborating on successful projects and implementing cutting edge 
actions throughout the Columbia River Basin. In the face of some very 
challenging financial circumstances, BPA remains fully committed to 
meeting our obligations. Together with our partners, we are focused on 
results, and we are getting them in the most cost effective way 
possible.
    Mr. Chairman, I thank you for the opportunity to testify and would 
be pleased to answer your questions.

                               __________
Statement of Colonel Dale Knieriemen, Deputy Commander, U.S. Army Corps 
                  of Engineers, Northwestern Division

    Mr. Chairman, Committee members, and distinguished guests, I am 
pleased to testify on US Army Corps of Engineers (Corps) activities to 
restore Columbia River Basin salmon and steelhead stocks listed under 
the Endangered Species Act. The Corps appreciates the support of 
Congress and the Northwest delegation for salmon recovery. Today, I 
have good news to report on these ongoing efforts.
    The Corps, the Bureau of Reclamation and the Bonneville Power 
Administration (BPA), the ``Action Agencies'' for the Federal Columbia 
River Power System, are in our third year of activities under the 
National Oceanic and Atmospheric Administration (NOAA) Fisheries 2000 
Biological Opinion on the Federal Columbia River Power System. We are 
making significant headway in implementing most of the measures in the 
Reasonable and Prudent Alternative. We have made and are making 
numerous improvements to dams and fish passage facilities throughout 
the system. We have implemented flow, release and other operational 
measures for fish during fish migration seasons, and we are laying the 
groundwork for potential further operational adjustments. Habitat 
restoration actions are proceeding. We are working closely with our 
partners to assure that our comprehensive research, monitoring and 
evaluation (RM&E) program will provide the answers we need to evaluate 
our progress and make course adjustments as we proceed. The Federal 
agencies also are working collectively to ensure our efforts are 
compatible with those of the States, tribes and others in this huge and 
very complex program.
    The NOAA Fisheries Findings Letter for the Action Agencies 2003-
2007 Implementation Plan identifies some areas of concern where the 
agencies have been delayed in implementation. Subbasin Plans, developed 
at the State and local level with Northwest Power and Conservation 
Council assistance and BPA funding, are underway but taking more time 
than initially projected. Completion of these non-Federal plans is 
important because they are intended to guide habitat restoration 
efforts in the basin and improve coordination. While slow to start, 
RM&E efforts now are coming together and plans are taking shape. RM&E 
is critical to the 2005 check-in to measure effects of the Action 
Agencies' restoration activities on recovering fish populations.
    Columbia River Basin fish restoration is more than a one or 2 year 
effort. We must remain committed for the 10-year period covered by the 
Biological Opinion. Fish returns have been very good for the past 3 
years, and we expect 2003 to be another good year for returning adult 
salmon. But we must continue looking beyond the immediate numbers and 
focus on the long-term trends. We have to sustain our commitment to 
hydro, habitat, hatchery and harvest improvements to give these fish a 
reasonable certainty of long-term recovery.
    The Administration has supported the Corps Columbia River Salmon 
Program by requesting $128 million and $125 million for Fiscal Years 
2003 and 2004 respectively. These amounts include funding the Columbia 
River Fish Mitigation project for configuration studies and actions at 
lower Columbia and Snake Dams, habitat studies and actions, Chief 
Joseph Dam gas abatement, Willamette River temperature control 
construction and the appropriated portion of operation and maintenance 
funding for fish facilities, juvenile fish transport and research. In 
addition we are receiving about $33 million annually in direct funding 
from BPA for operation and maintenance of fish facilities. Our budget 
requests have been based on our estimated requirements for a program to 
fully comply with the Biological Opinion for the 10 year period through 
2010.
    The Fiscal Year 2003 Omnibus Bill funded specific Biological 
Opinion actions for habitat restoration in the Columbia River Estuary 
as authorized in Section 536 of the Water Resources Development Act of 
2000, as well as gas abatement measures at Chief Joseph Dam and an 
investigation of System Flood Control under the Columbia River Fish 
Mitigation (CRFM) project. Each of these addresses important elements 
in the Biological Opinion, and assists the Corps in meeting fish 
restoration goals.

NWF et al v. NMFS et al
    On May 7, 2003, Judge James A. Redden of the Federal District Court 
of Oregon issued an opinion ruling in favor of a coalition of 
environmental groups in National Wildlife Federation et al v. National 
Marine Fisheries Service et al. This case challenged the NOAA 2000 
Fisheries Biological Opinion. The judge determined that the NOAA 
Opinion was ``arbitrary and capricious.'' He has remanded the Opinion 
to NOAA Fisheries to address the deficiencies within 1 year and has 
required reports to the court every 90 days. The judge has not yet 
ruled on whether to let the 2000 Biological Opinion stand during this 
period or to ``vacate'' the Opinion. He has asked the parties to 
provide arguments that are expected to lead to a decision this summer. 
In the meantime, the Action Agencies will continue to implement the 
Biological Opinion.
    The court is now considering a motion by the plaintiffs to vacate 
the Biological Opinion while it is undergoing revision. Briefing on the 
motion was completed June 20 and the court may rule at any time. A 
decision by the court to vacate the Biological Opinion could have 
severe consequences on NOAA Fisheries, on the Federal Action Agencies 
and on the entire Federal Columbia River Power System. It would remove 
the incidental take protection that currently shields Federal employees 
from legal liability under the Endangered Species Act. It would also 
threaten the continuation of many Federal programs designed to help 
recover imperiled salmon runs such as the demonstrably successful 
juvenile transportation effort. Vacatur would destroy the current 
operational certainty for the highly complex power system, and replace 
it with institutionalized uncertainty. This uncertainty would arise 
from the continuing threat of judicial intervention to change current 
operations to meet the demands of the plaintiffs in the litigation--
regardless of the impacts of those changes on the power system or even 
on the imperiled fish. The reliability and economic efficiency of the 
power system would be damaged, with no clear benefit for fish.

Progress Made
    The Action Agencies recently released the Endangered Species Act 
2002 Progress Report for the Federal Columbia River Power System. This 
report documents many accomplishments under the Biological Opinion, but 
two fish passage innovations stand out.
    One is the Bonneville Dam Second Powerhouse Corner Collector, a $55 
million project (includes entire project costs from design to post-
construction monitoring) with planned construction completion in 
December 2003. Federal biologists expect this high flow surface bypass 
facility for young salmon to provide a 1 to 3 percent increase in 
juvenile fish survival past the Bonneville Second Powerhouse. The 
corner collector will work in conjunction with the existing second 
powerhouse screened juvenile bypass system. Together, these nonturbine 
routes should guide about 90 percent of all juvenile fish at the second 
powerhouse and achieve an estimated survival rate exceeding 95 percent.
    The other fish passage innovation is the Removable Spillway Weir, 
or RSW, a prototype juvenile fish passage improvement installed at 
Lower Granite Dam in 2001. Existing spillway gates at Lower Granite 
release water that is 50 feet below the surface at the dam face. Fish 
pass through these deep gates under high pressure and velocities. The 
RSW allows juvenile salmon and steelhead to pass the dam nearer the 
water surface under lower velocities and lower pressures, providing a 
more efficient and less stressful dam passage route. The RSW structure 
also is designed to be ``removable'' by controlled descent to the 
bottom of the dam forebay. This capability permits returning the 
spillway to original flow capacity during major flood events. Testing 
for mechanical and biological effectiveness has produced promising 
results. The Lower Granite RSW working together with the existing 
prototype powerhouse surface collector and forebay guidance structure 
shows a seven to one effectiveness ratio based on first year data. This 
ratio means that about 70 percent of the fish passed the spillway using 
about 10 percent of the river flow. Thus, the RSW has the potential to 
provide not only fish benefits but also power savings to the region. We 
continued testing the ``stand-alone'' RSW at Lower Granite (without 
surface collector or forebay guidance structure) in 2003. We are also 
evaluating potential implementation of an RSW at Ice Harbor Dam by 2005 
at an estimated cost of $24.3 million.
    Besides these new technologies, we continue to make improvements to 
existing juvenile and adult bypass systems at the eight lower Columbia 
and Snake River dams. These improvements are in accordance with the 
Biological Opinion and include input from State, tribal and other 
Federal biologists and engineers through the System Configuration Team 
and other regional forums. The juvenile fish bypass systems guide fish 
away from turbines and through channels that run the length of the dam. 
The fish are bypassed to the river below the dam, or they are routed to 
a holding area for loading onto specially equipped barges or trucks. 
NOAA Fisheries research on Snake River spring/summer chinook indicates 
that between 50 and 60 percent of juvenile fish that migrate in-river 
successfully pass the eight Corps dams on the lower Snake and Columbia 
Rivers. This survival is similar to when there were only four dams, and 
is up from about a 10 to 40 percent survival rate in the 1960's and 
1970's.

Operations for Fish
    To the extent we can, the Action Agencies continue to operate the 
system of dams and reservoirs in accordance with the NOAA Fisheries and 
US Fish and Wildlife Service (USFWS) Biological Opinions. In this 
effort we get assistance from the Technical Management Team of State, 
tribal and Federal representatives who also receive input from other 
basin interests. Throughout the juvenile fish migration season, the 
team reviews flows, forecasts and fish movement and makes 
recommendations to adaptively manage the system to reflect changing 
conditions and demands on the system. Water conditions in 2002 were 
close to normal; target flow conditions were achieved for the most 
part, and spill was provided as planned.
    The juvenile fish transportation program transported approximately 
14.1 million juvenile fish from collector dams to a release point below 
Bonneville Dam where they continued their migration to the estuary and 
ocean. Most of these juvenile fish, approximately 13.7 million, were 
barged and the remainder were transported by truck. The estimated 
survival to the point of release was over 98 percent.
    The Corps operates the juvenile fish transport program in 
accordance with the NOAA Fisheries Biological Opinion and with 
Technical Management Team input. Four Corps dams are equipped to 
collect fish for transport: Lower Granite, Little Goose, Lower 
Monumental, and McNary. Transported fish are released downstream of 
Bonneville Dam. Studies indicate that transport can increase fish 
survival as measured by smolt to adult return rates. This is especially 
true for wild fish (about 85 percent greater returns for transported 
wild steelhead versus inriver and about 30 percent greater for wild 
chinook).
    The major issue is whether barge transportation can achieve the 
smolt-to-adult ratio needed to halt the population decline and move to 
recovery. Differential delayed mortality (``D'') of transported fish is 
probably the single largest technical question regarding the role of 
transportation in salmon recovery. It is uncertain if differential 
delayed transport mortality is a natural process (i.e., some percentage 
of fish will die whether they travel in barges or in-river), or if it 
is actually caused by barging, for example, by releasing fish in the 
lower river without the experience of migration. There are numerous 
theories; however, the phenomenon is probably due to multiple causes 
rather than any single one. Regardless of ``D,'' transported Snake 
River wild fish can return at a higher rate than those that remain in-
river during their out-migration. Until these uncertainties are 
resolved the NOAA Fisheries Biological Opinion calls for the Corps to 
continue improvements for fish survival through all routes of passage 
(spillway, bypass systems, turbines and transportation).
    In January 2003 the Corps began implementing the VARQ alternative 
flood control plan operation on an interim basis at Libby Dam. (VARQ 
stands for variable discharge, withbeing the standard engineering 
shorthand for discharge or flow.) Implementation of VARQ at Libby and 
Hungry Horse dams in Montana is part of both the NOAA Fisheries and 
USFWS Biological Opinions. It is a key action to protect threatened and 
endangered fish species including Kootenai River white sturgeon, 
salmon, and bull trout, through improved ability to provide spring and 
summer flows. Hungry Horse Dam, operated by the Bureau of Reclamation, 
began interim implementation of VARQ flood control in 2002. This 
operation reduces releases from Libby and Hungry Horse during the 
winter drawdown period of January through April in most years 
(depending on forecasted water supply), providing better assurance of 
reservoir refill in the summer. This is accomplished by transferring 
flood control storage requirements under some water runoff forecast 
conditions. Interim VARQ flood control will continue until the Corps 
and Reclamation complete an Environmental Impact Statement on potential 
longer-term implementation expected by 2005.

Estuary Restoration Efforts
    Planning efforts for several habitat restoration projects in the 
Columbia River Estuary continue in close coordination with regional 
partners. The Brownsmead Project east of Astoria would restore tidal 
flow to about 9.2 miles of sloughs. We have initiated study of a 
project in Southwest Washington to replace nine culverts that are 
blocking or restricting access to small tributary streams to the 
Columbia River. A project at Crims Island would acquire and restore 
approximately 425 acres of tidal emergent marsh, swamp, slough, and 
riparian forest habitat in the upper Columbia River Estuary to benefit 
fish and wildlife. Another is a project at Lena's Lake with USFWS to 
create around 1000 feet of spawning channel for Chum salmon. USFWS, 
NOAA Fisheries and the Corps are pursuing a project at Julia Butler 
National Wildlife Refuge to restore approximately nine miles of 
secondary sloughs to fisheries access.
    In addition to project-specific planning, the Corps is working with 
the States of Oregon and Washington, the Lower Columbia River Estuary 
Partnership and BPA to initiate a strategic master plan to identify 
long-range projects to improve the ecological health of the river. The 
Action Agencies also continue to fund much-needed research in the 
estuary.

Challenges Remain
    We still have a long way to go. We are in the third year of a 10-
year effort and must keep the momentum going. In the estuary, the Corps 
is pushing hard to meet the Biological Opinion measure to restore 
10,000 acres of salmon and steelhead habitat. We will continue to work 
with Oregon and Washington through the Lower Columbia River Estuary 
Partnership to identify the most promising sites and leverage our 
resources to get the job done.
    Operation of Libby Dam will be a challenge to balance the needs of 
both listed and non-listed fish as well as those of residents living 
downstream of the project, including Canada residents.
    RM&E measures in the Biological Opinion are progressing but remain 
a complex task for the Action Agencies and NOAA Fisheries. We are 
pursuing potential opportunities for linking to State, tribal, local 
and other efforts of a similar nature as we set up these systems. NOAA 
Fisheries' parallel RM&E effort has been delayed due to constrained 
funding so we anticipate setbacks in the overall ability to monitor 
whether our actions are working for increased fish populations.
    Our fiscal year 03 appropriation for funding CRFM actions under the 
Biological Opinion was $85 million, a reduction of $13 million from the 
budget request of $98 million. Savings and slippage further reduced the 
funds available to just under $70 million. We continue to meet with 
regional, State, tribal and Federal counterparts in the System 
Configuration Team (another of the NOAA Fisheries regional forums for 
coordinating Biological Opinion actions) to discuss and re-prioritize 
fish passage improvements, planned research activities and studies for 
the 2003 program. Some of our planned actions to comply with the 
Biological Opinion have been delayed.
What help we need
    Overall we believe the Action Agencies are making very good 
progress toward the 2003 ``check-in.'' However, there is much work 
ahead of us before we reach the 2005 mid-point evaluation. Continued 
progress in meeting the 2005 ``checkin,'' which will include measuring 
and evaluating effects on fish populations, will depend upon resources 
and funding. The President's budget for the Corps for Columbia River 
salmon activities is sufficient to keep us on track, and we 
respectfully request your full support for that budget.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions.

                               __________
Statement of J. William McDonald, Regional Director, Pacific Northwest 
     Region, Bureau of Reclamation, U.S. Department of the Interior

    My name is J. William McDonald, Regional Director of the Pacific 
Northwest Region of the U.S. Bureau of Reclamation. I am pleased to 
provide this progress report on Reclamation's implementation of actions 
to benefit Columbia and Snake River salmon and steelhead listed as 
threatened or endangered under the Endangered Species Act. Reclamation 
is responsible for the Grand Coulee and Hungry Horse Dams and 
Powerplants, which are two of the 14 projects which constitute the 
Federal Columbia River Power System (FCRPS). We work closely with the 
Army Corps of Engineers and the Bonneville Power Administration in the 
operation of the FCRPS and in addressing the ESA issues with which the 
FCRPS is confronted.
    Reclamation has or shares responsibility for implementing over 60 
of the 199 actions in the Reasonable and Prudent Alternative (RPA) in 
the National Marine Fisheries Service's (NOAA Fisheries') December 2000 
Biological Opinion (FCRPS BiOp). This BiOp covers the continued 
operation and maintenance of the FCRPS and of Reclamation's Columbia 
Basin Project, and the aggregate hydrologic effects on mainstem flows 
of the 19 Reclamation irrigation projects located in the Columbia River 
Basin (exclusive of the Snake River Basin above Hells Canyon).
    Reclamation is generally on track in implementing those actions in 
the RPA which are our responsibility.
    Our hydro-electric generation efforts under the FCRPS BiOp include 
the operation of Grand Coulee and Hungry Horse Dams in a manner that 
assists in meeting certain flow targets and the annual acquisition of 
up to 427,000 acre feet of water in the Snake River Basin from willing 
participants to improve spring and summer streamflow conditions for 
juvenile fish migration.
    Reclamation is on schedule on the implementation of the habitat 
restoration provisions of the RPA. As required by action 149 of the 
RPA, we have initiated programs in nine subbasins to assist with 
providing migration passage and screening on non-Federal water 
diversion structures, and securing water and water rights from willing 
sellers and lessors for instream flows in accordance with State law. 
While Reclamation has the authority to plan and design fish screens and 
passage for non-Federal water projects, we do not have the authority to 
fund construction. Thus, Reclamation's ability to fully accomplish this 
work will be hampered unless we receive the statutory authority to 
construct, or provide financial assistance to others to construct, fish 
passage and screening on non-federally owned diversion structures 
beginning with fiscal year 2004.
    In this regard, the Administration, in an October 30, 2002 letter 
from the Assistant Secretary for Water and Science, proposed 
legislation to the Congress which, if enacted, would give Reclamation 
the authority it needs to carry out activities in this BiOp. We 
continue to work with congressional staff on that proposal. In the 
meantime, others, including BPA and State agencies in Idaho, Oregon, 
and Washington, are providing some funding for the construction of 
these improvements at non-Federal water diversion projects.
    Following the May 7, 2003, decision of the U.S. District Court for 
Oregon in National Wildlife Federation v. National Marine Fisheries 
Service, many have asked if this proposed legislation is still needed. 
I would like to emphasize the importance of and need for this 
legislation. Among other things, the court found that certain BiOp 
actions were not reasonably certain to occur. Reclamation's proposed 
legislative provision of financial assistance to private parties for 
the construction of fish passage and screening is one area where 
Reclamation is committed to the implementation of certain actions for 
which the BiOp's RPA calls. Thus, I would reiterate the need for this 
funding authority.
    We are also implementing research, monitoring, and evaluation 
(RM&E) activities, primarily in priority subbasins. This is important 
for determining the effectiveness of our actions and the status of the 
listed fish.
    Reclamation has received sufficient appropriations to date to fund 
actions required in the FCRPS BiOp. Our appropriation for the Columbia/
Snake Salmon Recovery Program has risen from $5.6 million in fiscal 
year 2001 to $15 million in fiscal year 2003. The President's proposed 
level of funding is $19 million for fiscal year 2004. Most of this 
increase is needed to fund our offsite habitat improvements (i.e., 
passage and screening on non-Federal water projects) in the tributary 
subbasins, and assumes enactment of legislation to provide the 
necessary authority. We appreciate your continued support of these 
efforts.
    In conclusion, we are pleased with our progress to date in 
implementing the actions in the FCRPS BiOp for which we are 
responsible. At the same time, we are mindful of the importance and 
magnitude of the task which lies before us.

                               __________
  Statement of Judi Danielson, Chair Northwest Power Planning Council

    Good morning, Senator Crapo, and thank you for the opportunity to 
testify here today on implementation of the NOAA Fisheries 2000 
Biological Opinion on Hydropower Operations for Endangered Species Act-
listed salmon and steelhead in the Columbia River Basin.
    I am Judi Danielson, and I chair the Northwest Power Planning 
Council. The Council is an agency of the four Northwest States of 
Idaho, Montana, Oregon and Washington. The Council was created by the 
State legislatures in 1981 under authority of the Pacific Northwest 
Electric Power Planning and Conservation Act, which the Congress 
approved in December 1980. The Power Act directs the Council to prepare 
a program to protect, mitigate and enhance fish and wildlife of the 
Columbia River Basin that have been affected by hydropower dams while 
also assuring the Pacific Northwest an adequate, efficient, economical 
and reliable electric power supply.
    The Council implements the Power Act through two broad, integrated 
planning processes. One process is for our Northwest Conservation and 
Electric Power Plan, and the other is for our Columbia River Basin Fish 
and Wildlife Program. Today I will focus my comments on implementation 
of our fish and wildlife program, and specifically on how the program 
incorporates elements of the 2000 Biological Opinions issued by NOAA 
Fisheries for Columbia and Snake River salmon and steelhead and the 
U.S. Fish and Wildlife Service for Kootenai River white sturgeon and 
bull trout.
    The Council committed in its 2000 revision of its fish and wildlife 
program to pursue opportunities to integrate program strategies with 
other Federal, State, tribal, Canadian and volunteer fish and wildlife 
restoration programs. The Council also committed to use subbasin 
planning to identify coordination needs and opportunities that arise 
from the Endangered Species Act and Clean Water Act, and also water and 
land management objectives affecting fish and wildlife. In this way we 
can use our program funding to coordinate activities that address 
various legal requirements and provide the maximum benefit to fish and 
wildlife.
    It is important to point out, first, that even though the Power Act 
is a Federal law, the Council is not a Federal agency and our fish and 
wildlife program is not a recovery plan for purposes of the Endangered 
Species Act. The Council develops the program and recommends projects 
to implement it, as I will explain in more detail. Consistent with 
specific direction in the Power Act, these projects are funded by the 
Bonneville Power Administration from a portion of the revenues it 
collects from its electricity customers. Implementation of the 
Council's fish and wildlife program does not depend on consultations 
among Federal agencies or appropriations by Congress or Federal 
agencies.
    I have four main points to make today, Senator Crapo:

    First, I am optimistic about the partnership between local, State, 
Federal and tribal governments that has developed to implement the 
Council's fish and wildlife program and elements of the biological 
opinion. This implementation begins at the local level with locally 
developed plans. We are having successes, and our efforts are being 
noticed and copied elsewhere in the Nation.
    Second, the Northwest Power Act authorizes Bonneville, through the 
Council's fish and wildlife program, to utilize offsite mitigation to 
accomplish the purpose of protecting, mitigating and enhancing fish and 
wildlife affected by hydropower dams. The Power Act, not the ESA, is 
the source of Bonneville's authority to pursue offsite mitigation 
activities in the Biological Opinion. The 2000 Biological Opinion 
acknowledges the importance of offsite mitigation as an aid to 
recovering threatened and endangered species. Thus, our program 
integrates Biological Opinion and Power Act requirements for enhancing 
and recovering fish and wildlife. This is cost-effective and helps 
avoid duplication while providing benefits for ESA-listed and non-
listed populations.
    Third, we are moving ahead with subbasin planning as a means of 
identifying specific fish and wildlife needs in each of the 62 
subbasins of the Columbia River. This is one of the largest planning 
efforts of its kind in the world, and it is particularly significant 
because it is locally driven. Subbasin plans will focus implementation 
of our program and elements of the biological opinion to deliver the 
highest benefits at the lowest cost.
    Fourth, the Council consistently has complied with the budgets 
established by Bonneville for implementing our fish and wildlife 
program, including a significant funding reduction for 2003. But we are 
concerned that continued reduced funding may jeopardize Bonneville's 
ability to meet its legal requirements under the Northwest Power Act 
and the ESA. It is important to give equal priority to ESA-listed and 
non-listed fish in our fish and wildlife program.

Implementing the Fish and Wildlife Program and the Biological Opinions
    The Council's program is being implemented at the local level, in 
the tributary subbasins of the Columbia, and also in the mainstem 
Columbia and Snake rivers at the major hydroelectric projects. But most 
importantly for our purpose here today, the program is being driven by 
locally developed assessments of fish and wildlife mitigation needs. 
These plans account for elements of the biological opinion, as I will 
explain in more detail in my testimony. The degree of local/State/
Federal collaboration is impressive and has been noticed by people 
elsewhere in the Nation who are adapting the structure we developed for 
their own fish and wildlife mitigation efforts. In the State where you 
and I live, Mr. Chairman, there are impressive collaborative efforts 
underway for the benefit of ESA-listed salmon and steelhead, and other 
fish and wildlife, in the Salmon and Clearwater basins. The Idaho 
Department of Water Resources is coordinating an effort to develop a 
statewide water transactions program to respond to a specific action 
item in the biological opinion RPA Action 151--that calls for 
experimentation with innovative ways to increase tributary water flows 
for the benefit of listed species.
    Partners in these efforts include the local soil and water 
conservation districts, Indian tribes, Idaho State agencies, the Power 
Planning Council and Governor Kempthorne's Office of Species 
Conservation. Similar efforts are underway for the benefit of listed 
and unlisted species in Oregon, Washington and Montana. Throughout the 
Columbia River Basin, local entities are leading the planning efforts 
and successfully integrating Federal recovery efforts with local 
efforts.
    Key to these efforts is a foundation of solid science and a 
credible and independent scientific review. The Council takes a 
science-based, collaborative approach to implementing its fish and 
wildlife program through projects that are designed to make progress 
toward the goals and objectives of the program and the biological 
opinion. Projects proposed for funding are reviewed by the Columbia 
Basin Fish and Wildlife Authority and the 11-member Independent 
Scientific Review Panel (ISRP). All projects are treated equally in 
this review. Project proposal that respond to action items in the 
biological opinion do not get special preference in the ISRP reviews.
    The Council created the ISRP in 1997 in response to an amendment to 
the Northwest Power Act. In this way, the Council is responding to a 
1996 independent scientific review of the program that concluded, among 
other things, that the program lacked a process for prioritization of 
projects and provided, at the time, little guidance for annual 
implementation. The review recommended incorporating an integrated 
approach based on an overall, scientifically credible conceptual 
foundation. The Council incorporated such a foundation into its most 
recent revision of the program, in 2000. The 2000 Program expresses 
goals and objectives for the entire Columbia basin based on a 
scientific foundation of ecological principles.
    Section 9.5 of the NOAA Fisheries 2000 Biological Opinion states 
that the development and implementation of the 5-year and 1-year 
implementation plans will be coordinated through existing processes. 
Mentioned specifically in Section 9.5 is the annual project 
prioritization conducted by the Council for implementation of our fish 
and wildlife program. The Council believes this prioritization process 
is well designed to coordinate ESA needs with other Bonneville fish and 
wildlife funding obligations, and that this can be the principal device 
for coordinating implementation among the many jurisdictions involved 
in the salmon restoration and recovery effort.
    The Council is committed to collaboration with the NOAA Fisheries 
and the U.S. Fish and Wildlife Service in meeting requirements of the 
ESA and the Northwest Power Act. We can incorporate the implementation 
sequence in the NOAA Fisheries Biological Opinion into our fish and 
wildlife program implementation planning. The biological opinion sets 
out a sequence of 5-year and 1-year implementation plans. These are to 
be developed by the Action Agencies. The Council sees this sequence of 
planning, particularly the 1-year plans, as ``check-in'' points to 
verify that the Council's schedule for implementation planning and 
program funding will address the requirements of the biological opinion 
as well as the objectives of the program.
    The Council's project review process, which is accomplished at the 
ecological province level (there are 11 ecological provinces in the 
Columbia basin) permits focused and considered scientific review and 
public involvement on Bonneville fish and wildlife funding decisions. 
The province-based review and approval process will lead to longer 
periods of funding approval--three years in most instances.
    Because the Council's fish and wildlife program is designed to 
benefit all fish and wildlife in the basin affected by the hydrosystem, 
it has been addressing ESA-listed species through a number of actions. 
Some portion of the annual budget for the direct program over the last 
5 years has benefited species of concern under the Endangered Species 
Act.
    The NOAA Fisheries 2000 Biological Opinion includes numerous 
specific measures in the hydrosystem and new initiatives for improving 
salmon and steelhead survival in the stages of their life-cycles that 
come before and after migration through the mainstem Snake and 
Columbia--what we call ``offsite'' mitigation. http://epw.senate.gov/
108th/Danielson--062403.htm These measures are at the heart of the 
Council's 2000 Fish and Wildlife Program.
    The offsite measures include experimenting with new techniques, 
such as an experimental voluntary water rights brokerage, attempting to 
focus landowner enrollment in Farm Service Administration programs 
where salmon habitat needs the most help and protecting specific 
reaches of existing high-quality habitat through voluntary landowner 
agreements. The Council took primary coordinating responsibility for 
key elements of the offsite measures of the biological opinion for 
hatchery reform and subbasin planning. Both of those initiatives are 
well underway with considerable collaboration of State and tribal 
agencies and local interests. In short, many of the projects the 
Council recommends to Bonneville for funding implement actions in the 
Reasonable and Prudent Alternatives of the two biological opinions. I 
have included with my testimony a list of these projects from recent 
funding cycles.
    Through our project selection process, independent scientific 
reviews and program implementation we recognized the need for better 
monitoring and evaluation, and data-gathering, than has been available 
in the past. Improved data management is key to improved and more 
focused decisionmaking in the future. I am pleased to say that the 
Council is moving ahead with a program to improve data management. We 
have been working with an independent contractor to develop a more 
comprehensive, Internet-based data collection and repository system for 
the Columbia River Basin, a system that will be available to all 
interested parties and that will store data in uniform formats.

Subbasin plans are the means of integrating Power Act and ESA 
        obligations
    The 2000 Program established basinwide objectives for biological 
performance and environmental characteristics. The 2000 Program also 
recognized that while impacts such as overfishing and destruction of 
spawning and rearing habitat contributed to the decline of salmon and 
steelhead runs prior to construction of the major hydropower dams in 
the Columbia basin, significant losses of anadromous fish, resident 
fish and wildlife and their habitats have occurred as a result of the 
development and operation of the hydrosystem. Biological objectives 
based on these losses provide regional guidance for subbasin plans. For 
example, the 2000 Program--fs objectives include increasing total adult 
salmon and steelhead runs above Bonneville Dam by 2025 to an average of 
5 million annually in a manner that supports tribal and non-tribal 
harvest. For resident fish, the 2000 Program recognizes the need for 
substitution for anadromous fish losses and restoration of native 
resident fish species (subspecies, stocks and populations) to near 
historic abundance throughout their historic ranges where original 
habitat conditions exist and where habitats can be feasibly restored. 
For wildlife, the 2000 Program calls for development and implementation 
of habitat acquisition and enhancement projects to mitigate fully for 
identified losses.
    The Council recognizes that achieving these broad objectives is not 
the sole responsibility of the 2000 Program or Bonneville alone. 
Complementary actions by other governmental agencies and funding 
sources, including Canadian entities where appropriate, as well as the 
support and participation of the citizens of the Northwest, will be 
needed for these objectives to be fully achieved. However, the focus of 
the 2000 Program is limited to fish and wildlife affected by the 
development, operation, and management of the FCRPS.
    The 2000 Program organizes the Columbia River Basin into 11 
ecological provinces. Within these provinces there are groups of 
adjoining subbasins with similar physical and environmental conditions. 
These provinces are further subdivided into two or more tributary 
subbasins. In all there are 62 tributary subbasins. The 2000 Program is 
implemented principally at the subbasin level. It is at this subbasin 
level that the more general guidance provided by the larger province 
and basin-wide level visions, principles, objectives, and strategies is 
refined in light of local scientific knowledge, policies, and 
priorities.
    Subbasin planning will facilitate, through a collaborative process, 
the development of scientifically credible, locally implementable 
subbasin scale plans to serve the following purposes:

    1. Protect, mitigate and enhance fish and wildlife and related 
spawning grounds and habitat impacted by the development and operation 
of the FCRPS;
    2. Guide Bonneville--fs expenditures by giving priority to 
strategies for ESA recovery activities as Bonneville implements the 
Council's 2000 Program through subbasin plans.
    3. Provide a context for scientific review of program measures;
    4. Provide the foundation for NMFS/USFWS ESA recovery planning 
efforts;
    5. Provide stability and certainty for local planning efforts 
during Federal recovery planning;
    6. Improve coordination of other State, tribal, Federal and private 
fish and wildlife mitigation efforts within the Columbia River Basin; 
and
    7. Integrate Bonneville funding with funding from other sources 
such as the Federal Energy Regulatory Commission (FERC), U.S. Forest 
Service (USFS), Bureau of Reclamation (BOR), and Bureau of Land 
Management (BLM).

    The Council will evaluate subbasin plan recommendations for their 
consistency with biological objectives and strategies at the basin and 
province levels. Similarly, as subbasin plan measures are adopted into 
the 2000 Program, higher-level objectives and strategies may be 
modified to reflect and accommodate the information and initiatives of 
each plan.
    The Council believes subbasin plans will establish scientifically 
sound restoration strategies that rely on local leadership and clear 
implementation schedules. These plans, once completed, will be the 
foundation for recovery planning under the Endangered Species Act as 
well as a broader base of credibility for the Council--fs program.
    Subbasin plans will include three key elements: 1) an assessment of 
historical and existing environmental conditions including abundance of 
fish and wildlife populations; 2) a clear and comprehensive inventory 
of existing projects and past accomplishments; and 3) a 10-15 year 
management plan. Subbasin planning will be coordinated by the States 
and tribes with local governments. The technical review teams appointed 
by NOAA Fisheries will be involved to ensure consistency with ESA 
recovery planning. Development of the plans will be funded by 
Bonneville and administered by the Council.
    We expect that subbasin plans will provide the basis for future 
implementation, monitoring and evaluation of the fish and wildlife 
program. Subbasin plans also will serve to meet ESA requirements in the 
short term. They will empower State, tribal and local efforts in 
coordination with ESA recovery planning. And they will provide a 
credible basis for other funding sources for fish and wildlife recovery 
, including congressional appropriations.
    In its 2000 Biological Opinion, NOAA Fisheries commits to rely 
heavily on the Council's subbasin planning process to identify offsite 
habitat mitigation opportunities. The heart of the Council's offsite 
mitigation strategy is to complete subbasin plans in each of the 
Columbia's major tributaries. Earlier this month, the four Northwest 
Governors endorsed subbasin planning as a means of consolidating 
recovery and enhancement actions. Specifically, the Governors said:
    The hub for this Federal/regional/State/tribal effort is the 
subbasin planning called for by the Council's program. The biological 
opinions should continue to look to these subbasin plans to guide 
habitat, hatchery, and harvest actions in the watersheds throughout the 
Columbia Basin in the coming years.

The Fish and Wildlife Budget
    The Council believes that Bonneville's funding obligation for the 
ESA is part of its overall fish and wildlife responsibilities under the 
Northwest Power Act, and therefore is tied to the adverse impacts 
caused by the hydrosystem. While Bonneville's obligation and financial 
resources may be significant, Bonneville funds should not be the 
exclusive source of ESA funding in the Columbia basin. Bonneville funds 
for ESA-based actions should be combined with funds from other 
entities, especially Federal agencies, that have legal and financial 
obligations to protect and enhance threatened and endangered species. 
Some of the actions required by the biological opinion address impacts 
on the listed species that are not the result of hydrosystem impacts--
reducing predation by birds on juvenile salmon and steelhead, for 
example, and implementing selective-harvest fisheries to reduce 
commercial fishing pressure on the listed stocks. These actions should 
be funded by agencies other than Bonneville--by the nation's taxpayers, 
not the region's electricity ratepayers.
    While the Council supports using the Bonneville fund for offsite 
mitigation, the fund has limits. The Power Act does not permit the 
Bonneville fund to be used ``in lieu'' of funding responsibilities of 
other entities. In addition, the Council notes that Bonneville's 
funding as part of its overall fish and wildlife funding obligations is 
limited by its ability to ensure the region an adequate, economical, 
efficient, and reliable power supply. Federal agencies carry some of 
the responsibility for the loss of salmon and their habitat through the 
actions of NOAA Fisheries, the U.S. Fish and Wildlife Service, the Army 
Corps of Engineers, the Bureau of Reclamation, and the Forest Service, 
quite distinct from the hydropower system. Therefore some part of the 
financial responsibility for recovering endangered fish in the Columbia 
Basin rests with the Federal Government.
    In the past, we advocated a supplemental appropriation for actions 
that address the reasonable and prudent alternatives in the biological 
opinions. We also urged NOAA Fisheries to work with us to integrate ESA 
needs with others to be funded by Bonneville in a way that permits 
Bonneville to meet all of its fish and wildlife obligations in a cost-
effective manner.
    Until October 1995, there was no formal budget agreement for 
implementing the Council's fish and wildlife program. Late that month a 
draft agreement negotiated by Bonneville Administrator Randy Hardy, 
National Marine Fisheries Service Regional Director Will Stelle and 
Power Planning Council Chair Angus Duncan was memorialized in a letter 
from the Federal Office of Management and Budget to U.S. Senator Mark 
Hatfield (R-Oregon). This was to forestall a legislated budget cap and 
``sufficiency'' language regarding the fish and wildlife program 
budget. It took another year, until September 1996, to negotiate and 
execute the MOA institutionalizing the budget commitment.
    The commitment was for an average budget of $252 million per year--
$127 million to implement the Council's program and measures in the 
1995 Biological Opinions ($100 million in direct expenses and $27 
million in capital funding), and $125 million per year for fish-related 
expenditures that Bonneville reimburses other Federal agencies 
(primarily the Corps of Engineers and the Bureau of Reclamation). The 
two 1995 Biological Opinions were issued by the National Marine 
Fisheries Service (NMFS) for Snake River salmon and the U.S. Fish and 
Wildlife Service for Kootenai River white sturgeon. Bonneville also 
accepted the financial impact of power system operations that result 
from the biological opinions, estimated at $183 million per year. The 
budget figures were incorporated in a 6-year Memorandum of Agreement in 
September 1996, signed by the Secretaries of the Army, Commerce, Energy 
and the Interior.
    The MOA resolved three key funding issues: 1) it provided greater 
financial certainty through a stable, multi-year budget; 2) it 
identified a budget sufficient to meet Bonneville's obligations under 
the fish and wildlife program and the biological opinions, and 3) it 
provided mechanisms to ensure the money was spent wisely and 
efficiently.
    In early December 2001, following expiration of the MOA, the 
Bonneville Administrator said the agency would increase its spending 
during the current rate period to an average of $36 million per year in 
capital funding and $150 million per year in expense funding for the 
Council's program and implementation of the 2000 Biological Opinions. 
Thus, the annual average would increase from $127 million to $186 
million. The Administrator said the commitment to $150 million for the 
expense part of the budget likely would yield an annual average of $139 
million in actual expenditures (``accruals,'' in Bonneville's 
accounting terminology) consistent with projections in Bonneville's 
September 1998 Fish and Wildlife Funding Principles.http://
epw.senate.gov/108th/Danielson--062403.htm
    But a year later, in December 2002, the Administrator stated in a 
letter to the Council that ``already in the first year of the new rate 
period, Bonneville's expense accruals were $137 million'' and that 
``this rapid increase in program spending has surprised us. He asked 
the Council, in consultation with the region's fish and wildlife 
managers, to take the lead to achieve at least three goals: 1) take 
steps to assure that spending for the fish and wildlife program not 
exceed $139 million in expense accruals in fiscal year 2003; 2) 
prioritize program spending ``to create the opportunity to spend less 
than $139 million in expense annually through the 2003-2006 period, and 
3) establish criteria for setting priorities among projects that seek 
funding to implement the program. He stated a preference for projects 
that would help implement the biological opinions: ``We believe that 
core among these are projects needed to meet the requirements of the 
various biological opinions that apply to Bonneville, in particular the 
2003 and 2005 check-ins for the 2000 Federal Columbia River Power 
System Biological Opinion and to preserve previous important 
investments of the Fish and Wildlife Program.''http://epw.senate.gov/
108th/Danielson--062403.htm
    The Council began this assignment with the understanding that 
Bonneville's power purchase costs during the energy crisis of 2000 and 
2001 are at the heart of the agency's financial crisis, not fish and 
wildlife costs. In Fiscal Year 2001, during the West Coast energy 
crisis, Bonneville spent nearly $3 billion on power purchases, causing 
the agency's cash reserves to decline by more than $800 million. In 
November 2002, the Administrator announced Bonneville faced a revenue 
gap of $1.2 billion for the 2002-2006 rate period.
    In agreeing to help Bonneville identify fish and wildlife cost 
reductions and deferrals, the Council made clear that:
    <bullet>  The financial burden is being borne by ratepayers, and 
Bonneville's current financial uncertainty adds to that burden.
    <bullet>  The direct fish and wildlife program is not over budget, 
but is within planned spending levels.
    <bullet>  The Council would review Bonneville's program management 
and accounting procedures and recommend reforms.
    <bullet>  While Bonneville committed to use $36 million per year in 
borrowing authority to capitalize fish and wildlife projects, less than 
one-third of that amount has been made available. Failure to provide 
the $36 million, or shifting fish and wildlife funding from capital to 
expense, increases Bonneville's cash requirements and exacerbates its 
current financial difficulties.
    <bullet>  Reducing expenditures below $139 million per year 
jeopardizes Bonneville's ability to meet its obligations under the 
Endangered Species Act and Northwest Power Act.
    The Council developed the following principles to guide its cost 
review:

    <bullet>  Maintain critical elements for the Biological Opinions' 
2003 and 2005 ``check-in'' requirements.
    <bullet>  Maintain past investments in tributary passage and 
protection of currently productive habitat (Operations and Maintenance, 
and Monitoring and Evaluation).
    <bullet>  Maintain current fish production programs as approved by 
the Council (Operations and Maintenance, and Monitoring and 
Evaluation).
    <bullet>  Balance other habitat investments within the budget 
allocations that remain in the 11 ecological provinces.
    <bullet>  Projects that are focused on research, investigation or 
status reviews, and not defined as critical for Biological Opinion 
check-ins, are given lower priority and deferred.
    <bullet>  Projects that do not immediately contribute to the 
productivity of a species affected by the hydrosystem are given lower 
priority and deferred.
    <bullet>  Projects that were not reviewed by the Independent 
Scientific Review Panel and/or explicitly approved by the Council will 
be terminated (if ongoing) or deferred (if new) unless specifically 
designated as critical for Biological Opinion ``check-ins'' in 2003 or 
2005.

    On February 21, 2003, the Council responded with what could be 
called a cash management approach to meet Bonneville's $139 million 
spending target for the fish and wildlife program. In general, three 
categories of projects were identified that would yield savings in 
2003, as well as one specific spending discrepancy that had been 
resolved as a matter of policy last year. The three project categories 
that yielded reductions were:

    <bullet>  Projects that were planned for funding in 2002 but were 
carried over to 2003. Unfinished Fiscal Year 2002 work cannot be caught 
up in Fiscal Year 2003 while also performing all anticipated Fiscal 
Year 2003 project tasks.
    <bullet>  Projects that were not reviewed by the Independent 
Scientific Review Panel or prioritized in the Council's project review 
process. The Council recommended that these projects not be funded 
because they did not meet scientific review and endorsement standards 
on a par with those that were reviewed. Within this category are three 
projects, totaling $900,000 that must be added to Bonneville's internal 
overhead.
    <bullet>  With regard to Biop projects, the Council staff focused 
on those identified by NOAA Fisheries and Bonneville as critical for 
the upcoming check-ins. While the Council and region put an emphasis on 
Biop implementation in the provincial reviews, this ``critical-for-
check-in'' standard is a higher standard than was employed during the 
provincial reviews.

    The specific discrepancy was:

    <bullet>  Bonneville's spending projections assumed that the 
implementation of the ``water brokerage program'' (RPA 151) would be 
funded from the fish and wildlife expense program. This is inconsistent 
with specific Council action taken last year. At the January 2002 
Council meeting in Vancouver, the Council recommended that $2.5 million 
of ``Action Plan'' funds made available by Bonneville's Power Business 
Line to address the impacts of the 2001 power emergency on anadromous 
fish be protected in a placeholder for the specific purpose of funding 
the water brokerage program which is required by the 2000 Biological 
Opinion. Bonneville has projected spending on this program to be 
$700,000 for Fiscal Year 2003. This cost must be funded from another 
source.

    After applying the rules and standards noted above, the Council 
staff estimated Fiscal Year 2003 spending for expense projects at 
$114,614,422. When placeholders for funding subbasin planning, 
independent science functions, and addressing ``gaps'' for research, 
monitoring and evaluation required by the 2000 Biological Opinion and 
Bonneville's overhead are added, the total projects spending forecast 
for Fiscal Year 2003 is $137, 364,422.
    As I said, this is a cash-management response to Bonneville's 
request and in no way should be construed as a Council reprioritization 
of fish and wildlife program spending. To make this approach 
successful, Bonneville is going to have to follow actual project 
performance and its project and placeholder spending much more closely 
than it ever has before. Bonneville must be able to report current 
project and program-level spending twice a month beginning immediately. 
We see this as a necessary element in managing the program accounting 
under the ``accrual'' accounting rules currently imposed by Bonneville.
    This is an important point. Bonneville changed its accounting 
procedures for the fish and wildlife program in 2002. On November 20, 
2002, Bonneville's fish and wildlife director announced in a memorandum 
addressed to the Power Planning Council and the Columbia Basin Fish and 
Wildlife Authority that `` we are moving our administration of the 
[fish and wildlife program] from obligation-based budgeting to accrual-
based budgeting.'' The memorandum stated that under an obligations form 
of management, `` funds are made available for the full value of a 
project or contract when it is approved even if all of the deliverables 
and resulting payments will not be made during the budget year the 
funds were first made available (obligated).'' In contrast, under an 
accruals form of management, `` funds are made available for the amount 
of deliverables that will actually be received and paid for (accrued) 
by BPA during the budget year.'' Bonneville decided to make this change 
because the fish and wildlife program was the last large program at the 
agency still managed on an obligations basis, and `` by managing on an 
accrual basis, we can better ensure that funds are available when 
needed without tying up potentially millions of dollars in any 1 year 
for activities that do not need the money.''
    Importantly, according to the memorandum, ``under the accrual-based 
system, unspent funds from fiscal year 2002 are not carried over'' to 
2003. These unspent but obligated funds totaled about $40 million, 
compounding the difficulty of prioritizing, deferring and cutting 
program spending to fit within the spending cap of $139 million in 
accruals imposed by the Administrator for Fiscal Year 2003. In a 
December 31, 2002, letter to project contractors, Bonneville set 
guidelines for contract renewals, including a request that the 
contractors eliminate all ``carry over'' funding (contracted project 
balances) from Fiscal Year 2002 to Fiscal Year 2003. The accounting 
change also came without reliable tracking information to monitor and 
compare the consistency of project implementation with ISRP-reviewed 
and Council-recommended scopes of work.
    To recap, in December 2001 Bonneville committed to an average 
annual budget of $186 million for the current rate period. Subsequently 
in 2002, the Council recommended a suite of new and ongoing projects, 
including approximately $40 million in obligations carried over from 
the previous rate period, that totaled about $170 million well within 
the budget established by Bonneville. Then, in November 2002 Bonneville 
announced it would change its financial management of program expenses 
from an obligations basis, which allowed carry-over from 1 year to the 
next, to an accruals basis, which does not. A month later, Bonneville 
announced it would not allow accruals to exceed $139 million in Fiscal 
Year 2003 and asked the Council to take the lead in ``reprioritizing'' 
existing and proposed new projects to fit within the reduced budget.
    Mr. Chairman, our review of Bonneville's fish and wildlife spending 
uncovered other issues that must be dealt with. First, we are 
tremendously concerned about Bonneville's overhead cost increases. In 
Fiscal Year 2001, Bonneville's overhead costs for this program were $ 
7.4 million. Bonneville insists that it requires $12.1 million for its 
overhead costs in Fiscal Year 2003. This is an increase of 64 percent. 
It is difficult to accept this rate of expansion, especially when these 
overhead costs compete with on-the-ground fish and wildlife projects. 
Bonneville has not been effective in reducing its overhead costs. In 
addition, it has taken a great deal of time and discussion to win 
Bonneville's commitment to a more cost-effective approach to monitoring 
and evaluation. This is not a problem created entirely by Bonneville. 
However, we are calling on Bonneville to break free of the forces that 
would ignore and compound the problem, and work with us on a solution.
    As I have noted, the Council is concerned that a reduction in 
Bonneville's spending commitment below $139 million per year may 
jeopardize its ability to meet legal requirements under the biological 
opinions and the Northwest Power Act. Critical biological opinion 
check-ins are imminent, assuming the Court allows the opinion to 
continue in force while NOAA Fisheries addresses the offsite mitigation 
issues identified by the court. These are the funds that are necessary 
to implement many of the important projects and programs that must be 
in place to succeed in those evaluations. The reductions precipitated 
by Bonneville's immediate switch to its ``accrual rules'' of accounting 
are going to have an impact on our fish and wildlife restoration 
efforts. We are concerned that deeper and sustained cuts in the out-
years may have serious impacts that could retard the progress we have 
been making.
    We expect that as Bonneville's financial situation improves, fish 
and wildlife funding will return to the level the Administrator 
committed to in December 2001 for the current rate period and that the 
current-year funding reduction would be treated as a deferral that 
would be repaid to the program in future years. This would be 
consistent with Bonneville's agreement with its investor-owned utility 
customers to defer $55 million in 2003 payments until 2007. We also 
believe that paying back the fish and wildlife program should be 
accomplished without a rate increase. The fish and wildlife budget is a 
small but critically important portion of Bonneville's total spending, 
and restoring full funding to the fish and wildlife program should not 
be an excuse to raise rates.
    We also are concerned about increasing financial pressure on 
Bonneville from the salmon and steelhead biological opinion. Bonneville 
appears to want to pour all funds possible into implementing that plan 
and, as a result, squeeze out critical work for non-listed salmon, 
wildlife and resident fish that must be accomplished under the 
Northwest Power Act. Bonneville coined the term ``Integrated Program'' 
to describe a vision of a coordinated and balanced approach to its 
Endangered Species Act and Northwest Power Act obligations. But this is 
problematic in that the Council's program responds to the Power Act, 
not the ESA, and Bonneville's offsite mitigation obligation authority 
is in the Power Act, not the ESA. Bonneville needs to look more to the 
Council to make the vision of a coordinated and balanced approach a 
reality. The current Federal drift to a listed-salmon only fish and 
wildlife program is not consistent with Bonneville's vision of a 
coordinated and balanced approach and is not supported by sound 
science, sound public policy, or the law.
    The Governors, in their recent recommendations, were critical of 
the increasing focus on ESA-listed species. The Governors wrote:

    ``The Northwest Power Act requires the Council to prepare a program 
to protect and enhance fish and wildlife and mitigate habitat losses 
caused by the development and operation of the hydrosystem. For the 
last decade, we have been largely preoccupied with ESA-listed fish 
species in the Columbia Basin. Frequently, because of limited 
resources, these two efforts are portrayed as being in opposition to 
each other so that project funding for ESA-listed species is viewed as 
competing with mitigation actions for non-listed species.
    ``In our judgment, too much of a distinction between ESA-listed and 
non-listed fish and wildlife species is being made in fish and wildlife 
planning and implementation activities. When species are listed under 
the ESA, it means we may have failed in our management 
responsibilities. By focusing planning and implementation on all 
species, the Council's proactive approach can work to prevent future 
listings of fish and wildlife species under the ESA while addressing, 
as a subset, those that are listed.
    ``We strongly endorse the Council's Fish and Wildlife Program as a 
comprehensive, integrated and preventive approach to address fish and 
wildlife issues in the Columbia Basin.''

    The Council expects that full funding of our fish and wildlife 
program will be restored in future years as Bonneville's finances 
improve. We also expect this to be accomplished in a way that does not 
require a rate increase. Fish and wildlife spending was not the root 
cause of Bonneville's financial crisis, and the fish and wildlife 
budget should not be permanently reduced in response to a temporary 
crisis that evolved from Bonneville's power supply contracts with its 
customers and the agency's exposure to the volatile prices of the West 
coast wholesale power market.
    Mr. Chairman, thank you for the opportunity to speak here today. 
The Council is moving quickly, but carefully, in collaboration with 
State and Federal fish and wildlife agencies and Indian tribes, and the 
Federal hydrosystem operating agencies, to develop and implement a 
scientifically credible, locally developed fish and wildlife program. 
The Council is implementing the Northwest Power Act and the relevant 
portions of the 2000 Biological Opinions in a manner that benefits all 
fish and wildlife of the Columbia River Basin--ESA-listed populations 
and unlisted populations, too.
    I will close my testimony by reiterating a portion of the 
commitment the four Northwest Governors made in their recommendations 
on fish and wildlife recovery. I think it precisely expresses the 
Council's commitment, as well:
    We acknowledge that the FCRPS benefits have come with a cost--
adverse impacts on the Columbia Basin's fish and wildlife. With our 
locally based efforts in the watersheds, we are following through on 
our commitments while we are avoiding becoming sidetracked by issues 
that will only divert and divide us as a region. We will stay the 
course and solve our problems as a region. We will continue to pursue 
full implementation of the biological opinions to recover our salmon, 
steelhead and freshwater species not only because it is the right thing 
to do, but also because the failure to do so will jeopardize the 
Federal hydropower system.
                                 ______
                                 

                                      Biological Opinion Projects recommended by the Council since Fiscal Year 2001
      Note: As of the date of this hearing, Bonneville has not made funding decisions on the Council's mainstem/systemwide project recommendations
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                          BPA funding
              FY                   Review cycle        Project ID                        Title                    Council recommend.       decision
--------------------------------------------------------------------------------------------------------------------------------------------------------
2001..........................  Columbia Gorge...  CG2001000021015..  Riparian Buffers..........................               73414               73414
2001..........................  Columbia Gorge...  CG2001198805304..  Hood River Production Program--ODFW M&E...              438000              431331
2001..........................  Columbia Gorge...  CG2001198805307..  Hood River Production Program: Powerdale,               949198              727733
                                                                       Parkdale, Oak Springs O&M (88-053-07 & 88-
                                                                       053-08).
2001..........................  Columbia Gorge...  CG2001199304000..  Fifteen mile Creek Habitat Restoration                  223371              220040
                                                                       Project (Request For Multi-Year Funding).
2001..........................  Columbia Gorge...  CG2001199506325..  Yakima/Klickitat Fisheries Project                      447723              447723
                                                                       Monitoring And Evaluation (Klickitat
                                                                       Only).
2001..........................  Columbia Gorge...  CG2001199705600..  Lower Klickitat Riparian and In-Channel                 313318              313318
                                                                       Habitat Enhancement Project.
2001..........................  Columbia Gorge...  CG2001199801900..  Wind River Watershed Restoration..........              658532              658532
2001..........................  FY 2001 High       HP2001000023001..  Protect Bear Valley Wild Salmon,                        320000              320000
                                 Priority.                             Steelhead, Bull Trout Spawning and
                                                                       Rearing Habitat.
2001..........................  FY 2001 High       HP2001000023002..  Ames Creek Restoration....................              170000              170000
                                 Priority.
2001..........................  FY 2001 High       HP2001000023007..  Conservation Easement, Baker Ranch, Salmon             1415000             1415000
                                 Priority.                             River East Fork.
2001..........................  FY 2001 High       HP2001000023012..  Arrowleaf/Methow River Conservation                    2500000             2500000
                                 Priority.                             Project.
2001..........................  FY 2001 High       HP2001000023032..  Return Spawning/Rearing Habitat to                      420000  ..................
                                 Priority.                             Anadromous/Resident Fish within the Squaw
                                                                       Creek to Papoose Creek Analysis Area
                                                                       Watersheds.
2001..........................  FY 2001 High       HP2001000023036..  Evaluate live capture selective harvesting              384285              384285
                                 Priority.                             methods for commercial fisheries on the
                                                                       Columbia River.
2001..........................  FY 2001 High       HP2001000023045..  Gourley Creek Dam Fish Ladder.............              200119              200119
                                 Priority.
2001..........................  FY 2001 High       HP2001000023046..  Increase In Stream Flows to De-watered                  590000              590000
                                 Priority.                             Stream Reaches in the Walla Walla Basin.
2001..........................  FY 2001 High       HP2001000023048..  Install Fish Screens to Protect ESA-listed              461700              461700
                                 Priority.                             Steelhead and Bull Trout in the Walla
                                                                       Walla Basin.
2001..........................  FY 2001 High       HP2001000023053..  Wagner Ranch Acquisition..................             2658774             2658774
                                 Priority.
2001..........................  FY 2001 High       HP2001000023054..  Forrest Ranch Acquisition.................             4184185             4184185
                                 Priority.
2001..........................  FY 2001 High       HP2001000023056..  Farmers Irrigation District Mainstem Hood               500000              500000
                                 Priority.                             River Fish Screen Project.
2001..........................  FY 2001 High       HP2001000023073..  Purchase Perpetual Conservation Easement                481800  ..................
                                 Priority.                             on Holliday Ranch and Crown Ranch
                                                                       Riparian Corridors and Uplands.
2001..........................  FY 2001 High       HP2001000023094..  Acquire 27,000 Camp Creek Ranch at Zumwalt             2000000             2000000
                                 Priority.                             Prairie.
2002..........................  Blue Mountain....  BM2002000027001..  Asotin County Riparian Buffer and Couse                 241000              241000
                                                                       and Tenmile Creeks Protection and
                                                                       Implementation Project.
2002..........................  Blue Mountain....  BM2002000027002..  Assess Salmonids in the Asotin Creek                    316885              316885
                                                                       Watershed.
2002..........................  Blue Mountain....  BM2002000027014..  Protect and Restore the Asotin Creek                    121000              121000
                                                                       Watershed.
2002..........................  Blue Mountain....  BM2002000027018..  Oregon Plan Blue Mountain Province Fish                 153314              153314
                                                                       Screening/Fish Passage..
2002..........................  Blue Mountain....  BM2002000027021..  Adult Steelhead Status Monitoring--Imnaha               148967              148967
                                                                       River Subbasin.
2002..........................  Blue Mountain....  BM2002000027022..  Wallowa County Culvert Inventory..........              170603              170603
2002..........................  Blue Mountain....  BM2002198402500..  Grande Ronde Basin Fish Habitat                         349386              349386
                                                                       Enhancement Project.
2002..........................  Blue Mountain....  BM2002198805301..  Northeast Oregon Hatchery Master Plan.....             1000000             1000000
2002..........................  Blue Mountain....  BM2002198805305..  Northeast Oregon Hatcheries Planning                     79376               79376
                                                                       (ODFW).
2002..........................  Blue Mountain....  BM2002199202601..  Implement the Grande Ronde Model Watershed              961620              961620
                                                                       Program Administration and Habitat
                                                                       Restoration Projects.
2002..........................  Blue Mountain....  BM2002199202604..  Investigate Life History of Spring Chinook              888087              888087
                                                                       Salmon and Summer Steelhead in the Grande
                                                                       Ronde River Basin and Monitor Salmonid
                                                                       Populations and Habitat.
2002..........................  Blue Mountain....  BM2002199401805..  Continued Coordination and Implementation               271000              271000
                                                                       of Asotin Creek Watershed Projects.
2002..........................  Blue Mountain....  BM2002199608300..  CTUIR Grande Ronde Subbasin Restoration...              200000              200000
2002..........................  Blue Mountain....  BM2002199701501..  Imnaha Smolt Survival and Smolt to Adult                241570              241570
                                                                       Return Rate Quantification.
2002..........................  Blue Mountain....  BM2002199800702..  Grande Ronde Supplementation: Lostine                   545693              545693
                                                                       River O&M and M&E.
2002..........................  Blue Mountain....  BM2002199800703..  Facility O&M And Program M&E For Grande                 640181              640181
                                                                       Ronde Spring Chinook Salmon and Summer
                                                                       Steelhead.
2002..........................  Blue Mountain....  BM2002199800704..  Northeast Oregon Hatcheries Implementation              206048              206048
                                                                       (ODFW).
2002..........................  Blue Mountain....  BM2002199801001..  Grande Ronde Basin Spring Chinook Captive               676906              679906
                                                                       Broodstock Program.
2002..........................  Blue Mountain....  BM2002199801003..  Spawning distribution of Snake River fall               174162              174162
                                                                       chinook salmon.
2002..........................  Blue Mountain....  BM2002199801004..  Monitor and Evaluate Yearling Snake River               287307              287307
                                                                       Fall Chinook Released Upstream Of Lower
                                                                       Granite Dam.
2002..........................  Blue Mountain....  BM2002199801005..  Pittsburg Landing (199801005),Capt. John                682440              682440
                                                                       Rapids (199801007), Big Canyon
                                                                       (199801008) Fall Chinook Acclimation
                                                                       Facilities.
2002..........................  Blue Mountain....  BM2002199801006..  Captive Broodstock Artificial Propagation.              164260              164260
2002..........................  Columbia Plateau.  CP2002000025003..  Forrest Ranch Acquisition.................              169851              169851
2002..........................  Columbia Plateau.  CP2002000025004..  Acquisition of Wagner Ranch...............              108217              108217
2002..........................  Columbia Plateau.  CP2002000025006..  Provide Coordination and Technical                       71000               71000
                                                                       Assistance to Watershed Councils and
                                                                       Individuals in Sherman County, Oregon.
2002..........................  Columbia Plateau.  CP2002000025010..  Regional Stream Conditions and Stressor                  80000               80000
                                                                       Evaluation.
2002..........................  Columbia Plateau.  CP2002000025011..  Assess Riparian Condition Through                       175000  ..................
                                                                       Spectrometric Imaging Of Riparian
                                                                       Vegetation.
2002..........................  Columbia Plateau.  CP2002000025013..  Restore Riparian Corridor at Tapteal Bend,              160500              160500
                                                                       Lower Yakima River.
2002..........................  Columbia Plateau.  CP2002000025014..  Establish Riparian Buffer Systems.........               67119               67119
2002..........................  Columbia Plateau.  CP2002000025017..  Fabricate and Install New Hunstville Mill               120000              120000
                                                                       Fish Screen.
2002..........................  Columbia Plateau.  CP2002000025021..  Implement Actions to Reduce Water                       172950              172950
                                                                       Temperatures in the Teanaway Basin.
2002..........................  Columbia Plateau.  CP2002000025022..  YKFP Big Creek Passage & Screening........              175280              175280
2002..........................  Columbia Plateau.  CP2002000025023..  Yakima-Klickitat Fisheries Project--                    632835
                                                                       Manastash Creek Fish Passage and
                                                                       Screening.
2002..........................  Columbia Plateau.  CP2002000025024..  Yakima-Klickitat Fisheries Project--Wilson              206580              206580
                                                                       Creek Snowden Parcel Acquisition.
2002..........................  Columbia Plateau.  CP2002000025025..  YKFP Secure Salmonid Spawning and Rearing              2300000             2300000
                                                                       Habitat on the Upper Yakima River.
2002..........................  Columbia Plateau.  CP2002000025026..  Yakima Tributary Access and Habitat                     750000  ..................
                                                                       Program (YTAHP).
2002..........................  Columbia Plateau.  CP2002000025029..  Westland-Ramos Fish Passage and Habitat                 203020  ..................
                                                                       Restoration Pilot Project.
2002..........................  Columbia Plateau.  CP2002000025032..  Wenas Wildlife Area Inholding Acquisitions              706143  ..................
2002..........................  Columbia Plateau.  CP2002000025036..  The Impact of Flow Regulation on Riparian               225495  ..................
                                                                       Cottonwood Ecosystems in the Yakima River
                                                                       Basin..
2002..........................  Columbia Plateau.  CP2002000025047..  Morrow County Buffer Initiative...........               75086               75086
2002..........................  Columbia Plateau.  CP2002000025049..  Numerically Simulating the Hydrodynamic                 207360              207360
                                                                       and Water Quality Environment for
                                                                       Migrating Salmon in the Lower Snake River.
2002..........................  Columbia Plateau.  CP2002000025056..  Conduct Watershed Assessments for Priority             1259725             1259725
                                                                       Watersheds on Private Lands in the
                                                                       Columbia Plateau.
2002..........................  Columbia Plateau.  CP2002000025058..  Fish Passage Inventory and Corrective                   205300              205300
                                                                       Actions on WDFW Lands in The Yakima
                                                                       Subbasin.
2002..........................  Columbia Plateau.  CP2002000025059..  Develop Progeny Marker for Salmonids to                 149655              149665
                                                                       Evaluate Supplementation.
2002..........................  Columbia Plateau.  CP2002000025060..  Burbank Sloughs and Mainstem Columbia                   116000  ..................
                                                                       River Shoreline/Side Channel/Wetland
                                                                       Habitat Restoration.
2002..........................  Columbia Plateau.  CP2002000025062..  Growth Rate Modulation in Spring Chinook                313294              345088
                                                                       Salmon Supplementation.
2002..........................  Columbia Plateau.  CP2002000025064..  Investigating passage of ESA-listed                     176000              176000
                                                                       juvenile fall chinook salmon at Lower
                                                                       Granite Dam during winter when the fish
                                                                       bypass system is inoperable..
2002..........................  Columbia Plateau.  CP2002000025066..  Manage Water Distribution in the Walla                  552525  ..................
                                                                       Walla River Basin.
2002..........................  Columbia Plateau.  CP2002000025067..  Manage Water Distribution in the John Day               251261  ..................
                                                                       Basin.
2002..........................  Columbia Plateau.  CP2002000025068..  Rock Creek watershed road and riparian                   96500  ..................
                                                                       corridor improvement project..
2002..........................  Columbia Plateau.  CP2002000025069..  John Day Salmonid Recovery Monitoring                   164133              164133
                                                                       Program.
2002..........................  Columbia Plateau.  CP2002000025073..  Wheeler SWCD Riparian Buffer Planning and                75086               75086
                                                                       Implementation.
2002..........................  Columbia Plateau.  CP2002000025078..  Acquire Anadromous Fish Habitat in the                  875000  ..................
                                                                       Selah Gap to Union Gap Flood Plain,
                                                                       Yakima River Basin, Washington.
2002..........................  Columbia Plateau.  CP2002000025080..  Gilliam SWCD Riparian Buffers.............               75086               75086
2002..........................  Columbia Plateau.  CP2002000025081..  Improve Upstream Fish Passage in the Birch              374572  ..................
                                                                       Creek Watershed.
2002..........................  Columbia Plateau.  CP2002000025082..  Walla Walla River Flow Restoration........              478000              478000
2002..........................  Columbia Plateau.  CP2002000025086..  Purchase Perpetual Conservation Easement                 22950  ..................
                                                                       on Holliday Ranch and Crown Ranch
                                                                       Riparian Corridors and Uplands.
2002..........................  Columbia Plateau.  CP2002000025092..  Restoration of Healthy Watershed to                     100200  ..................
                                                                       Palouse River Drainage in Idaho.
2002..........................  Columbia Plateau.  CP2002000025097..  Salmon and Steelhead Habitat Inventory and              522710  ..................
                                                                       Assessment Project (SSHIAP).
2002..........................  Columbia Plateau.  CP2002000025100..  Protect Normative Structure and Function                349000              349000
                                                                       of Critical Aquatic and Terrestrial
                                                                       Habitat.
2002..........................  Columbia Plateau.  CP2002000025102..  Columbia Plateau Water Right Acquisition                149368              149368
                                                                       Program.
2002..........................  Columbia Plateau.  CP2002198402100..  Protect and Enhance Anadromous Fish                     448500              448500
                                                                       Habitat in The John Day Subbasin.
2002..........................  Columbia Plateau.  CP2002198506200..  Passage Improvement Evaluation............              103400              103400
2002..........................  Columbia Plateau.  CP2002198710001..  Enhance Umatilla River Basin Anadromous                 350000              350000
                                                                       Fish Habitat.
2002..........................  Columbia Plateau.  CP2002198710002..  Umatilla Subbasin Fish Habitat Improvement              300264              300264
2002..........................  Columbia Plateau.  CP2002198902401..  Evaluate Juvenile Salmonid Outmigration                 286427              286427
                                                                       and Survival in the Lower Umatilla River
                                                                       Basin.
2002..........................  Columbia Plateau.  CP2002198903500..  Umatilla Hatchery Operation and                         889240              889240
                                                                       Maintenance.
2002..........................  Columbia Plateau.  CP2002199000500..  Umatilla Fish Hatchery Monitoring and                   626178              626178
                                                                       Evaluation.
2002..........................  Columbia Plateau.  CP2002199102900..  Understanding the effects of summer flow                630375              630375
                                                                       augmentation on the migratory behavior
                                                                       and survival of fall chinook salmon
                                                                       migrating through L. Granite Res..
2002..........................  Columbia Plateau.  CP2002199105700..  Fabricate and Install Yakima Basin Phase                159889              159889
                                                                       II Fish Screens.
2002..........................  Columbia Plateau.  CP2002199107500..  Yakima Phase II Screens--Construction*....              600000              600000
2002..........................  Columbia Plateau.  CP2002199206200..  Yakama Nation--Riparian/Wetlands                       1416580              294548
                                                                       Restoration.
2002..........................  Columbia Plateau.  CP2002199306600..  Oregon Fish Screening Project.............              660870              660870
2002..........................  Columbia Plateau.  CP2002199401806..  Implement Tucannon River Model Watershed                252625              252625
                                                                       Plan to Restore Salmonid Habitat.
2002..........................  Columbia Plateau.  CP2002199401807..  Garfield County Sediment Reduction and                   80000               80000
                                                                       Riparian Improvement Program.
2002..........................  Columbia Plateau.  CP2002199404200..  Trout Creek Habitat Restoration Project...              358845              358845
2002..........................  Columbia Plateau.  CP2002199506325..  Yakima/Klickitat Fisheries Project                     3835036             3835036
                                                                       Monitoring And Evaluation.
2002..........................  Columbia Plateau.  CP2002199601100..  Walla Walla River Juvenile and Adult                    465300              465300
                                                                       Passage Improvements.
2002..........................  Columbia Plateau.  CP2002199603501..  Satus Watershed Restoration Project.......              352966              352966
2002..........................  Columbia Plateau.  CP2002199604601..  Walla Walla Basin Fish Habitat Enhancement              259660              259660
2002..........................  Columbia Plateau.  CP2002199703400..  Monitoring Fine Sediment Grande Ronde and                40829               40829
                                                                       John Day Rivers.
2002..........................  Columbia Plateau.  CP2002199705100..  Yakama Nation Yakima/Klickitat Fisheries                565136              565136
                                                                       Project (YKFP) Yakima Side Channels.
2002..........................  Columbia Plateau.  CP2002199705300..  Toppenish-Simcoe Instream Flow Restoration              225000              281830
                                                                       and Assessment.
2002..........................  Columbia Plateau.  CP2002199801600..  Monitor Natural Escapement & Productivity              1067328             1067328
                                                                       of John Day Basin Spring Chinook.
2002..........................  Columbia Plateau.  CP2002199801700..  Eliminate Gravel Push-up Dams in Lower                   98333               98333
                                                                       North Fork John Day.
2002..........................  Columbia Plateau.  CP2002199801800..  John Day Watershed Restoration............              447050              447050
2002..........................  Columbia Plateau.  CP2002199802000..  Assess Fish Habitat and Salmonids in the                163879              163879
                                                                       Walla Walla Watershed in Washington.
2002..........................  Columbia Plateau.  CP2002199802200..  Pine Creek Ranch..........................              172000              172000
2002..........................  Columbia Plateau.  CP2002199802800..  Trout Creek Watershed Improvement Project.              122115              122115
2002..........................  Columbia Plateau.  CP2002199803300..  Restore Upper Toppenish Watershed.........              196460              196460
2002..........................  Columbia Plateau.  CP2002199803400..  Yakama Nation Yakima/Klickitat Fisheries                230000  ..................
                                                                       Project (YKFP) Reestablish Safe Access
                                                                       into Tributaries of the Yakima Subbasin.
2002..........................  Columbia Plateau.  CP2002199901000..  Mitigate Effects of Runoff and Erosion on                21980               21980
                                                                       Salmonid Habitat in Pine Hollow and
                                                                       Jackknife.
2002..........................  Columbia Plateau.  CP2002199901300..  Ahtanum Creek Watershed Assessment........              206999              206999
2002..........................  Columbia Plateau.  CP2002200001500..  Oxbow Ranch Management and Implementation.              291898              291898
2002..........................  Columbia Plateau.  CP2002200001900..  Tucannon River Spring Chinook Captive                    94509               94509
                                                                       Broodstock Program.
2002..........................  Columbia Plateau.  CP2002200003100..  North Fork John Day River Subbasin                      228726              228726
                                                                       Anadromous Fish Habitat Enhancement
                                                                       Project.
2002..........................  Columbia Plateau.  CP2002200003900..  Walla Walla Basin Natural Production                    498886              498886
                                                                       Monitoring and Evaluation Project.
2002..........................  Mountain Columbia  MC2002000024001..  Lake Pend Oreille Predation Research......              141000              136000
2002..........................  Mountain Columbia  MC2002000024009..  Assess Feasibility of Enhancing White                   350000              350000
                                                                       Sturgeon Spawning Substrate Habitat,
                                                                       Kootenai R., Idaho.
2002..........................  Mountain Columbia  MC2002198806400..  Kootenai River White Sturgeon Studies and              1160000             1160000
                                                                       Conservation Aquaculture.
2002..........................  Mountain Columbia  MC2002198806500..  Kootenai River Fisheries Recovery                       825391              825391
                                                                       Investigations.
2002..........................  Mountain Columbia  MC2002199101903..  Hungry Horse Mitigation...................              982850              982850
2002..........................  Mountain Columbia  MC2002199404700..  Lake Pend Oreille Fishery Recovery Project              362000              362000
2002..........................  Mountain Columbia  MC2002199404900..  Improving the Kootenai River Ecosystem....              710891              710891
2002..........................  Mountain Columbia  MC2002199500400..  Mitigation for the Construction and                     805000              805000
                                                                       Operation of Libby Dam.
2002..........................  Mountain Snake...  MS2002000028001..  Evaluate Factors Influencing Bias and                   198738              198738
                                                                       Precision of Chinook Salmon Redd Counts.
2002..........................  Mountain Snake...  MS2002000028008..  Riparian Conservation Easement Purchase of               68500               68500
                                                                       Scarrow Property on Lake Creek a
                                                                       Tributary to the Secesh River, Idaho..
2002..........................  Mountain Snake...  MS2002000028016..  Restoration of the Yankee Fork Salmon                   150000              150000
                                                                       River.
2002..........................  Mountain Snake...  MS2002000028021..  Lower Clearwater Habitat Enhancement                    125000  ..................
                                                                       Project.
2002..........................  Mountain Snake...  MS2002000028025..  Potlatch River Watershed Restoration......              200000              200000
2002..........................  Mountain Snake...  MS2002000028034..  Chinook Salmon Smolt Survival and Smolt to              500000              500000
                                                                       Adult Return Rate Quantification, South
                                                                       Fork Salmon River, Idaho.
2002..........................  Mountain Snake...  MS2002000028036..  Holistic Restoration of Critical Habitat                445000              445000
                                                                       on Non-Federal Lands in the Pahsimeroi
                                                                       Watershed, Idaho.
2002..........................  Mountain Snake...  MS2002000028037..  Holistic Restoration of Critical Habitat                332176              332176
                                                                       on Non-Federal Lands in the Lemhi
                                                                       Watershed, Idaho.
2002..........................  Mountain Snake...  MS2002000028038..  Holistic Restoration of Critical Habitat                 50000               50000
                                                                       on Non-Federal Lands, East Fork Salmon
                                                                       Watershed, Idaho.
2002..........................  Mountain Snake...  MS2002000028039..  Holistic Restoration of Habitat on Non-                 115000              115000
                                                                       Federal Lands, Middle Salmon-Panther
                                                                       Watershed, Idaho.
2002..........................  Mountain Snake...  MS2002000028040..  Holistic Restoration of Critical Habitat                120000              120000
                                                                       on Non-Federal Lands, Upper Salmon
                                                                       Watershed, Idaho.
2002..........................  Mountain Snake...  MS2002000028045..  Evaluating stream habitat using the Nez                 200000              200000
                                                                       Perce Tribe Fisheries/Watershed Watershed
                                                                       Monitoring and Evaluation Plan.
2002..........................  Mountain Snake...  MS2002000028047..  Restore and Protect Red River Watershed...               95811               95811
2002..........................  Mountain Snake...  MS2002000028048..  Protect and Restore Crooked Fork Creek to               174482              174482
                                                                       Colt Killed Analysis Area.
2002..........................  Mountain Snake...  MS2002000028050..  Protect and Restore Little Salmon River...              162896              162896
2002..........................  Mountain Snake...  MS2002000028059..  Restoring anadromous fish habitat in the                372060              372060
                                                                       Lapwai Creek watershed..
2002..........................  Mountain Snake...  MS2002000028061..  Safety-Net Artificial Propagation Program               523000              523000
                                                                       (SNAPP).
2002..........................  Mountain Snake...  MS2002198335000..  Nez Perce Tribal Hatchery.................             3583000             3583000
2002..........................  Mountain Snake...  MS2002198335003..  Nez Perce Tribal Hatchery Monitoring And               1791000             1791000
                                                                       Evaluation.
2002..........................  Mountain Snake...  MS2002198909800..  Idaho Supplementation Studies.............              996726              996726
2002..........................  Mountain Snake...  MS2002198909801..  Evaluate Supplementation Studies in Idaho               126320              126320
                                                                       Rivers (ISS).
2002..........................  Mountain Snake...  MS2002198909802..  Evaluate Salmon Supplementation Studies in              402038              402038
                                                                       Idaho Rivers-Nez Perce Tribe.
2002..........................  Mountain Snake...  MS2002198909803..  Salmon Supplementation Studies in Idaho-                213569              213569
                                                                       Shoshone-Bannock Tribes.
2002..........................  Mountain Snake...  MS2002199005500..  Steelhead Supplementation Studies in Idaho              550982              550982
                                                                       Rivers.
2002..........................  Mountain Snake...  MS2002199102800..  Monitoring smolt migrations of wild Snake               336050              336050
                                                                       River sp/sum chinook salmon.
2002..........................  Mountain Snake...  MS2002199107100..  Snake River Sockeye Salmon Habitat and                  426277              426277
                                                                       Limnological Research.
2002..........................  Mountain Snake...  MS2002199107200..  Redfish Lake Sockeye Salmon Captive                     825000              825000
                                                                       Broodstock Program.
2002..........................  Mountain Snake...  MS2002199107300..  Idaho Natural Production Monitoring and                 827419              827419
                                                                       Evaluation.
2002..........................  Mountain Snake...  MS2002199202603..  Upper Salmon Basin Watershed Project                    333401              333401
                                                                       Administration/Implementation Support.
2002..........................  Mountain Snake...  MS2002199204000..  Redfish Lake Sockeye Salmon Captive                     713000              713000
                                                                       Broodstock Rearing and Research.
2002..........................  Mountain Snake...  MS2002199303501..  Enhance Fish, Riparian, and Wildlife                    209515              209515
                                                                       Habitat Within the Red River Watershed.
2002..........................  Mountain Snake...  MS2002199401500..  Idaho Fish Screen Improvement.............             1000000             1000000
2002..........................  Mountain Snake...  MS2002199405000..  Salmon River Habitat Enhancement M & E....              248160              248160
2002..........................  Mountain Snake...  MS2002199604300..  Johnson Creek Artificial Propagation                   1098227             1098227
                                                                       Enhancement Project.
2002..........................  Mountain Snake...  MS2002199607702..  Protect and Restore Lolo Creek Watershed..              236296              236296
2002..........................  Mountain Snake...  MS2002199607703..  Protecting and Restoring the Waw'aatamnima              413288              413288
                                                                       (Fishing)(Squaw) Creek to 'Imnaamatnoon
                                                                       (Legendary Bear)(Papoose) Creek
                                                                       Watersheds Analysis Area.
2002..........................  Mountain Snake...  MS2002199607705..  Restore McComas Meadows/Meadow Creek                    332000              332000
                                                                       Watershed.
2002..........................  Mountain Snake...  MS2002199608600..  Clearwater Focus Program..................              103626              103626
2002..........................  Mountain Snake...  MS2002199700100..  Captive Rearing Project for Salmon River                610500              610500
                                                                       Chinook Salmon.
2002..........................  Mountain Snake...  MS2002199703000..  Chinook Salmon Adult Abundance Monitoring.              666000              666000
2002..........................  Mountain Snake...  MS2002199703800..  Preserve Salmonid Gametes and Establish a               288496              288496
                                                                       Regional Salmonid Germplasm Repository.
2002..........................  Mountain Snake...  MS2002199706000..  Clearwater Subbasin Focus Watershed                     218000              218000
                                                                       Program--NPT.
2002..........................  Mountain Snake...  MS2002199901400..  Little Canyon Creek Subwatershed-Steelhead              203340              203340
                                                                       Trout Habitat Improvement Project.
2002..........................  Mountain Snake...  MS2002199901500..  Restoring Anadromous Fish Habitat in Big                 60000               60000
                                                                       Canyon Watershed.
2002..........................  Mountain Snake...  MS2002199901600..  Protect and Restore Big Canyon Creek                    222380              222380
                                                                       Watershed.
2002..........................  Mountain Snake...  MS2002199901700..  Protect and Restore Lapwai Creek Watershed              436600              436600
2002..........................  Mountain Snake...  MS2002199901800..  Characterize and quantify residual                      101950              101950
                                                                       steelhead in the Clearwater River, Idaho.
2002..........................  Mountain Snake...  MS2002199901900..  Holistic Restoration of the Twelvemile                  336050              336050
                                                                       Reach of the Salmon River near Challis,
                                                                       Idaho.
2002..........................  Mountain Snake...  MS2002199902000..  Analyze the Persistence and Spatial                     151700              151700
                                                                       Dynamics of Snake River Chinook Salmon.
2002..........................  Mountain Snake...  MS2002200003500..  Rehabilitate Newsome Creek Watershed--                  287732              287732
                                                                       South Fork Clearwater River.
2002..........................  Mountain Snake...  MS2002200003600..  Protect & Restore Mill Creek..............               74915               74915
2003..........................  Columbia Cascade.  CC2003000029026..  Hanan-Detwiler Passage Improvements.......               85000                ----
2003..........................  Columbia Cascade.  CC2003000029027..  Comprehensive Inventory and Prioritization              277436                ----
                                                                       of Fish Passage and Screening Problems in
                                                                       the Wenatchee and Entiat Subbasins.
2003..........................  Columbia Cascade.  CC2003000029033..  Design and Conduct Monitoring and                       480152                ----
                                                                       Evaluation Associated With
                                                                       Reestablishment of Okanogan Basin Natural
                                                                       Production.
2003..........................  Columbia Cascade.  CC2003199604200..  Restore and Enhance Anadromous Fish                     365819              718883
                                                                       Populations and Habitat in Salmon Creek.
2003..........................  Columbia Cascade.  CC2003200000100..  Improvement of Anadromous Fish Habitat and              121098              116530
                                                                       Passage in Omak Creek.
2003..........................  Columbia Cascade.  CC2003200001300..  Evaluate An Experimental Re-introduction                 18096               18000
                                                                       of Sockeye Salmon into Skaha Lake.
2003..........................  Columbia Estuary.  CE2003000030001..  Historic habitat opportunities and food-                597559              597559
                                                                       web linkages of juvenile salmon in the
                                                                       Columbia River estuary: Implications for
                                                                       managing flows and restoration.
2003..........................  Columbia Estuary.  CE2003000030004..  Blind Slough Restoration Project--                      173550              173550
                                                                       Brownsmead, Oregon.
2003..........................  Columbia Estuary.  CE2003000030005..  Grays River Watershed and Biological                    474734                ----
                                                                       Assessment.
2003..........................  Columbia Estuary.  CE2003000030006..  Effectiveness monitoring of the Chinook                 124804              124804
                                                                       River estuary restoration project..
2003..........................  Columbia Estuary.  CE2003000030011..  Preserve and Restore Columbia River                     585473              585473
                                                                       Estuary Islands to Enhance Juvenile
                                                                       Salmonid and Columbian White-tailed Deer
                                                                       Habitat..
2003..........................  Columbia Estuary.  CE2003000030015..  Lower Columbia River and Columbia River                 260000              260000
                                                                       Estuary Ecosystem Monitoring and Data
                                                                       Management.
2003..........................  Columbia Estuary.  CE2003000030016..  Implement the Habitat Restoration Program              1000000             1000000
                                                                       for the Columbia Estuary and Lower
                                                                       Columbia River.
2003..........................  Columbia Estuary.  CE2003199801400..  Survival and Growth of Juvenile Salmonids              1767855             1748970
                                                                       in the Columbia River Plume.
2003..........................  Lower Columbia...  LC2003199306000..  Select Area Fishery Evaluation Project....             1679564             1679493
2003..........................  Lower Columbia...  LC2003199902500..  Sandy River Delta Riparian Forest,                      155562              155562
                                                                       Wetlands, and Anadromous Estuary
                                                                       Restoration.
2003..........................  Lower Columbia...  LC2003200001200..  Evaluate factors limiting Columbia River                255211              246820
                                                                       gorge chum salmon populations..
2003..........................  Lower Columbia...  LC2003200105300..  Re-introduction of Lower Columbia River                 381671              381671
                                                                       Chum Salmon into Duncan Creek.
2003..........................  Mainstem/          SW2003000035007..  Evaluate Restoration Potential of Snake                 564200  ..................
                                 Systemwide.                           River Fall Chinook Salmon Spawning
                                                                       Habitat.
2003..........................  Mainstem/          SW2003000035012..  Spatial scales of homing and the efficacy               370100  ..................
                                 Systemwide.                           of hatchery supplementation of wild
                                                                       populations.
2003..........................  Mainstem/          SW2003000035019..  Develop and Implement a Pilot Status and               1515000  ..................
                                 Systemwide.                           Trend Monitoring Program for Salmonids
                                                                       and their Habitat in the Wenatchee and
                                                                       Grande Ronde River Basins.
2003..........................  Mainstem/          SW2003000035029..  Transfer IHN virus genetic strain typing                116479  ..................
                                 Systemwide.                           technology to fish health managers.
2003..........................  Mainstem/          SW2003000035033..  Collaborative, Systemwide Monitoring and                968800  ..................
                                 Systemwide.                           Evaluation Program..
2003..........................  Mainstem/          SW2003000035039..  The influence of hatcheries and their                   303448  ..................
                                 Systemwide.                           products on the health and physiology of
                                                                       naturally rearing fish.
2003..........................  Mainstem/          SW2003000035046..  Estimate juvenile salmon residence in the                96300  ..................
                                 Systemwide.                           Columbia River Plume using micro-acoustic
                                                                       transmitters..
2003..........................  Mainstem/          SW2003000035047..  Evaluate Delayed (Extra) Mortality                     1100000  ..................
                                 Systemwide.                           Associated with Passage of Yearling
                                                                       Chinook Salmon Smolts through Snake River
                                                                       Dams.
2003..........................  Mainstem/          SW2003198201301..  Coded-Wire Tag Recovery Program...........             2028757  ..................
                                 Systemwide.
2003..........................  Mainstem/          SW2003198201302..  Annual Stock Assessment--Coded Wire Tag                 217881  ..................
                                 Systemwide.                           Program (ODFW).
2003..........................  Mainstem/          SW2003198201304..  Annual Stock Assessment--Coded Wire Tag                 319137  ..................
                                 Systemwide.                           Program (WDFW).
2003..........................  Mainstem/          SW2003198331900..  New Marking and Monitoring Techniques for                41900  ..................
                                 Systemwide.                           Fish.
2003..........................  Mainstem/          SW2003198712700..  Smolt Monitoring by Federal and Non-                   1910000  ..................
                                 Systemwide.                           Federal Agencies.
2003..........................  Mainstem/          SW2003198810804..  StreamNet.................................             2261033  ..................
                                 Systemwide.
2003..........................  Mainstem/          SW2003198906500..  Annual Stock Assessment--CWT (USFWS)......              119268  ..................
                                 Systemwide.
2003..........................  Mainstem/          SW2003198909600..  Monitor and evaluate genetic                            593900  ..................
                                 Systemwide.                           characteristics of supplemented salmon
                                                                       and steelhead.
2003..........................  Mainstem/          SW2003198910700..  Statistical Support for Salmonid Survival               265850  ..................
                                 Systemwide.                           Studies.
2003..........................  Mainstem/          SW2003199007700..  Northern Pikeminnow Management Program....             1435000  ..................
                                 Systemwide.
2003..........................  Mainstem/          SW2003199008000..  Columbia Basin Pit Tag Information System.             2431442  ..................
                                 Systemwide.
2003..........................  Mainstem/          SW2003199009300..  Genetic Analysis of Oncorhynchus nerka                  126436  ..................
                                 Systemwide.                           (modified to include chinook salmon).
2003..........................  Mainstem/          SW2003199105100..  Monitoring and Evaluation Statistical                   394655  ..................
                                 Systemwide.                           Support.
2003..........................  Mainstem/          SW2003199302900..  Estimate Survival for the Passage of                   1884200  ..................
                                 Systemwide.                           Juvenile Salmonids Through Dams and
                                                                       Reservoirs of the Lower Snake and
                                                                       Columbia Rivers.
2003..........................  Mainstem/          SW2003199305600..  Assessment of Captive Broodstock                       1468100  ..................
                                 Systemwide.                           Technologies.
2003..........................  Mainstem/          SW2003199403300..  The Fish Passage Center...................             1302904  ..................
                                 Systemwide.
2003..........................  Mainstem/          SW2003199601900..  Second-Tier Data base Support.............              275111  ..................
                                 Systemwide.
2003..........................  Mainstem/          SW2003199602000..  Comparative Survival Rate Study (CSS) of               1736542  ..................
                                 Systemwide.                           Hatchery Pit Tagged Chinook & Comparative
                                                                       Survival Study Oversight Committee.
2003..........................  Mainstem/          SW2003199602100..  Gas bubble disease research and monitoring               16885  ..................
                                 Systemwide.                           of juvenile salmonids.
2003..........................  Mainstem/          SW2003199606700..  Manchester Spring Chinook Broodstock                    877600  ..................
                                 Systemwide.                           Project.
2003..........................  Mainstem/          SW2003199900301..  Evaluate Spawning of Fall Chinook and Chum              779586  ..................
                                 Systemwide.                           Salmon Just Below the Four Lowermost
                                                                       Mainstem Dams.
2003..........................  Mainstem/          SW2003200000700..  Infrastructure to Complete FDA                          160919  ..................
                                 Systemwide.                           Registration of Erythromycin.
2003..........................  Mainstem/          SW2003200001700..  Kelt Reconditioning: A Research Project to              555121  ..................
                                 Systemwide.                           Enhance Iteroparityin Columbia Basin
                                                                       Steelhead (Oncorhynchus mykiss).
2003..........................  Mainstem/          SW2003200100300..  ISO Adult Pit Interrogation System                     1972106  ..................
                                 Systemwide.                           Installations.
--------------------------------------------------------------------------------------------------------------------------------------------------------

    In May, U.S. District Judge James Redden of Portland remanded the 
2000 Opinion to NOAA Fisheries, agreeing with plaintiffs in a lawsuit 
that the agency may rely on offsite mitigation actions by non-Federal 
agencies, like those in the Council's fish and wildlife program carried 
out by States and Indian tribes, only if the actions are ``reasonably 
certain to occur.'' The plaintiffs asserted, and the judge agreed, that 
while it is likely that subbasin plans will be completed and will 
direct non-Federal offsite mitigation actions, this is not a certainty 
and, similarly, it is not certain that the non-Federal actions will be 
sufficient to avoid further jeopardy to the listed species.
    Letter of Dec. 3, 2001, from the Administrator to the Chair of the 
Power Planning Council, Page 3: ``On a planning basis for fiscal year 
2002-2006, an annual average of $150 million a year of expense dollars 
is estimated by BPA for funding the offsite ESA mitigation as described 
in the 2000 FCRPS BiOps and revised Council Program. This amount is 50 
percent greater than the previous MOA and consistent with the funding 
range assumed in the power rate case and with the Fish & Wildlife 
Funding Principles that projected an annual average of $139 million in 
accruals for purposes of setting BPA's revenue requirement. The $139 
million represents a weighted average of the 13 modeled alternatives 
having a range of $109-$179 million as identified in the fiscal year 
02-06 rate period.''
    Letter of Dec. 10, 2002, from the Administrator the chair of the 
Council, Page 2.
                               __________
    Statement of L. Michel Bogert, Counsel, Office of Governor Dirk 
                       Kempthorne, State of Idaho

    RECOMMENDATIONS OF THE GOVERNORS OF IDAHO, MONTANA, OREGON AND 
    WASHINGTON FOR PROTECTING AND RESTORING COLUMBIA RIVER FISH AND 
WILDLIFE AND PRESERVING THE BENEFITS OF THE COLUMBIA RIVER POWER SYSTEM

I. Introduction
    Three years ago, the Governors of Idaho, Montana, Oregon and 
Washington released a landmark series of consensus policy 
recommendations for protection and restoration of fish in the Columbia 
River Basin.
    Issued in July 2000, the Four Governors' Recommendations for the 
Protection and Restoration of Fish in the Columbia River Basin (2000 
Recommendations) acknowledged a broad regional responsibility and 
commitment to fish and wildlife recovery. We also sought to provide 
useful guidance to Federal decisionmakers and Federal action agencies.
    Since we made our earlier recommendations, we have seen significant 
new pressures on the Bonneville Power Administration (BPA) stemming 
from the 2001 drought and the high power prices that year, with 
lingering regionwide price impacts including increases in power rates 
to BPA customers.
    In the Columbia River Basin, fish and wildlife are inextricably 
linked to the hydropower system, which provides a majority of the 
electricity produced in the region. This statement builds upon our 2000 
Recommendations and goes further to address Columbia River system 
issues important to all Northwest citizens. We hereby make the 
following specific policy recommendations on the resolution of issues 
related to the operation of the Federal Columbia River Power System 
(FCRPS), including the role of the region's Federal power marketing 
agency, the BPA.

II. The Four Governors' Recommendations for Protection and Restoration 
        of Fish and Wildlife
    In December 2000, the National Marine Fisheries Service (now NOAA 
Fisheries) and the United States Fish and Wildlife Service (USFWS) 
issued final Endangered Species Act (ESA) biological opinions covering 
salmon, steelhead, bull trout and white sturgeon in the FCRPS. The 
steps in the biological opinions were largely consistent with our July 
2000 Recommendations, and many of our consensus policies at that time 
have been carried out by the implementing Federal agencies with our 
States as partners.
    The Pacific Northwest has subsequently had nearly 3 years of 
experience in implementing the biological opinions and the ``All-H,'' 
full-lifecycle strategy we endorsed in July 2000. There have been some 
improvements in the fresh water and ocean environments, and these 
improved conditions are yielding larger returns of some salmon and 
steelhead runs. While the increases in some anadromous stocks certainly 
are attributable to more favorable ocean conditions, we believe that 
the investments made by the region in habitat improvements and mainstem 
passage are contributing to the positive results.
    While we are pleased with the progress made since we offered our 
2000 Recommendations, we are not complacent. There are new and 
additional pressures that have come to bear on the tools we have at our 
disposal to achieve fish and wildlife recovery. A recent Federal ruling 
questioned the adequacy of the NOAA Fisheries 2000 FCRPS Biological 
Opinion. The judge identified some shortcomings that may need to be 
addressed under the Endangered Species Act, including the need for 
stronger Federal commitments to species recovery and assurances that 
recovery activity will indeed occur.
    Even though the court is being asked to vacate the biological 
opinion, we support continued ESA coverage for the Federal action 
agencies during the interim as well as implementation of the species 
conservation measures already undertaken. We also believe the Federal 
Government should address the court's concerns by taking positive, 
measurable and cost-effective steps to benefit fish. These steps can be 
accomplished in the next year and continue to demonstrate the Federal 
Government's good-faith commitment to fish recovery.
    As we discussed in our 2000 Recommendations, discussion of 
breaching the four lower Snake River dams is polarizing and divisive. 
The Pacific Northwest made a commitment to pursue a proactive fish and 
wildlife recovery strategy that avoids the breaching of dams, and it 
remains a strategy we continue to strongly endorse.
    We will continue to pursue full implementation of the biological 
opinions to recover our salmon, steelhead, and freshwater species 
because it is not only the right thing to do, but also because the 
failure to do so can jeopardize the Federal hydropower system and re-
ignite the controversy over dam breaching. The recommendations that 
follow will provide our region with confidence that the Northwest will 
continue on the course upon which we have already embarked and that we 
intend to pursue the components of a workable and successful species 
recovery strategy.

A. Fish and Wildlife Recovery
            1. The ``All H'' Approach
    Background: Our 2000 Recommendations identified the key elements of 
a regional approach to the recovery of salmonids and other aquatic 
species such as bull trout and white sturgeon. Those recommendations 
remain just as valid today. We continue to believe that the recovery 
and restoration of fish in the Columbia Basin must consider the entire 
life cycle of the species and that the burden of their conservation 
must be born equitably across the ``H's''--Habitat, Hydroelectric 
System, Harvest, and Hatcheries.
    We also must continue to recognize that there is ``Fifth H``--the 
human element. We cannot recover fish without obtaining the 
participation and support of those who live and work in the watersheds. 
To do that, we must continue to insist upon clear and reasonable goals 
to measure our successes and the means to ensure that we are 
accountable for the actions that we take.
    Further, we must build and rely upon partnerships to plan and 
implement recovery actions and ensure that those plans and implementing 
actions are based on sound science. Securing the advantage of local 
knowledge and support for this work and developing our information and 
objectives from the ``bottom up'' is essential to this effort. The 
specific recommendations that we make below buildupon these key 
principles.
    Recommendations: The Federal agencies have made an important 
commitment to improving habitat in the Columbia River tributaries in a 
manner consistent with, and within the broader context of, the 
Northwest Power and Conservation Council's (Council) Columbia River 
Basin Fish and Wildlife Program. At the State level, and through the 
Council, we also are working with the regions' Tribes as full partners 
in the recovery effort. The Council in turn has emphasized the 
importance of implementing the fish and wildlife program in a manner 
that is integrated with each State's processes dealing with ESA-listed 
species, other fish and wildlife species and watershed issues.
    The hub for this Federal/regional/State/tribal effort is the 
subbasin planning called for by the Council's program. The biological 
opinions should continue to look to these subbasin plans to guide 
habitat, hatchery, and harvest actions in the watersheds throughout the 
Columbia Basin in the coming years.
    While we acknowledge the current legal uncertainty surrounding the 
biological opinion for anadromous fish, fish and wildlife recovery in 
the Columbia Basin cannot occur without the subbasin planning program 
that has been put into place in the Columbia Basin. It is an essential 
component of the All-H approach.
    Through this program, a substantial investment of time and money 
has been made by State and local governments, Tribal governments, 
volunteer groups and individual citizens. We need to honor and respect 
this commitment to fish and wildlife recovery at the local level. We 
will do a great disservice to our fish and wildlife recovery effort and 
those involved with that effort if it is invalidated. We are on the 
right path and must stay this course.
            2. Recovery Plans
    Background: Under the Council's Fish and Wildlife Program, subbasin 
planning is underway in most of the Columbia Basin's 62 subbasins. A 
template has been provided to guide the components that must be 
included in the subbasin plans, including those habitat restoration and 
hatchery strategies that address ESA needs. After these plans are 
submitted to the Independent Scientific Review Panel (ISRP) for review, 
and after approval by the Council, completed subbasin plans, consistent 
with the template, should be incorporated by NOAA Fisheries and the 
USFWS in integrated draft recovery plans at the population and 
evolutionarily significant unit (ESU) scales.
    Each State does not now have clear guidance from the Federal 
Government about the full suite of actions that constitutes a draft 
recovery plan so that their own processes can be used to develop the 
plans. In addition, USFWS bull trout recovery planning efforts are not 
adequately coordinated with other plans.
    Recommendation: Guidelines consistent with the ESA for both 
populationscale and ESU-scale recovery plans may be prepared and 
submitted to NOAA Fisheries and USFWS at the discretion of the 
individual States based on completed subbasin plans. These Federal 
agencies should endorse such guidelines in a timely manner--within 6 
weeks of their submittal by individual States. The States have 
confirmation from NOAA Fisheries that the subbasin planning template 
provided by the Council is adequate for population-scale recovery 
plans, but we require a similar confirmation that our guidelines for 
developing ESU-scale recovery plans will be accepted.
    By September 1, 2003, NOAA Fisheries should indicate by name those 
individuals who will work with each State's organizations responsible 
for recovery planning so that they have continuous, accurate guidance 
from them as to what constitutes an approved recovery plan. The USFWS 
should continue to work with each State to ensure that its expertise is 
available to subbasin planners and to ensure that subbasin plans and 
ESA planning under its charge are consistent.
            3. Recovery Goals
    Background: We are particularly concerned that the pace of the 
Interior Columbia Technical Recovery Team's (TRT) efforts to establish 
the requisite fish and wildlife recovery goals in the Columbia Basin is 
not well synchronized with each State's fish and wildlife recovery and 
protection planning.
    The subbasins are developing their respective fish and wildlife 
subbasin plans based on the template provided by the Council and with 
only interim abundance based salmon recovery goals from NOAA Fisheries. 
Subbasin planning is proceeding as rapidly as is possible and prudent, 
largely to meet the NOAA Fisheries demand in its 2000 FCRPS Biological 
Opinion.
    We need to avoid a situation where the subbasin plans are finished 
on schedule next spring only to find that they do not adequately 
address new or different recovery goals set forth in the separate TRT 
process that appears to be disconnected from and on a slower schedule 
than subbasin planning.
    Recommendation: The TRT process must ensure Federal recovery 
efforts are integrated with each pertinent State's subbasin and 
regional processes, both substantively and in scheduling. Technical 
coordination between the TRT and State subbasin planners and regional 
processes must occur as early as possible. The policy implications of 
TRT products should be considered carefully and in coordination with 
State, Tribal and local governments before release. There may be 
several alternatives to resolve this situation, including a contracting 
arrangement with each individual State in order to meet these 
objectives.
            4. ESA Assurances
    Background: Fish recovery under the ESA incorporates numerous 
actions involving local governments and private landowners on a 
geographic scope never before attempted. Local governments and 
landowners are willing to develop incentive-based programs that address 
listed species concerns but, in so doing, they want assurance that they 
will be afforded some degree of legal protection under terms of the 
ESA. In the absence of progress or such protection, there is little 
practical incentive to become active partners in a Federal recovery 
plan.
    Recommendation: By the end of the year, NOAA Fisheries and USFWS 
should resolve with the Council and appropriate State organizations 
what types of legal assurances will be provided for approved subbasin 
plans and their implementation in the Columbia Basin. As part of that 
resolution, NOAA Fisheries and USFWS should define any procedural and/
or review requirements that they believe are necessary for each type of 
assurance that they will provide.
            5. Monitoring and Accountability
    Background: We are engaged in a long-term sustained initiative to 
recover salmon, steelhead, white sturgeon and bull trout in the 
Columbia Basin which involves considerable effort and funding. 
Recognizing that steps have been taken in this direction, a 
comprehensive and integrated monitoring system needs to be put in place 
so that we know whether--and the degree to which--we are making 
progress, and whether we are getting results for the money expended. 
This is an important component for both biological opinions.
    Efforts to design a monitoring and evaluation program to date have 
been dominated by the Federal agencies without appropriate regard for 
the work and programs already being designed or implemented by the 
States and without an appreciation for the reliance that a 
comprehensive monitoring and evaluation system will have on State, 
Tribal and local entities for implementation.
    Recommendation: By this fall, the Council should convene meetings 
with the four States, the Federal agencies and the fish and wildlife 
managers to design, by year's end, an integrated, complementary and 
scientifically sound monitoring system for counting fish that includes 
budgets and priorities. Also, the Council, working closely with States, 
Federal agencies and Tribes should develop, again by year's end, a 
draft systemwide research plan with budgets and priorities. An 
equitable plan for funding the implementation of this program needs to 
be a part of what is provided. The Council should report to the 
Governors on its progress in meeting this goal.

B. Federal Agency Funding
    Background: The Federal ESA action agencies--BPA, Bureau of 
Reclamation, and the Corps of Engineers--all have substantial 
commitments to fish and wildlife recovery in the region. While we 
recognize that we are in an era of constricted Federal budgets, 
commitments for fish and wildlife funding need to be completed if we 
are to comply with the requirements of the ESA and Northwest Power Act 
while meeting the broader economic and societal objectives in the 
region.
    Recommendation: We support Federal agency budgets that reflect 
commitments made to Columbia Basin fish and wildlife and the ``All-H'' 
approach. We also will work as States with regional partners and with 
the Council, to secure congressional support for separate 
appropriations--including additional appropriations to the States--to 
meet these commitments.

C. Fish and Wildlife Programs
    Background: The Northwest Power Act requires the Council to prepare 
a program to protect and enhance fish and wildlife and mitigate habitat 
losses caused by the development and operation of the hydrosystem. For 
the last decade, we have been largely preoccupied with ESA-listed fish 
species in the Columbia Basin. Frequently, because of limited 
resources, these two efforts are portrayed as being in opposition to 
each other so that project funding for ESAlisted species is viewed as 
competing with mitigation actions for non-listed species.
    In our judgment, too much of a distinction between ESA-listed and 
non-listed fish and wildlife species is being made in fish and wildlife 
planning and implementation activities. When species are listed under 
the ESA, it means we may have failed in our management 
responsibilities. By focusing planning and implementation on all 
species, the Council's proactive approach can work to prevent future 
listings of fish and wildlife species under the ESA while addressing, 
as a subset, those that are listed.
    Recommendation: We strongly endorse the Council's Fish and Wildlife 
Program as a comprehensive, integrated and preventive approach to 
address fish and wildlife issues in the Columbia Basin.
    The Council recently adopted a new Mainstem Plan as part of its 
Program with a core principle being that the entire Columbia Basin 
ecosystem and hydroelectric system must be considered as a whole. We 
urge the Federal action agencies to fully implement the Council's Fish 
and Wildlife Program including the Mainstem Plan as soon as is 
practicable.
    The Council and Bonneville, in consultation with the four Northwest 
Governors and the other Federal agencies, should develop a new funding 
agreement to provide more predictability and certainty for fish and 
wildlife spending over the next few years. This agreement should be in 
place for the next fiscal year beginning in October 2003.

D. Results, Not Process
    Background: The challenge for the Columbia Basin is to overcome the 
propensity for paralysis. The Basin consists of multiple jurisdictions 
involving international, Federal, State, local and Tribal governments, 
and businesses and private landowners. We have initiatives underway for 
power, fish and wildlife, ESA, and predators, as well as the U.S. v. 
Oregon litigation dealing with hatcheries and harvest. The challenge is 
how to effectively move forward together in all of these areas without 
getting bogged down where process substitutes for results.
    Recommendation: In regard to ESA-listed species and the Council's 
Fish and Wildlife Program, we need to set clear goals for what we want, 
clear schedules for when we want it, clear direction for who is 
responsible for taking action, clear identification of cost-effective 
approaches to meet our goals, and clear accountability to measure 
whether or not we have accomplished what we set forth to do.
    Our first step in this regard is to request that the Council 
provide us with a report on the status of these recommendations by the 
end of the year. We also request a report from the Council and from 
NOAA Fisheries and USFWS on the implementation of the biological 
opinions in each State as part of this report. We also endorse the use 
of the Council's Regional Coordination Group to coordinate and oversee 
subbasin planning where issues can be raised and solutions recommended 
regarding implementation of the subbasin plans and planning and the 
relationship of those efforts to ESA-based requirements.

                  III. BONNEVILLE POWER ADMINISTRATION

    The Bonneville Power Administration (BPA) was created 66 years ago. 
It was the product of visionary leadership that believed the Columbia 
River could provide enduring social and economic benefits for our 
individual States and for our region as a whole.
    The Federal Columbia River Power System (FCRPS) brings renewable 
and non-polluting electricity to our homes and businesses, and provides 
75 percent of the region's highest-voltage transmission. It provides a 
major navigation highway for the Northwest and the Interior West, its 
flood control system protects our land and cities, and its water 
irrigates our crops and provides recreational opportunities. The 
Columbia River not only ties us together as a region but also ties us 
to Canada and California as part of a vast, integrated electricity 
system.
    The BPA markets the power generated by the FCRPS. The FCRPS 
provides us not only with a formidable economic engine for the region, 
but also with the ability to meet our environmental and treaty 
obligations. It is our system, built by our leaders and workers on our 
waterways and across our landscapes, and we must protect this valuable 
legacy.
    We follow in the footsteps of earlier leaders who have stepped 
forward to meet the challenges faced simultaneously by BPA and the 
FCRPS. Today, we again face new threats to BPA, and threats to the 
customers who rely upon BPA. We have several recommendations in these 
areas.

A. Protect the Regional and National Economy
            1. BPA's Benefits
    Background: The Pacific Northwest--and the nation--benefit from the 
FCRPS. Recent events, including the combined effects of the volatile 
Western energy market, lack of generation capacity, drought, BPA's 
current financial position and unrealized savings and revenues 
anticipated in prior rate making decisions, have placed serious 
pressure on our power system and our State economies. In many areas, 
electricity rates have increased significantly and are not expected to 
decline for the foreseeable future. We are at risk of losing the 
advantages the region has enjoyed from low power rates for over a half 
century.
    Controversies over the allocation of Federal-based power continue 
to arise. BPA must work within the region to ensure implementation of 
solutions to protect the benefits of the Federal hydropower system.
    Recommendation: We urge BPA's customers, including public and 
private utilities, to reach agreement on the sharing of BPA's benefits. 
Parties to these discussions should stay at the table and continue to 
work to find a solution that can enjoy broad agreement and minimize or 
avoid the currently proposed BPA rate increase.
            2. BPA Operations Review
    Background: BPA faces tremendous financial challenges this year 
resulting from the California and regional energy crisis and near 
record drought of 2001 and the projected rate increases this year for 
its customers. To deal with this situation, BPA has looked for ways to 
cut back on spending, including funding for the offsite habitat work 
called for in the biological opinions.
    Given the vulnerable State of our regional economy, we believe 
Pacific Northwest electricity customers are not prepared to absorb 
another large wholesale rate increase. BPA must do everything within 
its power to avoid or minimize rate increases now and for the remainder 
of the current rate period and place the agency on a path to stable and 
affordable rates soon. We believe these efforts must include securing 
all available efficiencies without compromising its essential 
functions.
    We understand the need to find cost reductions in all areas, 
including fish and wildlife. However, we are concerned that sustained 
or deep funding reductions by BPA in its Fish and Wildlife Program 
could jeopardize the recovery progress we have made and put BPA at 
legal and financial risk.
    Recommendation: We acknowledge the difficulties currently 
confronted by BPA managers, and we encourage their continued efforts to 
resolve them. We call upon BPA, in consultation with the Council, to 
undertake a process to establish priorities within its operations, and 
to focus its resources on those areas that are most critical to its 
mission and bring the greatest benefit to the Pacific Northwest. Such a 
process should involve BPA management and employees, working with the 
Council, and should provide external validation through participation 
and review by independent persons with knowledge of and experience in 
energy, fish and wildlife operations, budgeting, management experience 
and other relevant areas. We request that BPA provide a report to the 
Governors on its progress on this matter by the end of the year.

B. Clarifying BPA'S Future
    Background: For several years, the region has been engaged in 
discussions over the future of BPA, including the 1996 Comprehensive 
Review of the Northwest Energy System. Last fall the region's utilities 
unveiled a proposal to address BPA's future.
    The Council and BPA jointly engaged in a regional dialog on the 
proposal, which is consistent with a recommendation of the 
Comprehensive Review and other efforts to address BPA's future. The 
Council submitted recommendations to BPA to resolve some of the most 
important electricity policy questions currently facing the region, 
especially the need to clarify responsibility for building new 
generating resources to support load growth.
    Recommendation: BPA must address its future in the region. There is 
considerable consensus among BPA's customers and among regional energy 
policy leaders as to the direction BPA should follow. We believe that 
the regional dialog should be reinitiated immediately under the joint 
auspices of the Council and BPA. Joint responsibility is necessary to 
afford credibility to the final results of the dialog.
    We stress the importance of achieving a role for BPA that is 
sustainable for the long term. The Council's recommendations provide 
direction and include:
    1) Long-term contracts to demonstrate a continuing commitment to 
meet the costs of the Federal power system and related stewardship 
obligations. Committing to long-term contracts will help preserve these 
benefits for the Pacific Northwest;
    2) A limited role for BPA in serving the load growth of its 
customers. In most cases when BPA accepts the obligation to meet load 
growth, it should be on a bilateral basis with customers bearing the 
full cost of resources acquired to meet their needs;
    3) Fulfillment of existing fish and wildlife obligations; and
    4) Pursuit by BPA of regionwide conservation and renewable resource 
opportunities.
    Until we accomplish these objectives construction of resources to 
meet new load growth will be delayed, placing the region at risk of 
another electricity crisis.

C. Transmission
    Background: Electricity in the Northwest is highly integrated with 
the BPA system that operates 75 percent of the highest voltage lines of 
the region's transmission system. In recent years, the Federal Energy 
Regulatory Commission (FERC) has attempted to continue standardizing 
the electric wholesale market and the structure of the transmission 
system. The proposed rulemaking on Standard Market Design is the most 
recent attempt. The debate on these issues has uncovered differences in 
regional electricity markets and spotlighted the need for practical 
regional solutions rather than a single national design.
    Recommendation: The FERC and Congress must ensure that any 
restructuring of the transmission system in the Northwest is compatible 
with our regional system as defined by our regional processes. For the 
Northwest, the FERC should support the voluntary formation process of 
Regional Transmission Organizations (RTOs). The Governors expect that 
any changes that are made to the operation of the transmission system 
in the Northwest will benefit the region.

                           IV. OUR COMMITMENT

    The vitality of BPA and the health of our fish and wildlife in the 
Columbia Basin are mutually dependent. We cannot focus on one side or 
the other, or promote one at the expense of the other. Our leaders saw 
the necessity for this balanced approach between power and fish and 
wildlife two decades ago during the debate over the Northwest Power 
Act. We remain committed to this balanced approach.
    We acknowledge that the FCRPS benefits have come with a cost--
adverse impacts on the Columbia Basin's fish and wildlife. With our 
locally based efforts in the watersheds, we are following through on 
our commitments while we are avoiding becoming sidetracked by issues 
that will only divert and divide us as a region. We will stay the 
course and solve our problems as a region. We will continue to pursue 
full implementation of the biological opinions to recover our salmon, 
steelhead and freshwater species not only because it is the right thing 
to do, but also because the failure to do so will jeopardize the 
Federal hydropower system. Breaching the four lower Snake River dams 
must not be an option.
    The Columbia River and all its tributaries have provided immense 
benefits to the Northwest in natural resources and hydropower 
production. Despite the fact that the hydropower system is indelibly 
woven into our region's economy and natural environment, threats 
continue from outside the region that challenge our right to our own 
resource. Certain interests outside the Pacific Northwest continue to 
covet the benefits of the Columbia Basin, challenging our right to 
cost-based power and not fairly crediting BPA with its assistance to 
California during that State's energy crisis.
    The Pacific Northwest Governors and other public officials of the 
region will maintain a united front to oppose any challenge to degrade 
the regional benefits provided by the Federal hydropower system in the 
Pacific Northwest. Reliable, cost-based energy of the FCRPS is the 
bedrock of our regional economy, and the revenue it produces is the 
lifeblood for financing the restoration and protection of our fish and 
wildlife as well as for meeting our Tribal treaty responsibilities.
    We have accepted financial responsibility for this system, 
including the attendant natural resource stewardship for many decades, 
and we will continue to do all we can to protect and preserve the 
benefits of the Federal Columbia River Power System.

                               __________
Statement of Steven M. Huffaker, Director, State of Idaho Department of 
 Fish and Game, Representing Columbia Basin Fish and Wildlife Authority

Introduction
    Mr. Chairman and members of the Subcommittee, on behalf of the 
Members\1\ of Columbia Basin Fish and Wildlife Authority I would like 
to thank you for the opportunity to testify on the implementation of 
the National Marine Fisheries Service's 2000 Biological Opinion for 
listed anadromous fish regarding operation of the Federal Columbia 
River Power System. The 2000 Biological Opinion is the central document 
directing anadromous fish recovery efforts in the Columbia River Basin, 
and it affects the work of all fish and wildlife managers in the basin. 
Implementation of this Biological Opinion is of great importance to us.
---------------------------------------------------------------------------
     \1\The Columbia Basin Fish and Wildlife Authority was established 
in 1987 to coordinate the efforts of its Members to protect and enhance 
fish and wildlife resources of the Columbia River Basin through joint 
planning and action. The Authority provides a forum to facilitate the 
exchange of information among Members on matters affecting anadromous 
fish, resident fish, and wildlife resources and their habitat. The 
Authority Members include: Burns-Paiute Tribe, Coeur d'Alene Tribe, 
Confederated Salish and Kootenai Tribes of the Flathead Reservation, 
Confederated Tribes of the Colville Reservation, Confederated Tribes of 
the Umatilla Indian Reservation, Confederated Tribes of the Warm 
Springs Reservation of Oregon, Idaho Department of Fish and Game, 
Kalispel Tribe of Indians, Kootenai Tribe of Idaho, Montana Department 
of Fish, Wildlife and Parks, National Marine Fisheries Service, Nez 
Perce Tribe of Idaho, Oregon Department of Fish and Wildlife, Shoshone-
Bannock Tribes, Shoshone-Paiute Tribes, Spokane Tribe of the Spokane 
Reservation-Washington, U.S. Fish and Wildlife Service, Washington 
Department of Fish and Wildlife, Confederated Tribes and Bands of the 
Yakama Nation.
---------------------------------------------------------------------------
    As fish and wildlife managers we expect our efforts to result in 
recovered, healthy, fishable populations of anadromous fish in the 
Pacific Northwest, just as we expect as citizens that the lights will 
illuminate each time a switch is turned on. But the inextricable 
linkage of fish and wildlife resources and hydropower in the Pacific 
Northwest complicates our efforts and calls for great collaboration, 
commitment, and devoted implementation in order to progress toward fish 
and wildlife recovery. We compliment your leadership, Mr. Chairman; in 
resolving the many issues the region faces planning and implementing 
recovery actions. Your first-hand knowledge of the people and fish and 
wildlife resources of the Pacific Northwest is a real asset to 
resolving the complicated and controversial issues we are addressing 
today.
    My testimony will address a regional, integrated fish and wildlife 
program and its relationship to the 2000 Biological Opinion. Fish and 
wildlife management does not divide actions into discrete categories of 
Biological Opinion implementation versus other mitigation or management 
actions. The fish and wildlife managers view the Columbia River as 
``one river'', an ecosystem which must be managed in its entirety. 
Implementation of the 2000 Biological Opinion, which concerns only ESA-
listed anadromous fish, is part of a very large integrated effort to 
restore all fish and wildlife and the habitats they depend on in the 
Columbia River Basin. The Northwest Power Planning Council's (NWPCC) 
Fish and Wildlife Program\2\ addresses both ESA-listed and unlisted 
species. Subbasin planning efforts led by the NWPCC are intended to 
further integrate Federal, State, tribal and private efforts on behalf 
of fish and wildlife resources.
---------------------------------------------------------------------------
     \2\Northwest Power Planning Council Columbia River Basin Fish and 
Wildlife Program. Council Document 2000-19.
---------------------------------------------------------------------------
    We believe that satisfactory restoration of Columbia River Basin 
fish and wildlife resources, with several resource plans functioning 
simultaneously, requires that the following three conditions be met:

    1. action implementers must be better coordinated and be held more 
accountable for their actions;
    2. there must be rigorous monitoring and evaluation protocols in 
place; and,
    3. there must be adequate funding to get the job done 
appropriately. I will elaborate on each of these three conditions.
Coordination and Accountability
    The fish and wildlife managers are concerned that roles and 
responsibilities of all appropriate Federal agencies involved with 
implementation of the 2000 Biological Opinion have not been defined, 
and coordination of activities among all Federal agencies has not 
satisfactorily occurred. Specifically, the roles and responsibilities 
of U.S. Department of Agriculture agencies do not appear to be 
adequately coordinated with the 2000 Biological Opinion. Defining the 
roles and responsibilities of the various 2000 Biological Opinion 
Action Agencies\3\ and other Federal agencies is critical to improving 
coordination and accountability. Clearly defined responsibilities will 
help accomplish several things: defined responsibilities will reduce 
duplication of efforts among agencies and other action implementers and 
help assure that no tasks are forgotten, defined responsibilities can 
serve as standards against which Federal agency and other action 
implementer performances can be evaluated, allowing the region to 
answer the question, ``Are the agencies getting their tasks done?'', 
and defining the responsibilities of all of the implementers will start 
addressing an important concern of Bonneville Power Administration, 
that it should not have full responsibility for recovering ESA-listed 
species and mitigating for fish and wildlife loses in the Columbia 
River Basin.
---------------------------------------------------------------------------
     \3\The Action Agencies are U.S. Bureau of Reclamation, U.S. Army 
Corps of Engineers, and the Bonneville Power Administration.
---------------------------------------------------------------------------
    NOAA Fisheries has made an important first step in defining 
responsibilities for ESAlisted anadromous fish in its 2000 Biological 
Opinion, and is starting the effort to hold the Action Agencies 
accountable with the 2003, 2005, and 2008 check-ins. The 2000 
Biological Opinion also states ``Failure to achieve the population 
performance standards could trigger a number of options for the Federal 
Columbia River Power System, including re-consultation and pursuing the 
dam breach option.\4\'' At a workshop this spring on Federal agency 
budgets hosted by NOAA Fisheries' Implementation Team, several 
important Federal agencies did not participate, and among those that 
did, most were unable to provide useable information on how much they 
had spent or intend to spend on ESA-related work in the basin. A 
special effort should be made to review Federal budgets in order to 
track spending on Columbia River Basin fish and wildlife recovery. We 
recommend the initiation of a GAO review of what is being done in the 
Columbia River Basin by all Federal agencies for anadromous fish and 
other species and the costs associated with those actions.
---------------------------------------------------------------------------
     \4\Endangered Species Act-Section 7 Consultation, Biological 
Opinion, Reinitiation of Consultation on Operation of the Federal 
Columbia River Power System, Including the Juvenile Fish Transportation 
Program, and 19 Bureau of Reclamation Projects in the Columbia Basin. 
Consultation Conducted by: National Marine Fisheries Service Northwest 
Region. Date Issued: December 21, 2000.
---------------------------------------------------------------------------
    The Governors of Idaho, Montana, Oregon and Washington (Four 
Governors) recent recommendations\5\ for preserving the benefits of the 
Columbia River power system make several excellent suggestions for 
improving accountability and are a start at defining the States' 
responsibilities to Columbia River Basin fish and wildlife. The 
region's States and tribes have their own fish and wildlife 
responsibilities and plans to meet them. We support the Governors' 
commitment to subbasin planning as the means to integrate these State 
and tribal plans with Federal and private fish and wildlife restoration 
efforts.
---------------------------------------------------------------------------
     \5\Recommendations of the Governors of Idaho, Montana, Oregon and 
Washington for Protecting and Restoring Columbia River Fish and 
Wildlife and Preserving the Benefits of the Columbia River Power 
System. Delivered to the President of the United States, June 5, 2003.
---------------------------------------------------------------------------
Monitoring and Evaluation
    From a manager's perspective, a sound monitoring and evaluation 
program is necessary to both evaluate the status of the resource being 
managed and assess the effectiveness of actions implemented to improve 
the resource. This is especially true for the 2000 Biological Opinion, 
where a large number of offsite mitigation actions are called on to 
benefit anadromous fishes in the basin. The Four Governors recommended 
that a strong, integrated monitoring and evaluation program be in place 
to assure that efforts to restore fish and wildlife are working and are 
cost-effective. We agree with the Four Governors' recommendation. The 
Columbia Basin Fish and Wildlife Authority Members have developed a 
comprehensive plan for collaborative monitoring in the Columbia River 
Basin. The NWPCC recently recommended this project for funding to the 
Bonneville Power Administration (BPA), and implementation is being 
negotiated with BPA and the NWPCC. This project would focus on the 
issue of system wide monitoring and evaluation of fish status, 
addressing requirements of NOAA Fisheries and U.S. Fish and Wildlife 
Service Biological Opinions and Recovery Plans as well as the NWPCC 
Fish and Wildlife Program.

Adequate and Stable Funding
    The fish and wildlife managers need assurances that adequate 
funding is available and accessible to implement priority actions for 
restoring and protecting all fish and wildlife resources and their 
habitats. The NWPCC, under their Fish and Wildlife Program, recently 
completed a review of all subbasins in the United States portion of the 
Columbia River Basin. This review included a call for proposals 
regarding actions necessary to restore and protect fish, wildlife and 
habitat resources in the basin. Over $344 million in annual projects 
that met rigorous scientific, management and public scrutiny were 
identified. These are opportunities that exist today for recovery of 
listed species as well as protection and restoration of non-listed 
species. The NWPCC subbasin planning effort will provide a more 
definitive estimate of the costs of resource restoration in the basin, 
costs that are likely to be even larger.
    Current funding to implement these projects is insufficient. During 
Federal fiscal year 2003, the BPA has limited spending in the NWPCC 
Fish and Wildlife Program to less than $139 million. Considering this 
funds BPA overhead for $12 million, subbasin planning for $10 million 
and independent science review for $1 million, less than $126 million 
supports for on-the-ground projects that directly benefit fish and 
wildlife. Confounding this situation is the fact that insufficient 
funding has been authorized for implementation of the 2000 Biological 
Opinion. Thus the NWPCC Fish and Wildlife Program, which addresses all 
fish and wildlife resources in the basin, must now compete against the 
2000 Biological Opinion for funds. This creates a situation where funds 
are shifted from other Federal fish and wildlife mitigation obligations 
to the 2000 Biological Opinion.
    It is important to us as fish and wildlife managers that the needs 
of all species be met. The needs of resident fish and wildlife, 
particularly in areas blocked by the dams, are not less important than 
the needs of ESA-listed anadromous species. The first step to meeting 
these needs is assuring that adequate funding is available to meet the 
Federal mitigation obligations. From 1996 to 2001 funding of Columbia 
Basin fish and wildlife activities was guided by a Memorandum of 
Agreement\6\ (MOA) among the Federal Parties. That MOA resolved policy 
and procedural issues related to funding Federal mitigation 
obligations. No new MOA was established following expiration of the 
1996-2001 MOA, and many of the policy and procedural issues that led to 
that MOA are now re-appearing.
---------------------------------------------------------------------------
     \6\Memorandum of Agreement Concerning the Bonneville Power 
Administration's Financial Commitment for Columbia River Basin Fish and 
Wildlife Costs. Signed by the Secretaries of Energy, the Army, 
Commerce, and the Interior on September 13-16, 1996.
---------------------------------------------------------------------------
    We believe a new MOA must be negotiated and established so that 
time, money and energy currently spent on process issues can be 
redirected to on-the-ground resource enhancement actions. The MOA must 
resolve key issues such as budgeting procedures, capital expenditure 
planning, habitat crediting, and the integration of regional budgets 
with the congressional appropriations process. Also, the MOA must 
define the responsibilities of all parties, including the U.S. 
Government trust and treaty responsibilities to the tribes, and its 
development must include full consultation with the fish and wildlife 
managers in the basin.
    The establishment of a formal MOA is also supported by the NWPCC. 
In a recent publication,\7\ the NWPCC stated``. . . the re-
establishment of a process to develop formal memoranda of agreement 
that would specify funding levels for Bonneville rate periods, or some 
other period of time, would be welcomed in assuring the region's fish 
and wildlife interests that Bonneville's obligations will be met.'' We 
agree with the NWPCC that to ensure adequate funding levels``. . . a 
transparent process that involves all regional entities and the public 
must be established . . .''.
---------------------------------------------------------------------------
     \7\Northwest Power Planning Council Recommendations on the Future 
Role of Bonneville in Power Supply. December 17, 2002. Council Document 
2002-19.
---------------------------------------------------------------------------
    In addition to assurances of meeting the current Federal fish and 
wildlife mitigation obligations, we need assurances that there will be 
adequate funding to satisfy future needs. As mentioned in our 
introductory comments, the region is actively engaged in subbasin 
planning under the NWPCC Fish and Wildlife Program. We are seeing BPA 
funds that support NWPCC Fish and Wildlife Program activities being 
diverted to implement the 2000 Biological Opinion. Because of this, 
there is no certainty that funds will be available to complete 
development of the subbasin plans, implement the actions that they 
recommend, and monitor and evaluate the results. We are involving the 
public and building public trust in the subbasin planning process, and 
do not wish to see this trust destroyed because lack of a funding-
vision brought subbasin planning to an end.

Closing Statement
    In closing, Mr. Chairman, I would like to assure you that the fish 
and wildlife managers fully appreciate the importance and value of 
anadromous fish to the Pacific Northwest. I am sure you are well aware 
how in Idaho the improved salmon and steelhead returns in recent years 
have created and supported both tribal and sport fishing opportunities, 
and how small local communities have benefited from the economic 
stimulus provided by the fisheries. That theme was repeated in other 
areas of the Columbia River basin that salmon and steelhead migrate 
through or have access to, and we would like to see it extended to all 
areas of the basin for all species.
    Direct expenditure on fish and wildlife restoration is a very good 
investment. Many of the dollars go directly into local communities 
throughout the basin, paying salaries and buying services and products. 
Economists can apply multipliers to the dollars spent and show how 
their value increases as they circulate through the local economy. 
Until recently the intangible number was the interest gained on that 
investment. Recent surveys\8\ have shown us that the return on those 
investments easily could be in the millions of dollars. Healthy fish 
and wildlife populations attract people for a variety of reasons. That 
attraction leads to a redistribution of money to small rural economies. 
There is a great societal benefit to restoring our natural resources to 
healthy levels.
---------------------------------------------------------------------------
     \8\For example, the December 2002 report ``The Economic Impact of 
the 2001 Salmon Season in Idaho'' prepared by Ben Johnson Associates, 
Incorporated, for the Idaho Fish and Wildlife Foundation estimated the 
total economic impact of the 2001 salmon season in Idaho was 
$89,880,015.
---------------------------------------------------------------------------
    We urge you to strive for adequate funding concomitantly for both 
Biological Opinion implementation (regardless of what Biological 
Opinion is considered) and existing Federal mitigation obligations. 
Funding should not only be provided through the BPA mitigation for the 
Federal Columbia River Power System, but by all Federal agencies 
responsible for implementing the 2000 Biological Opinion. Adequate 
funding is an important step for integrating Federal, State, and tribal 
efforts to restore and protect our fish and wildlife resources. We can 
manage the Columbia River basin as an ecosystem and achieve basin-wide 
results only through a fully integrated program.

                               __________
       Statement of Nez Perce Tribal Chairman Anthony D. Johnson

                              INTRODUCTION

    Good morning, Chairman Crapo. My name is Anthony Johnson and I am 
Chairman of the Nez Perce Tribe. I would like to thank you and the 
members of the subcommittee for holding this hearing.

             THE SALMON'S IMPORTANCE TO THE NEZ PERCE TRIBE

    The Nez Perce Tribe has fished since time immemorial, and in our 
1855 Treaty with the United States, our ancestors expressly reserved 
the right to take fish at all our usual and accustomed places 
throughout the Columbia River Basin. For the Nez Perce Tribe, salmon 
are more than an icon of the Pacific Northwest; they are crucial to our 
culture, our way of life, our spiritual beliefs, and our economy. 
Without them, we are not Niimiipuu.

 THE IMPACTS OF THE FEDERAL HYDROPOWER SYSTEM HAS LED TO SALMON BEING 
               LISTED AS ``ENDANGERED'' OR ``THREATENED''

    The impact of the Federal hydropower system on the salmon, and on 
our people has been devastating. Today, in large part due to the 
Federal hydropower system, every run of Snake River salmon that returns 
to the Nez Perce Tribe's usual and accustomed fishing places in the 
Columbia River Basin is either extinct, or listed as threatened or 
endangered under the Endangered Species Act. These include Snake River 
coho, Snake River sockeye, Snake River spring, summer, and fall 
chinook, and Snake River steelhead.

                      TODAY'S HEARING THREE POINTS

    Today, you have invited me to speak on ``The implementation of the 
National Marine Fisheries Service's 2000 Biological Opinion regarding 
the operation of the Federal Columbia River Power System.'' I would 
like to make three points.

     FIRST, THE FCRPS BIOLOGICAL OPINION HAS BEEN DECLARED ILLEGAL!

    The Federal district court's recent ruling that NMFS' Biological 
Opinion for the FCRPS is illegal should come as no surprise.
    The ESA has highlighted that FCRPS cries out for a major overhaul 
In 1994, Judge Malcolm Marsh declared that the hydropower system ``was 
literally crying out for a major overhaul'' in one of the initial legal 
challenges to FCRPS operations under the Endangered Species Act. (Idaho 
Department of Fish and Game v. NMFS).
NMFS has avoided facing reality shown it by the Basin's salmon managers
    Senator Crapo, we know that you have carefully followed impact of 
the FCRPS on salmon over the years. You, like us, watched as NMFS 
deferred its decision on a ``major overhaul'' for 5 years. You, like 
us, watched as NMFS discarded the closest thing to a true collaborative 
approach in the Columbia Basin: PATH (Plan for Analyzing and Testing 
Hypotheses), which involved biologists from the States, the tribes, the 
Federal Government, and independent scientists known as. Senator Crapo, 
you will recall that the Idaho Department of Fish and Game testified 
before you concerning NMFS' departure from the conclusions reached by 
PATH. NMFS' departure from the PATH conclusions, and its peer review, 
appeared to be motivated by the fact that PATH had concluded that 
breaching the four lower Snake River dams was the best means for 
restoring Snake River salmon.
    NOAA's flawed approach NMFS' ``non-breach'' biological opinion 
appeared to the Nez Perce Tribe and all the other salmon managers in 
the Columbia Basin to be biologically flawed. And, while NMFS' 
biological opinion was billed as an ``aggressive non-breach'' approach, 
upon closer examination it was clear that it was mostly hope and good 
intentions.
    The litigation has exposed the biological concerns with NOAA's 
approach The Nez Perce Tribe, along with the State of Oregon, has 
actively participated in this litigation to point out the flaws in the 
2000 FCRPS BiOp. One point the Nez Perce Tribe made is that no matter 
which side of the litigation the States and tribes ended up on in this 
litigation, the formal comments they submitted in the record, and all 
detail the biological flaws with NMFS' approach.

                   SECOND, WHERE DO WE GO FROM HERE?

    Leadership Is Needed The Federal court's ruling regarding the 
illegality of NMFS' BiOp under the ESA cries out for leadership, the 
kind you, Mr. Crapo, are showing, by calling this hearing. After the 
Court's ruling, I stated that, ``The decision gives the Columbia 
Basin's sovereigns a tremendous opportunity to ensure that salmon are 
recovered by actions, not words.''
    The Lack of Leadership Will Place The Issue in the Nation's Hands, 
and Increase the Pressure for Breaching the Four Lower Snake River Dams 
Unfortunately, others in the region appear to be placing their heads in 
the sand.
    The Governors' Lowest Common Political Denominator After the 
Federal court declared NMFS' Biological Opinion for the FCRPS illegal, 
the regions' four Governors, in a testament to the lowest common 
political denominator, pledged to ensure that breaching the four lower 
Snake River dams is not on the table, because, in their words this 
issue is ``polarizing and divisive.'' While paying lip service to 
supporting Federal agency budgets, and additional appropriations 
necessary to meet the ``non-breach'' approach, the Governors refused to 
do so if it meant adjusting rates to meet the legal obligations of the 
Endangered Species Act or the Northwest Power Act's equitable treatment 
mandate.
    BPA is frustrating salmon recovery After the Federal court declared 
NMFS' Biological Opinion for the FCRPS illegal, Steve Wright, the 
Administrator of the Bonneville Power Administration, testified before 
the Senate Committee on Indian Affairs (on June 4, 2003) regarding fish 
and wildlife obligations to the Northwest Tribes. Amazingly, he 
completely failed to mention to the Senate that NMFS' Biological 
Opinion had been declared illegal. At a time when the Federal court and 
the salmon are crying out for more fish and wildlife recovery not less 
BPA has announced reductions in its fish and wildlife investments. 
BPA's indifference to salmon restoration makes it nearly impossible for 
an ``aggressive non-breach'' approach to occur.
    More than the status quo is required Simply put, the status quo is 
not good enough to satisfy the Endangered Species Act, to say nothing 
of the United States' treaty and trust obligations. The Save Our Wild 
Salmon Coalition, in its detailed ``Report Card'' on the implementation 
of the BiOp, found that Federal agencies received half of the funding 
required by the ``non breach'' plan and accomplished less than 30 
percent of the work. We are disappointed that they are not here today, 
as we believe they are partially responsible for this hearing 
occurring. To that end, we would like to be sure that you pay special 
attention to the Save Our Wild Salmon testimony, which we understand 
has been submitted as part of the record.

      THIRD, WE CALL ON YOUR LEADERSHIP TO PROVIDE WHAT IS NEEDED

    We request your leadership in three ways.
    First, monitor the development of the new FCRPS BiOp As NOAA 
rewrites its Biological Opinion for the FCPRS, we urge you to monitor 
this process closely. Neither we, nor the salmon, can afford to waste 
more time. We urge you to urge NMFS and the ``Action Agencies'' 
(Bonneville, the Bureau of Reclamation, and the Corps of Engineers) to 
ensure that they embark on a salmon recovery strategy that is 
economically feasible, scientifically credible, and realistically 
achievable. We urge you and the subcommittee members to monitor this 
process carefully.
    Second, scrutinize BPA's commitment to salmon recovery We urge your 
continued oversight of the actions of the Bonneville Power 
Administration with respect to its fish and wildlife funding. The Nez 
Perce Tribe has shown its on-the-ground leadership in implementing 
salmon recovery projects funded by Bonneville, including award-winning 
habitat restoration actions and the cutting edge Nez Perce Tribal 
Hatchery. Bonneville's reluctance to fund fish and wildlife recovery 
projects undermines its commitment to a ``non breach'' alternative. We 
urge you to urge the General Accounting Office to continue its ongoing 
investigations into Bonneville's financial and fish and wildlife 
obligations.
    Third, continue to support the Pacific Coastal Salmon Recovery 
program Your support for Pacific Coastal Salmon Recovery has begun to 
show results with the projects implemented by the Nez Perce Tribe. We 
also support your efforts, and those of other members of the Idaho 
delegation, to see that the State of Idaho is included as a full 
participant in this critical program. We urge you to continue to ensure 
that this program is reauthorized for another 6 years, with increased 
funding for the tribes and States, in support of coordinated salmon 
restoration efforts, including the actions being implemented by the Nez 
Perce Tribe.

                               CONCLUSION

    I appreciate this opportunity for the Nez Perce Tribe to testify. I 
will be submitting amended written testimony for the record and ask 
that you also allow the written testimony of the other Columbia River 
treaty tribes to be included in the record.

                               __________
     Statement of Nancy Murillo, Chairman, Shoshone-Bannock Tribes

    Mr. Chairman, Members of the Committee, on behalf of the Shoshone-
Bannock Tribes, I appreciate the opportunity to submit these comments 
to you on the impacts on Fish and Wildlife Management Programs in the 
Pacific Northwest.
    As Chairman of the Fort Hall Business Council, governing body of 
the Shoshone-Bannock Tribes, I provide the perspective of the Tribes 
regarding the impacts on Tribal Fish and Wildlife Management Programs 
in the Pacific Northwest. The Tribes' testimony will focus on the 
Federal Columbia River Power System Biological Opinion (BiOp); the BiOp 
Implementation Plans; the Bonneville Power Administration funding of 
the Columbia River Basin Fish and Wildlife Program through the Pacific 
Northwest Power and Conservation Council under the Pacific Northwest 
Power Planning and Conservation Act; Federal Energy Regulatory 
Commission re-licensing; and the need for additional funding to fully 
analyze and participate in the numerous Federal and private forums 
surrounding the operation of the Columbia River Power System and its 
impact on anadromous fish and to implement the actions necessary to 
protect and restore the fish and wildlife resources of the Columbia 
River Basin.
    In historic times, Idaho's Shoshone and Bannock speaking peoples 
were located at the headwaters of four major river systems in the 
western United States. They lived along, utilized, and traveled the 
rivers and tributaries of the Salmon and Snake, which feed the Columbia 
River system; but they also spent time on the rivers and tributaries 
leading to the Great Basin and the
    Missouri, as well as, the Colorado Rivers. The vast majority of 
people descended from these Idahoans now live on the Fort Hall Indian 
Reservation in southern Idaho as enrolled members of the Shoshone-
Bannock Tribes. We hold entitlements to these river systems which were 
bequeathed to us not only by our ancestors historic patterns of use but 
also by the treaties and other legally binding agreements made with the 
government of the United States (e.g., the Fort Bridger Treaty of 1868 
(15 Stat. 673). The Shoshone-Bannock Tribes have treaty rights on all 
unoccupied lands of the United States; and we manage our fisheries 
through our Treaty priority right in conjunction with our efforts in 
the Federal case, U.S. v. Oregon.
    The Shoshone-Bannock Tribes have been involved for many years in 
the numerous policy, production and management processes tied to the 
Columbia and Snake rivers. We realize the importance of prioritization 
of the most important processes due to our limited staff and resources. 
This includes active involvement in prioritizing the absolutely 
critical and threshold projects needed to implement a balance between a 
reliable and inexpensive energy supply with the fish and wildlife needs 
that are impacted by the Columbia River Power System. The Shoshone-
Bannock Tribes are full supporters of the Columbia Basin Fish and 
Wildlife Authority as a coordinating body for much of these activities.

Endangered Species Act and the Columbia River Hydropower system
    One of the realities of Fisheries Management is the fact the 
Shoshone-Bannock Tribes cannot do any management without being 
completely absorbed by the Federal Endangered Species Act. We spend so 
much time on the processes that exist, that little time or staffing is 
left for actual production and management efforts to promote recovery 
of the salmon. However, the Shoshone-Bannock Tribes continue to 
prioritize on-the-ground implementation of actual production, hatchery 
reform, and harvest management activities despite the overwhelming 
burden of process. Our production efforts are also accomplished through 
U.S. v Oregon management agreements, by ESA through National Marine 
Fisheries Service NOAA Fisheries (NMFS) processes, and often by 
unresolved scientific (i.e., genetic) uncertainty and political 
infighting of the various governance structures.
    The National Marine Fisheries Services (NMFS) and the U.S. Fish and 
Wildlife Service (USFWS) issued Biological Opinions (BiOps) in December 
2000 for the operation and maintenance of the Federal Columbia River 
Power System (FCRPS). This complex of dams and reservoirs is operated 
by the U.S. Army Corps of Engineers (Corps), the U.S. Bureau of 
Reclamation (Reclamation) and the Bonneville Power Administration 
(BPA), referred to
    collectively as the Action Agencies. The Action Agencies first 
implementation plan (The ESA Implementation Plan 2002-2006) was 
published as a draft in July 2001 and circulated for review; the 2002-
2006 5-year plan was followed by the release of the first annual 
implementation plan. The NMFS BiOp also calls for annual progress 
reports as well as comprehensive check-ins in 2003, 2005, and 2008.
    The Shoshone-Bannock Tribes are concerned with the continuing 
modifications of past plans before they are implemented. We have been 
involved with decades of planning that have not yet been implemented. 
Once again, the 2002, implementation plans for the 2000 BiOp have 
remained unsatisfactory to the needs of the endangered species and the 
Shoshone-Bannock Tribes. Less than 30 percent of the measures required 
to be completed by 2002 were accomplished; yet, water temperatures 
continue to increase, water flows continue to decrease, and funding 
allocations remain inadequate to correct these major deficiencies. For 
example:
    1) Hydro system--the Shoshone-Bannock Tribes have recognized for 
many years that the Columbia River Power System of dams and reservoirs 
impede salmon migration and return to over 900 miles of river system, 
and requires major system configuration modifications. The Shoshone-
Bannock Tribes have long advocated breaching the four lower Snake River 
dams (Ice Harbor, Lower Monumental, Little Goose and Lower Granite 
dams), not only for the benefits to anadromous fish, wildlife and clean 
water, but also for the major economic benefits that will result from 
more efficient alternative energy sources, additional recreation 
opportunities, preservation of tribal cultural resources, and 
associated long-term savings in fish and wildlife mitigation. The 
Shoshone-Bannock Tribes have long maintained that the hundreds of 
millions of dollars being spent on ``fixing'' these dams is a great 
waste, and that the expenditures would be significantly less if instead 
the investment were to fix the river by mothballing the dams.
    2) Habitat restoration--the Shoshone-Bannock Tribes have tried to 
acquire land as conservation easements to return fragmented habit for 
fish and wildlife connectivity. The Shoshone-Bannock Tribes have 
continuously attempted to put and keep clean, cold water into the 
streams, without the migration barriers associated with irrigation 
diversions, dewatering, and toxicity from mine effluent.
    3) Hatchery-reform--the Shoshone-Bannock Tribes have been leaders 
in using low technology and inexpensive artificial propagation 
techniques that attempt to use hatchery-origin fish to rebuild wild, 
naturally spawning populations of anadromous fish. These efforts 
include side-stream egg incubators, and adult and smolt outplants of 
hatchery fish into wild fish areas. However, the ambiguous genetic 
theories of modern science continuously impede these efforts, even 
after several of the Pacific Northwest tribes have shown major success 
stories of these hatchery reform techniques.
    4) Harvest the mixed stock interception fisheries are inequitable 
to the salmon resource and the Shoshone-Bannock Tribes. Selective 
fisheries should be initiated based on fishing area rather than gear 
restrictions. Releasing harvested salmon after being caught does not 
aide salmon recovery. The Shoshone-Bannock Tribes harvest fish in areas 
and at levels the populations of salmon can support and encourage all 
other entities to do the same.
    Simply put, the Shoshone-Bannock Tribes are trying to put water 
into the creeks, and fish in the water. The Shoshone-Bannock Tribes 
attempt to carry out the purposes of our Tribal Policies and the Treaty 
commitments made in the 1868 Fort Bridger Treaty by being actively 
involved in the numerous forums that are designed to implement the ESA. 
It is our position that the ESA must be implemented in accordance with 
our Treaty.
    It is difficult for Indian people to understand why the Northwest 
doesn't recognize what the native people have long known; fish need 
clean natural rivers to survive, just as the human being needs clean 
water to replenish our bodies. The Federal Action Agencies 
implementation plan does not promote clean, cool water for anadromous 
fish. Storage reservoirs have not been refilled, salmon flow targets 
have not been meet, Potlatch continues to discharge 90 plus degree 
water and tributary habitat continues to be degraded. Likewise, the 
Treaty commitments and Trust Responsibility that has been statutorily 
assigned to the Federal family has not been upheld. The Shoshone-
Bannock Tribes along with other tribes in the Region must constantly 
analyze the Federal actions to make sure that the Tribal goals and 
policies have been incorporated in the Action Agencies plan(s). In 
addition, we are constantly involved with the scientific, technical and 
policy forums to protect our Tribal Treaty commitments. Both the 
process and the modern science results in a huge financial burden being 
placed on the Tribes and a huge staffing need to protect our concerns.
Bonneville Power Administration Fish and Wildlife Funding
    The Shoshone-Bannock Tribes have received funding for Fish and 
Wildlife projects pursuant to the Pacific Northwest Power and 
Conservation Council's (Council) processes for several years. We are 
very concerned with the political influences that impact Bonneville 
Power Administration (Bonneville) funding of the Columbia River Basin 
Fish and Wildlife Program. The Shoshone-Bannock Tribes have been 
sponsors of several fish and wildlife project proposals that ranked 
higher in both the fish and wildlife managers' and the Independent 
Scientific Review Panel review and prioritization based on scientific 
validity, only to get bumped out of the process by lower scientifically 
ranked proposals, due to recommendations made by Governor-appointed 
Council members. For example, in the East Fork Salmon River, the 
Shoshone-Bannock Tribes proposed to use Bonneville funds to purchase 
land that included fish acclimation ponds and prime fish and wildlife 
habitat as a conservation easement, including the suspension of 
irrigation to allow more water to remain in the stream and tributaries. 
This proposal ranked very high and was recommended for Bonneville 
funding in both scientific reviews, yet the Council did not recommend 
funding to Bonneville. The Idaho Governors Office of Species 
Conservation sponsored a similar proposal further up the East Fork 
Salmon River, for a similar amount of land but that did not include 
fish acclimation ponds and did not suspend irrigation. The Governor's 
Office proposal ranked low and was not recommended for funding in 
either of the scientific reviews, yet moved forward from the Council 
with a recommendation to fund. To the best of our knowledge, now, 2 
years later, the acquisition of the property the Governor's office 
sponsored has fallen through because the landowner cannot maintain his 
private-only use of the property as was proposed and as is not allowed 
with Federal funds. This is from the Shoshone-Bannock Tribes view as 
well as the expertise of independent scientific peers, is but one of 
many examples of the politically driven funding decisions that are not 
critical for fish and wildlife recovery, and that resemble fraudulent 
waste of Federal funds.

Bureau of Indian Affairs Fish and Wildlife Funding
    The Shoshone-Bannock Tribes received a $100,000 add-on to the base 
Fish and Wildlife Program Management and Development fund in 1992. 
Despite repeated requests for at least $550,000 annually to 
meaningfully participate in the myriad of process and implementation 
activities related to anadromous fish management, the Shoshone-Bannock 
Tribes have received no additional funding for over a decade. 
Inadequate funding prevents the Shoshone-Bannock Tribes from 
meaningfully participating in ocean harvest forums (Pacific Fisheries 
Management Council and U.S.--Canada Treaty); Pacific Northwest Power 
and Conservation Council activities; Columbia River Power System forums 
and processes (Fish Passage Advisory Committee, Fish Passage Center 
Oversight Board, System Configuration Team, Technical Management Team, 
Implementation Team, Executive Committee, Water Quality Team), Action 
Agency forums, and FERC relicensing.
    The Shoshone-Bannock Tribes policy is to treat the Snake and 
Columbia rivers as one river system that emphasizes the natural 
riverine ecosystem, rather than upriver (storage reservoirs, resident 
fish species) versus downriver (riverine, anadromous fish species) 
conflicts. The Shoshone-Bannock Tribes were major participants in the 
Watershed Equity Team that drafted a way to operate and configure the 
Columbia River Power System to meet both the upriver and downriver 
biological objectives. The Tribes also were leaders in working with the 
13 federally recognized Columbia Basin Indian Tribes to develop a draft 
Unified Tribal Vision Paper on the Columbia River fish and wildlife 
resources and how to achieve that vision; and a Red Paper on river 
governance that afforded the technical, policy and legal authorities 
and responsibilities to the three sovereigns (tribal, State and 
Federal). These past activities were supported by the BIA funding, 
which now is severely constricted due to the significant increase in 
process for the Columbia River basin fish and wildlife management and 
recovery.

FERC Re-licensing and the Federal Energy Bill
    The proposed Energy Bill, Title V, Federal Power Act Amendments--
The proposed changes would affect some tribes directly: those with dams 
on their Reservations. This includes the American Falls Reservoir and 
its impacts on the Fort Hall Indian Reservation and also down river 
flows for salmon . The bill would amend in two ways Sections 4(e) and 
18 of the Federal Power Act as they relate to mandatory conditions 
imposed on licensed projects to protect Indian Reservations and fish 
passage. First, additional procedural protections would be granted to 
hydro licensees. Second, licensees would have equal status as 
governmental agencies to propose conditions for the protection of 
Indian Reservations and fish. Section 4(e) requires that the Federal 
Energy Regulatory Commission (FERC) take measures to protect Indian 
Reservations when hydro projects are located within and, affect those 
Reservations. It provides that the FERC can impose mandatory conditions 
on the license as recommended by the Secretary of the Interior:
    ``Provided, that licenses shall be issued within any reservation 
only after a finding by the Commission that the license will not 
interfere or be inconsistent with the purpose for which such 
reservation was created or acquired, and shall be subject to and 
contain such conditions as the Secretary of the department under whose 
supervision such reservation falls shall deem necessary for the 
adequate protection and utilization of such reservation.''
    Clearly, when viewed alone this proposed section is designed to arm 
hydro developers with further procedural mechanisms to challenge 
conditions imposed to protect Indian people and fish. This will further 
delay and frustrate the implementation of measures to protect Tribal 
interests. However, when viewed together with additional rights hydro 
developers would have under this bill, their rights would become even 
more oppressive. What is remarkable is proposed Section 33 of the bill. 
It would allow licensees the opportunity to recommend their own 
proposed protective measures under Sections 4(e) and 18. The criteria 
for acceptance of the developers' proposals will include cost reduction 
and improved electricity production. This bill would give licensees 
greater rights than sovereign nations and would reduce consideration of 
Tribal interests considerably. Disputes on whether to accept the 
developers' proposals would be referred to the FERC's Dispute 
Resolution Service. The non-binding advisory of the Dispute Resolution 
Service would go to Secretary of the Interior for acceptance or 
rejection, which is then submitted into the FERC record. At that point, 
the procedural protections discussed above would apply. This bill would 
significantly dilute Tribal interests and would defer the protection of 
Federal trust obligations to private parties. Only Congress can 
abrogate protections of tribal trust resources which must be done 
expressly and specifically. This bill sets a dangerous precedent.
    FERC is considering new regulations that propose to establish a new 
Consultation Policy that sets forth how FERC will complete Government-
to-Government consultation with Indian Tribal governments. This is a 
step in the right direction since the present process does not allow 
for any meaningful involvement by Tribal governments and there is no 
mandate for consultation with any Tribe. We would urge this Committee 
to oversee this process and possibly conduct hearings on Tribal 
involvement.
    In summary, the Shoshone-Bannock Tribes emphasize the Columbia and 
Snake river systems as one river system. The Tribes promote the natural 
riverine ecosystem as a High Significance to the Shoshone and Bannock 
people and culture. We appreciate the opportunity to provide this 
testimony to the U.S. Senate Committee on Environment and Public Works 
Subcommittee on Fisheries, Wildlife, and Water.
    The Shoshone-Bannock Tribes are situated high at the headwaters of 
the longest-traveled anadromous fish species in the world, and provide 
unique and proactive advice and techniques for the recovery and 
protection of these animals. We invite the Senate Committee and staff 
to travel to the Fort Hall Indian Reservation and to the off-
Reservation management areas to learn more about our subsistence 
practices, and the management of our production, habitat, and harvest 
programs.

                               __________
    Statement of Pat Ford, Executive Director, Save Our Wild Salmon

    On behalf of the Save Our Wild Salmon Coalition (SOS) and our 
combined membership of more than four million people nationwide, I 
thank Chairman Crapo and members of the subcommittee for holding this 
hearing today. Northwest sport and commercial fishermen and women, 
fishing businesses and conservationists thank you for this leadership.
    Chairman Crapo, you render a service to your State and region by 
inquiring into the status of Columbia and Snake River salmon and 
steelhead recovery efforts, including the status of current Federal and 
regional financial investments. Wild salmon and steelhead are an icon 
of the Northwest, deeply woven into the lives, communities, economies, 
and cultures of its people. Salmon and steelhead support many thousands 
of family wage jobs, bring hundreds of millions of dollars into 
Northwest communities every year, help assure community stability and 
health, signify andassure clean water for millions of people, and 
nourish the spiritual and material cultures of the Northwest. We also 
note that abundant wild salmon and steelhead in the rivers and streams 
of the Columbia Basin constitute a major part of the solemn promises 
made in the treaties between our country and the native people of the 
Northwest. Those promises have been sorely neglected. We thank you for 
seeing further and more deeply into the real stakes, values, and 
benefits of salmon and steelhead recovery.
    This subcommittee has asked those testifying to assess the status 
of Columbia and Snake River wild salmon and steelhead recovery. Since 
December 2000, the Federal salmon plan--also known as the 2000 
Biological Opinion for the Federal system of dams--has governed those 
efforts. This plan acknowledged that partial removal of four dams on 
the lower Snake River is the surest scientific means to restore Snake 
River salmon, but opted instead for an everything-but-dam-removal 
approach. Federal, State, and tribal representatives estimated the 
plan's implementation cost at nearly $1 billion annually. Its 
implementation requires close coordination amongst 13 Federal agencies, 
13 federally recognized Indian nations, four States, and many local 
governments and private entities. Most Northwest elected leaders, 
including yourself, Mr. Chairman, generally supported this plan--but 
you were one of the few to note at the time the profound managerial and 
fiscal challenge that implementing it presented.
    Your fears were justified. In 2001 and 2002, Save Our Wild Salmon 
released detailed report cards on Federal implementation of this plan. 
We found that the Federal agencies are implementing less than 30 
percent of the plan's required measures, and receiving about 50 percent 
of its required funding. Those two Report Cards are attached here for 
the record.
    If this pattern of failure to implement the plan is examined more 
closely, one finds the failure greatest in precisely those measures 
which scientific analyses have repeatedly shown are the most beneficial 
to salmon and steelhead: those which restore stream, river, and estuary 
habitats, including of course the critical migratory habitat. Put simply, 
fish need water, Fish need functioning rivers. Yet these are the areas 
where the least has been done to protect fish.
    Others have reached similar conclusions. In 2002, the U.S. General 
Accounting Office (GAO), at your request, analyzed salmon recovery 
spending to date and what that spending had accomplished. GAO found 
that more than $3.3 billion had been spent on salmon recovery in the 
previous 20 years, with little to no measurable improvement for that 
investment.\1\ NOAA Fisheries (formerly the National Marine Fisheries 
Service) released a report finding that, despite recent adult salmon 
returns, wild Snake River salmon are in as bad shape now as when they 
were listed more than 10 years ago.\2\ NOAA' s recent analysis of the 
implementation of the Federal salmon is also illuminating. That 
analysis states``. . . unless we can quickly develop alternative means 
of assessment, at the 2003 check-in NOAA Fisheries will need to 
evaluate whether there will be greater uncertainty associated with the 
Opinion's reliance on offsite mitigation that will remain beyond the 
2005 check-in and any significance for avoiding jeopardy.''\3\ And, as 
we now know, the salmon plan which the Administration has failed to 
implement was itself not sufficient to meet the test of law; a Federal 
court has ruled it illegal.
---------------------------------------------------------------------------
    \1\ United States General Accounting Office, Columbia River Basin 
Salmon and Steelhead: Federal Agencies' Recovery Responsibilities, 
Expenditures and Actions, July 2002 (GAO-02-6 12).
    \2\ Northwest Fisheries Science Center, Biological Review Team 
Draft Report of Updated Status of Listed ESUs of Salmon and Steelhead, 
2003.
    \3\ National Marine Fisheries Service, Findings Regarding Adequacy 
of the Endangered Species Act 2003/2003-2007 Implementation Plan for 
the Federal Columbia River Power System, May 14, 2003.
---------------------------------------------------------------------------
    As you know, in recent months, the flurry of concern around BPA's 
management of both its fiscal and public purpose responsibilities has 
been swirling. Congress has requested GAO reports that focus on BPA's 
financial situation and fish and wildlife obligations. Similarly, 
regional concern (noted in editorials, hearings, etc.) has risen 
greatly. Earlier this month, GAO testified before the Senate Indian 
Affairs Committee stating that ``BPA's two roles, as supplier of 
economical and reliable power and as protector of fish and wildlife, 
inherently conflict . . . [this conflict] will likely become more 
intense if growing power demands bump up against increased efforts to 
mitigate damage to fish and wildlife.''\4\ BPA's financial troubles are 
exacerbating this conflict of interest.
---------------------------------------------------------------------------
    \4\ Jim Wells, Director, Natural Resources and Environmental Team, 
U.S. GAO, Testimony before the Senate Indian Affairs Committee (June 4, 
2003).
---------------------------------------------------------------------------
    None of this is surprising. In 1995, a NOAA Fisheries endorsed 
group of independent, tribal, State, and Federal biologists, after 4 
years of investigation and $7 million, found that partial removal of 
the four lower Snake River dams was the surest and best means to 
restore abundant Snake River salmon. In 2000, the Northwest Power 
Planning Council's Multi-Species Framework Approach for the Columbia 
River Basin showed that lower Snake River dam removal would 
significantly increase Snake River salmon populations at a competitive 
cost when compared with other alternatives that would require costly 
and truly aggressive ``offsite'' measures involving significant water 
acquisitions and severe land management restrictions.\5\ And just 
earlier this month, the scientific journal, Conservation Biology 
published a study by a U.S. Fish & Wildlife fisheries biologist that 
shows once again that partial dam removal was the surest and best 
option for recovery of Snake River salmon and steelhead.\6\ Taking 
science and law together, we have just two real options for salmon 
recovery--partial removal of the lower Snake River dams or significant 
water acquisition and severe land management restrictions.
---------------------------------------------------------------------------
    \5\ Northwest Power Planning Council, Human Effects Analysis of the 
Multi-Species Framework Alternatives, February 2000.
    \6\ Wilson, Paul H., Using Population Projection Matrices to 
Evaluate Recovery Strategies for Snake River Spring and Summer Chinook 
Salmon, Conservation Biology, Vol. 17, No. 3, June 2003.
---------------------------------------------------------------------------
    The Northwest Governors recently sent a letter to President Bush 
suggesting that the rewrite of the Federal salmon plan should largely 
stay on the current course. We strongly disagree. As a matter of law 
and treaty, minor changes will not suffice. The people and communities 
of the Northwest need a real plan. Staying the course ensures several 
things that none of us wants: it ensures the ultimate extinction of 
salmon in the Snake River and the jobs and communities dependent upon 
them. Staying the course means the ship of salmon recovery will hit the 
rocks and break apart. Clearly the sirens of the status quo were 
singing and clouding the judgment of our regional leaders.
    We urge you to close your ears to those sirens of status quo, to 
chart a safer, more productive path for the future of Pacific Northwest 
salmon. We urge you to press this Administration to craft a plan that 
is achievable; that follows the science; and that protects salmon-based 
communities and our nation's treaty obligatiOns by ensuring self-
sustaining harvestable salmon.
    In particular we ask you to:
    (1) secure an Administration process on the rewrite of the Federal 
salmon plan that formally involves the States and Tribes, and that 
provides opportunity for public comment;
    (2) ensure that all options for salmon recovery are on the table, 
including the partial removal of the four lower Snake River dams;
    (3) urge an independent regional economic analysis of the benefits 
now derived from salmon and steelhead, and the benefits available if 
abundant harvestable wild salmon and steelhead are restored to the 
Columbia and Snake River Basin;
    (4) support an assured, multi-year, dependable salmon investment 
fund at BPA in the amount of at least $230 million/year, with fishery 
agencies and Tribes sharing formal decisionmaking on its spending with 
the Federal representatives.
    As the bicentennial of Lewis and Clark begins, we hope that this 
hearing is simply the start of our nation's efforts to chart a new 
course on salmon recovery, to think critically, act honestly, and 
restore fully salmon and steelhead to the Snake and Columbia rivers. 
These fish--the same fish that saved the Lewis and Clark expedition 
from starvation--are a part of our nation's history, the essence of our 
moral and legal obligations to the Native Peoples of the Northwest, 
integral to cultures and religions, and essential to the economic 
fabric of the region.
    Thank you again for holding this hearing and for beginning a 
process to shed light on how best to protect this economic, religious, 
and magical resource for generations to come. SOS stands ready to 
assist you in those efforts.

                                 <all>

</pre></body></html>
